No.

In the Supreme Court of the United States
FNU TANZIN, ET AL., PETITIONERS
v.
MUHAMMAD TANVIR, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
ZACHARY D. TRIPP
Assistant to the Solicitor
General
BENJAMIN H. TORRANCE
SARAH S. NORMAND
ELLEN BLAIN
MARY HAMPTON MASON
REGINALD M. SKINNER
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether the Religious Freedom Restoration Act of
1993, 42 U.S.C. 2000bb et seq., permits suits seeking
money damages against individual federal employees.

(I)

PARTIES TO THE PROCEEDING

Petitioners were the appellees in the court of appeals. They are FNU Tanzin, Sanya Garcia, John LNU,
Francisco Artusa, John C. Harley III, Steven LNU, Michael LNU, and Gregg Grossoehmig, Special Agents of
the Federal Bureau of Investigation (FBI); Weysan
Dun, Special Agent in Charge, FBI; James C. Langenberg, Assistant Special Agent in Charge, FBI; and five
John Doe Special Agents, FBI. *
Respondents were the appellants in the court of appeals. They are Muhammad Tanvir, Jameel Algibhah,
and Naveed Shinwari.
RELATED PROCEEDINGS

United States District Court (S.D.N.Y.):
Tanvir v. Lynch, No. 13-cv-6951 (Feb. 17, 2016)
United States Court of Appeals (2d Cir.):
Tanvir v. Tanzin, No. 16-1176 (May 2, 2018), petition
for reh’g denied, Feb. 14, 2019.

As specified above, the pleadings named several defendants as
First Name Unknown (FNU), Last Name Unknown (LNU), or
anonymously as John Does. D. Ct. Doc. 15, at 1, 8-9 (Apr. 22, 2014).
The pleadings list six John Doe Special Agents of the FBI, but John
Does 2 and 3 have been determined to be the same person. App.,
infra, 64a n.1. Nine other named or unnamed Special Agents, as
well as the Attorney General, the Director of the FBI, the Director
of the Terrorist Screening Center, and the Secretary of Homeland
Security were defendants in the district court but did not appear in
the court of appeals. Awais Sajjad was a plaintiff in the district
court but did not appear in the court of appeals. See id. at 1a, 62a.
*

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 11
A. RFRA does not provide an action for damages
against individual federal officials .............................. 12
B. There is no basis for presuming that Congress
intended individual officers to be liable for
damages ........................................................................ 20
C. The question presented warrants this Court’s
review ............................................................................ 23
Conclusion ................................................................................... 26
Appendix A — Court of appeals opinion (May 2, 2018,
amended June 25, 2018) .............................. 1a
Appendix B — Court of appeals opinion denying
rehearing (Feb. 14, 2019) .......................... 45a
Appendix C — District court opinion and order
(Sept. 3, 2015) ............................................. 62a
Appendix D — District court order (Dec. 28, 2015) .......... 110a
Appendix E — District court order (Feb. 1, 2016)............ 113a
Appendix F — Statutory provisions ................................... 115a
TABLE OF AUTHORITIES

Cases:
Alexander v. Sandoval, 532 U.S. 275 (2001) ....................... 14
Anderson v. Creighton, 483 U.S. 635 (1987) ....................... 13
Ashcrof t v. Iqbal, 556 U.S. 662 (2009)...................... 10, 20, 24
Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U.S. 388 (1971) .................... 4, 13
Bush v. Lucas, 462 U.S. 367 (1983) ...................................... 20
Cannon v. University of Chi., 441 U.S. 677 (1979) ............ 20
(III)

IV
Cases—Continued:

Page

Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520 (1993) ............................................. 24
Curtis v. Loether, 415 U.S. 189 (1974) ................................. 15
Davila v. Gladden, 777 F.3d 1198 (11th Cir.),
cert. denied, 136 S. Ct. 78 (2015) ....................................... 17
Employment Div. v. Smith, 494 U.S. 872 (1990)............ 3, 18
Fiallo v. Bell, 430 U.S. 787 (1977) ........................................ 24
Franklin v. Gwinnett Cnty. Pub. Sch., 503 U.S. 60
(1992) ...........................................................6, 7, 20, 21, 22, 23
Gonzales v. O Centro Espirita Benef icente Uniao
do Vegetal, 546 U.S. 418 (2006) .......................................... 16
Gregoire v. Biddle, 177 F.2d 579 (2d Cir. 1949),
cert. denied, 339 U.S. 949 (1950) ....................................... 14
Haig v. Agee, 453 U.S. 280 (1981) ........................................ 24
Haight v. Thompson, 763 F.3d 554 (6th Cir. 2014) ............ 17
Harlow v. Fitzgerald, 457 U.S. 800 (1982) .......................... 13
Holt v. Hobbs, 135 S. Ct. 853 (2015) ..................................... 16
Jesner v. Arab Bank, PLC, 138 S. Ct. 1386 (2018) ............. 13
Mack v. O’Lear y, 80 F.3d 1175 (7th Cir. 1996),
vacated on other grounds, 522 U.S. 801 (1997) .................. 5
Mack v. Warden Loretto FCI, 839 F.3d 286
(3d Cir. 2016) ....................................................................... 23
Nelson v. Miller, 570 F.3d 868 (7th Cir. 2009) ................... 17
Nieves v. Bartlett, 139 S. Ct. 1715 (2019) ............................ 25
Oklevueha Native Am. Church of Haw., Inc. v.
Holder, 676 F.3d 829 (9th Cir. 2012) ................................. 17
Rendelman v. Rouse, 569 F.3d 182 (4th Cir. 2009) ............ 17
Ryan v. Gonzales, 568 U.S. 57 (2013) .................................. 23
Schweiker v. Chilicky, 487 U.S. 412 (1988) ......................... 14
Sharp v. Johnson, 669 F.3d 144 (3d Cir.),
cert. denied, 567 U.S. 937 (2012) ....................................... 17
Sherber t v. Verner, 374 U.S. 398 (1963) ................................ 3

V
Cases—Continued:

Page

Smith v. Allen, 502 F.3d 1255 (11th Cir. 2007),
abrogated on other grounds by Sossamon v. Texas,
563 U.S. 277 (2011).............................................................. 17
Sossamon v. Lone Star State of Tex., 560 F.3d 316
(5th Cir. 2009), aff ’d, 563 U.S. 277 (2011) ......................... 17
Sossamon v. Texas, 563 U.S. 277 (2011) .................... passim
Stewart v. Beach, 701 F.3d 1322 (10th Cir. 2012) ............... 17
Thomas v. Review Bd. of Ind. Emp’t Sec. Div.,
450 U.S. 707 (1981)........................................................ 24, 25
Turkmen v. Hasty, 789 F.3d 218 (2d Cir. 2015),
rev’d in part and vacated in part on other grounds
sub nom. Ziglar v. Abbasi, 137 S. Ct. 1843 (2017)............. 5
Washington v. Gonyea, 731 F.3d 143 (2d Cir. 2013) ...... 7, 17
Webman v. Federal Bureau of Prisons,
441 F.3d 1022 (D.C. Cir. 2006) ..................................... 17, 19
Wilkie v. Robbins, 551 U.S. 537 (2007) ................................ 14
Wisconsin v. Yoder, 406 U.S. 205 (1972) ............................... 3
Ziglar v. Abbasi, 137 S. Ct. 1843 (2017) .......10, 13, 14, 20, 24
Constitution and statutes:
U.S. Const.:
Art. I, § 8, Cl. 1 (Spending Clause) .................................. 7
Amend. I ....................................................................... 3, 19
Alien Tort Statute, 28 U.S.C. 1350 ...................................... 13
Education Amendments of 1972, Tit. IX,
20 U.S.C. 1681 et seq. .................................................... 20, 22
Religious Freedom Restoration Act of 1993,
42 U.S.C. 2000bb et seq. ....................................................... 2
42 U.S.C. 2000bb(a)(4) ............................................ 3, 115a
42 U.S.C. 2000bb(b) ............................................... 19, 115a
42 U.S.C. 2000bb(b)(1) ........................................ 3, 5, 115a
42 U.S.C. 2000bb(b)(2) ............................................ 3, 116a

VI
Statutes—Continued:

Page

42 U.S.C. 2000bb-1(a).............................................. 3, 116a
42 U.S.C. 2000bb-1(b) ............................................. 3, 116a
42 U.S.C. 2000bb-1(c) .................................... passim, 116a
42 U.S.C. 2000bb-2(1)..................... 2, 3, 6, 11, 12, 16, 117a
Religious Land Use and Institutionalized Persons
Act of 2000, 42 U.S.C. 2000cc et seq. ................................... 5
42 U.S.C. 2000cc-2(a) ................................................ 16, 18
42 U.S.C. 2000cc-5(4)(A)(ii) ............................................ 16
18 U.S.C. 2520(b) ................................................................... 15
42 U.S.C. 1983 ...................................................9, 11, 15, 16, 22
42 U.S.C. 1985 ........................................................................ 15
42 U.S.C. 2000d-7(a)(2) ......................................................... 22
50 U.S.C. 1809-1810 ............................................................... 15
Miscellaneous:
Bureau of Justice Statistics, Office of Justice
Programs, U.S. Dep’t of Justice, Prisoners in 2017,
https://www.bjs.gov/content/pub/pdf/p17.pdf .................. 25
H.R. 5377, 101st Cong., 2d Sess. (1990)............................... 23
H.R. Rep. No. 88, 103d Cong., 1st Sess. (1993) .................. 19
S. Rep. No. 111, 103d Cong., 1st Sess. (1993) ..................... 19
Webster’s Third New International Dictionary
(1993) .................................................................................... 12

In the Supreme Court of the United States
No.
FNU TANZIN, ET AL., PETITIONERS
v.
MUHAMMAD TANVIR, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the petitioners in
this case, respectfully petitions for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Second Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a-44a)
is reported at 894 F.3d 449. The order denying rehearing en banc, along with concurring and dissenting opinions (App., infra, 45a-61a), is reported at 915 F.3d 898.
The opinion of the district court (App., infra, 62a-109a)
is reported at 128 F. Supp. 3d 756.
JURISDICTION

The judgment of the court of appeals was entered on
May 2, 2018. A petition for rehearing was denied on
February 14, 2019 (App., infra, 45a-46a). On May 8,
2019, Justice Ginsburg extended the time within which
to file a petition for a writ of certiorari to and including
(1)

2
June 14, 2019. On June 4, 2019, Justice Ginsburg further extended the time to and including July 14, 2019.
The jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).
STATUTORY PROVISIONS INVOLVED

42 U.S.C. 2000bb-1(c) provides:
(c) Judicial relief

A person whose religious exercise has been burdened in violation of this section may assert that violation as a claim or defense in a judicial proceeding
and obtain appropriate relief against a government.
42 U.S.C. 2000bb-2(1) provides:
As used in this chapter—
(1) the term “government” includes a branch,
department, agency, instrumentality, and official (or
other person acting under color of law) of the United
States, or of a covered entity.
Other relevant statutory provisions are reproduced in
the appendix to this petition. App., infra, 115a-118a.
STATEMENT

This case concerns the scope of the remedy Congress
provided in the Religious Freedom Restoration Act of
1993 (RFRA), 42 U.S.C. 2000bb et seq., to those whose
exercise of religion has been substantially burdened by
the government. The question presented is whether the
provision in RFRA allowing litigants to “obtain appropriate relief against a government,” 42 U.S.C. 2000bb-1(c),
authorizes an award of money damages against federal
employees sued in their individual capacities. The answer to that question raises fundamental separation-ofpowers concerns with a significant impact on Executive

3
Branch operations nationwide, warranting this Court’s
review.
1. Congress enacted RFRA in response to this Court’s
decision in Employment Division v. Smith, 494 U.S.
872 (1990), which held that the First Amendment does
not require neutral and generally applicable laws that
substantially burden religious exercise to be justified
by a compelling government interest. See 42 U.S.C.
2000bb(a)(4). Congress declared that RFRA’s purposes
were “to restore the compelling interest test” that had
been used before Smith and “to provide a claim or defense to persons whose religious exercise is substantially burdened by government.” 42 U.S.C. 2000bb(b)(1)
and (2); cf. Wisconsin v. Yoder, 406 U.S. 205 (1972); Sherbert v. Verner, 374 U.S. 398 (1963).
RFRA accordingly provides that the “[g]overnment
shall not substantially burden a person’s exercise of religion even if the burden results from a rule of general
applicability,” unless that burden is “in furtherance of a
compelling governmental interest” and “is the least restrictive means of furthering that compelling governmental interest.” 42 U.S.C. 2000bb-1(a) and (b). And
RFRA provides that “[a] person whose religious exercise has been burdened in violation of this section may
assert that violation as a claim or defense in a judicial
proceeding and obtain appropriate relief against a government.” 42 U.S.C. 2000bb-1(c). The Act defines “government” to “include[] a branch, department, agency,
instrumentality, and official (or other person acting under color of law) of the United States” or other federal
possessions. 42 U.S.C. 2000bb-2(1). RFRA does not define “appropriate relief.”

4
2. Respondents are Muslim men who lawfully immigrated to the United States and are now either U.S. citizens or lawful permanent residents. App., infra, 3a.
They allege that several agents of the Federal Bureau
of Investigation (FBI) asked them to serve as informants for the government in terrorism-related investigations, but they refused, at least in part based on their
religious beliefs. Respondents assert that petitioners
then retaliated against them by improperly using the
No Fly List—a government-maintained list of persons
known or suspected of posing a risk of terrorism and
therefore not permitted to board commercial aircraft in
the United States. Id. at 3a-4a. In particular, respondents allege that the agents placed (or, if a respondent
was already on the No Fly List, retained) them on the
No Fly List due to their decision not to assist the FBI.
Ibid. Thus, according to respondents, the agents forced
them “into an impermissible choice between, on the one
hand, obeying their sincerely held religious beliefs and
being subjected to * * * placement or retention on the
No Fly List, or, on the other hand, violating their sincerely held religious beliefs in order to avoid [placement
or retention] on the No Fly List,” and in that way substantially burdened their exercise of sincerely held religious beliefs. Id. at 4a. Respondents acknowledge,
however, that only relevant agencies, and not individual
FBI agents, have the authority to determine the composition of the No Fly List. See id. at 5a.
Respondents sued and, among other things, asserted
violations of their rights under RFRA and the First
Amendment, for which they sought a remedy under
Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971). App., infra, 11a;
see id. at 12a. They sought both injunctive relief against

5
the defendants in their official capacities, as well as
damages in their individual capacities.
The district court stayed the official-capacity claims
after the government advised respondents “that it knew
of ‘no reason’ why they would be unable to fly in the future.” App., infra, 64a. The district court then dismissed the individual-capacity claims. Ibid.
First, the district court held that a Bivens remedy is
not available for a violation of the First Amendment.
App., infra, 79a-94a; see Turkmen v. Hasty, 789 F.3d 218,
236 (2d Cir. 2015), rev’d in part and vacated in part on
other grounds sub nom. Ziglar v. Abbasi, 137 S. Ct. 1843
(2017). Respondents did not appeal that determination.
Second, the district court dismissed respondents’
RFRA claims for damages against the individual FBI
agents. App., infra, 94a-108a. The court noted that, in
Sossamon v. Texas, 563 U.S. 277 (2011), this Court held
that identical language in RFRA’s companion statute,
the Religious Land Use and Institutionalized Persons
Act of 2000 (RLUIPA), 42 U.S.C. 2000cc et seq., does not
authorize money damages against a State. App., infra,
94a-95a. The district court then looked to Congress’s
purposes, determining that Congress designed RFRA
“to restore the compelling interest test” for religiousexercise claims as it had existed before Smith. Id. at
97a (quoting 42 U.S.C. 2000bb(b)(1)); see id. at 98a. The
court observed that this Court had never recognized a
First Amendment claim for damages against individual
federal officials before or after Smith. Id. at 101a-102a.
And RFRA itself “says very little about remedies,”
making it “unlikely that Congress intended it to displace the existing remedial system for constitutional violations.” Id. at 101a (quoting Mack v. O’Leary, 80 F.3d
1175, 1181 (7th Cir. 1996), vacated on other grounds,

6
522 U.S. 801 (1997)). Thus, the court concluded, “the
plain language of the statute read in the light of its
stated purpose suggests the law changed the standard
applicable to free exercise claims while retaining all
remedies that were understood as ‘appropriate’ for
claims under the Free Exercise Clause—and nothing
more.” Id. at 101a-102a; see id. at 107a-108a.
Respondents dismissed their official-capacity claims,
and the district court entered final judgment in favor of
petitioners. See App., infra, 112a-114a.
3. The court of appeals reversed the dismissal of respondents’ individual-capacity claims for damages, and
remanded for consideration of petitioners’ qualifiedimmunity defense. App., infra, 1a-44a.
The court of appeals first concluded that RFRA authorizes individual-capacity claims against federal officers. App., infra, 15a-22a. RFRA allows an aggrieved
person to “obtain appropriate relief against a government,” 42 U.S.C. 2000bb-1(c), and defines “government” to include an official or “other person acting under color of law,” 42 U.S.C. 2000bb-2(1). The court of
appeals substituted RFRA’s definition of “government”
into the text authorizing suit, determining that “RFRA,
by its plain terms, [thus] authorizes individual capacity
suits against federal officers.” App., infra, 19a.
The court of appeals next determined that the phrase
“appropriate relief ” includes money damages against
individual defendants. The court acknowledged the
phrase is ambiguous, as this Court recognized in Sossamon when interpreting the same statutory text in
RLUIPA. App., infra, 23a-24a. The court of appeals
observed that Congress enacted RFRA one year after
Franklin v. Gwinnett County Public Schools, 503 U.S.

7
60 (1992), which states that courts ordinarily “presume[] the availability of all appropriate remedies unless Congress has expressly indicated otherwise.” App.,
infra, 24a-25a (quoting Franklin, 503 U.S. at 66) (emphasis omitted). The court of appeals concluded that
Congress’s use of the phrase “appropriate relief ” in
RFRA indicated that it intended to follow Franklin and
thus to make damages presumptively available. Id. at
25a-26a.
Although Sossamon held that the same phrase in
RLUIPA does not include damages against a State, and
other circuits have held that RFRA does not allow damages against the federal government, the court of appeals distinguished those rulings on the ground that
they were based on considerations of sovereign immunity that do not pertain to individual-capacity suits. App.,
infra, 26a-28a. The court also distinguished its own circuit precedent holding that RLUIPA does not permit
individual-capacity damages suits against state officers.
Id. at 28a-30a; see Washington v. Gonyea, 731 F.3d 143,
145 (2d Cir. 2013) (per curiam). The court explained
that Gonyea rested on the principle that, in Spending
Clause legislation like RLUIPA, Congress may impose
conditions on States that accept the relevant funds, but
not on individuals (like the State’s employees) who did
not themselves receive the funds. Because RFRA did
not rest on the Spending Clause, the panel reasoned,
that concern is not implicated. App., infra, 29a-30a.
The court recognized that under its holding, “appropriate relief ” would include damages against individual officials who violate RFRA, but not individual officials under RLUIPA, sovereigns under RFRA, or sovereigns
under RLUIPA. See id. at 31a. But the court concluded

8
the word “appropriate” “may well take on different
meanings in different settings.” Ibid.
4. Petitioners sought rehearing en banc, which was
denied. App., infra, 45a-46a. Chief Judge Katzmann
and Judge Pooler, both members of the panel, concurred in the denial of rehearing en banc. Id. at 47a50a.1 Judge Jacobs filed an opinion dissenting from the
denial of rehearing en banc, which was joined by Judges
Cabranes and Sullivan. Id. at 51a-58a. Judge Cabranes
also filed a dissenting opinion, which was joined by
Judges Jacobs and Sullivan. Id. at 59a-61a.
a. In their concurring opinion, Chief Judge Katzmann
and Judge Pooler reaffirmed their view that the panel
decision properly interpreted RFRA to provide a damages remedy where Congress “legislated liability,” and,
contrary to the dissenting judges’ opinions, was not akin
to implying a new Bivens-type cause of action. App.,
infra, 49a; see id. at 47a-50a.
b. In his dissent, Judge Jacobs explained that the
panel’s reasoning “fails as a matter of law and logic and
runs counter to clear Supreme Court guidance,” and its
conclusion “could be viewed without alarm only by people ( judges and law clerks) who enjoy absolute immunity” from damages suits. App., infra, 51a. Judge Jacobs
emphasized that this Court and the Second Circuit had
previously interpreted the “identical private right of action” in RLUIPA not to allow damages suits against a
state or an individual, respectively. Id. at 52a. The dissent observed that this Court’s holding in Sossamon relied on “the plain meaning of the text”: “appropriate
relief against a government” suggests that since both
The third panel member was Judge Lynch, who as a senior judge
could not report his views on the petition for rehearing en banc. See
App., infra, 47a n.1.
1

9
RFRA and RLUIPA authorize actions against a sovereign, “ ‘monetary damages are not suitable or proper.’ ”
Id. at 52a-53a (quoting Sossamon, 563 U.S. at 286) (internal quotation marks omitted). Judge Jacobs found it
implausible that, since RFRA and RLUIPA “attack the
same wrong, in the same way, in the same words,” the
“appropriate relief against a government” can mean one
thing in RFRA and another in RLUIPA. Id. at 53a.
That RFRA’s definition of “government” includes an
“official,” Judge Jacobs wrote, does not suggest personal liability, but simply “facilitate[s] injunctive relief ”
and “tells us nothing about damages.” App., infra, 53a.
Judge Jacobs also contrasted the language of RFRA
with that in 42 U.S.C. 1983, which permits an “action at
law” and thus plainly allows damages suits. App., infra,
54a (quoting 42 U.S.C. 1983); see id. at 53a-54a. Judge
Jacobs further observed that “ ‘every other federal statute’ ” respondents identified allowing damages actions
against individual federal officers does so expressly, id.
at 54a (quoting id. at 103a), thus underscoring that “[i]f
a statute imposes personal damages liability against individual federal officers, one would expect that to be
done explicitly, rather than by indirection, hint, or negative pregnant,” id. at 55a. Judge Jacobs explained that
the lack of a damages remedy was supported by RFRA’s
purpose, which was to restore the pre-Smith substantive protection for religion rather than to expand the
kinds of relief available before Smith. Id. at 55a-56a.
Judge Jacobs also distinguished Franklin, which he
explained did not create a presumption of money damages, but simply recognized a presumption of “appropriate” remedies for private rights of action, which
“simply begs the question” of what “appropriate” remedies RFRA allows. App., infra, 56a. In construing

10
what remedies are “appropriate,” he instead looked to
cases like Ziglar v. Abbasi, 137 S. Ct. 1843 (2017), in
which this Court observed that damages are not “generally considered appropriate relief against governments and government officials.” App., infra, 56a.
Franklin also concerned an implied right of action,
Judge Jacobs wrote, which are “not in vogue.” Id. at
57a. Yet “[t]he panel has done what the Supreme Court
has forbidden: it has created a new Bivens cause of action, albeit by another name and by other means. The
Supreme Court did not shut the Bivens door so that we
could climb in a window.” Ibid. Judge Jacobs further
noted that the panel opinion disregarded the “ ‘substantial social costs’ ” that inhere in individual damages liability for public officials, and will result in “federal policy being made (or frozen) by the prospect of impact litigation,” creating incentives to “avoid doing one’s job.”
Id. at 57a-58a (citation omitted). Thus, he concluded,
“the panel opinion is quite wrong and actually dangerous.” Id. at 58a.
c. In his dissent, Judge Cabranes criticized the
panel decision as “a transparent attempt to evade, if not
defy,” this Court’s precedents admonishing against the
extension of Bivens-like remedies. App., infra, 59a.
Judge Cabranes observed that, in Abbasi and Ashcroft
v. Iqbal, 556 U.S. 662 (2009), this Court had made clear
that “damages remedies against government officials
are disfavored and should not be recognized absent explicit congressional authorization” because of the “ ‘substantial costs’ ” they impose. App., infra, 60a (quoting
Abbasi, 137 S. Ct. at 1856). He thus determined that
Congress had not “legislated a Bivens-like remedy—
sub silentio—in enacting RFRA.” Ibid.

11
REASONS FOR GRANTING THE PETITION

When Congress has enacted statutes like 42 U.S.C.
1983 that create an express cause of action that provides
for damages against individual officials, it has clearly
considered that important step and spoken in unambiguous terms. In RFRA, by contrast, Congress merely
provided that a person may sue for “appropriate relief
against a government,” which is defined to include an
“official.” 42 U.S.C. 2000bb-1(c), 2000bb-2(1). This
Court has already held that the very same phrase in
RFRA’s sister statute, RLUIPA, does not speak clearly
enough to authorize damages actions against a State.
See Sossamon v. Texas, 563 U.S. 277 (2011). The courts
of appeals have further concluded that RLUIPA does
not authorize damages actions against individual state
officers and that RFRA does not authorize damages actions against the federal government itself. The court
of appeals here, however, erroneously construed RFRA
to expose federal officers to personal liability for money
damages, so individual federal officers stand alone in
facing financial liability for religious-exercise claims.
The court of appeals’ anomalous ruling clears the
way for a slew of future suits against national-security
officials, criminal investigators, correctional officers,
and countless other federal employees, seeking to hold
them personally liable for alleged burdens on any of the
myriad religious practices engaged in by the people of
our Nation. That ruling thus creates significant practical problems both for individual federal employees and
the Executive Branch more broadly. Accordingly, although no circuit conflict exists on the question presented, this Court’s review is warranted.

12
A. RFRA Does Not Provide An Action For Damages
Against Individual Federal Officials

RFRA’s text, read in light of its context, history, purpose, and this Court’s interpretation of RLUIPA in Sossamon, is best understood not to provide an action for
damages against individual federal officials.
1. RFRA provides that an individual may “obtain
appropriate relief against a government” for violating
RFRA, 42 U.S.C. 2000bb-1(c), and it defines “government” to include a federal “official,” 42 U.S.C.
2000bb-2(1). Congress thereby made available injunctive relief that runs against a federal officer in his official capacity; it did not make available damages against
the officer in his personal capacity. Damages against an
individual official are not “appropriate relief against a
government,” 42 U.S.C. 2000bb-1(c) (emphasis added),
in any ordinary sense of that phrase, because they do
not come out of the federal treasury, unless the government makes the independent discretionary decision to
indemnify the official for his or her losses. See Sossamon, 563 U.S. at 286 (“Far from clearly identifying
money damages, the word ‘appropriate’ is inherently
context dependent.”); see also Webster’s Third New International Dictionary 106 (1993) (defining “appropriate” as “specially suitable: FIT, PROPER”).
At the least, RFRA is not sufficiently clear that an
award of damages against individual federal officials is
“appropriate relief against a government,” 42 U.S.C.
2000bb-1(c), in light of the serious separation-of-powers
concerns with imposing personal monetary liability on
federal executive officers. As Judge Cabranes explained in his dissent from the denial of rehearing en
banc, this Court’s precedents instruct that “damages
remedies against government officials are disfavored

13
and should not be recognized absent explicit congressional authorization” because of the “ ‘substantial costs’ ”
they impose. App., infra, 60a (citation omitted); see id.
at 55a (Jacobs, J., dissenting from the denial of reh’g en
banc) (“If a statute imposes personal damages liability
against individual federal officers, one would expect
that to be done explicitly.”). This Court has emphasized, both in cases involving statutory remedies as well
as in actions under Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics, 403 U.S. 388
(1971), that it is typically the role of Congress, not the
courts, to “decide whether to provide for a damages
remedy” against individual federal officers. Ziglar v.
Abbasi, 137 S. Ct. 1843, 1857 (2017) (citation and internal quotation marks omitted); cf. Jesner v. Arab Bank,
PLC, 138 S. Ct. 1386, 1403 (2018) (“[A]bsent further action from Congress it would be inappropriate for courts
to extend * * * liability to foreign corporations” under
the Alien Tort Statute, 28 U.S.C. 1350).
Creating a damages remedy against individual federal employees “requires an assessment of its impact on
governmental operations systemwide.” Abbasi, 137 S. Ct.
at 1858. That impact is significant: Damages suits impose “burdens on Government employees who are sued
personally,” preventing them from “devoting the time
and effort required for the proper discharge of their duties” and causing them to “second-guess difficult but
necessary decisions” in matters constitutionally committed to the Executive Branch. Id. at 1858, 1860-1861;
see Anderson v. Creighton, 483 U.S. 635, 638 (1987) (“substantial social costs”); Harlow v. Fitzgerald, 457 U.S.
800, 814 (1982) (costs include “expenses of litigation, the
diversion of official energy from pressing public issues,
and the deterrence of able citizens from acceptance of

14
public office,” as well as “ ‘dampen[ing] the ardor of [officials] in the unflinching discharge of their duties’ ”
(quoting Gregoire v. Biddle, 177 F.2d 579, 581 (2d Cir.
1949) (L. Hand, C.J.), cert. denied, 339 U.S. 949 (1950))).
Damages remedies against individual officials also impose “costs and consequences to the Government itself,” through impairment of policy-making, intrusion
on “sensitive functions of the Executive Branch,” and
putting the government to the choice of whether to “defen[d] and indemnif[y]” the individual official. Abbasi,
137 S. Ct. at 1856, 1858, 1861.
Congress is “in the better position” to weigh those
factors and to “consider if ‘the public interest would be
served’ ” by imposing a damages remedy on federal employees. Abbasi, 137 S. Ct. at 1857 (quoting Schweiker
v. Chilicky, 487 U.S. 412, 427 (1988)) (internal quotation
marks omitted). Thus, “no matter how desirable [a remedy] might be as a policy matter, or how compatible with
the statute” or its purposes, courts should not create
that remedy unless Congress “displays an intent” to allow it. Alexander v. Sandoval, 532 U.S. 275, 286-287
(2001); see Abbasi, 137 S. Ct. at 1856 (Congress “has a
substantial responsibility to determine whether, and
the extent to which, monetary and other liabilities
should be imposed upon individual officers and employees of the Federal Government.”); Wilkie v. Robbins,
551 U.S. 537, 562 (2007) (“ ‘Congress is in a far better
position than a court to evaluate the impact of a new
species of litigation’ against those who act on the public’s behalf .”) (citation omitted). Here, the amorphous
phrase “appropriate relief” does not indicate that Congress has actually decided to make individual officers
liable for money damages. If anything, it suggests that
Congress declined to answer any question about which

15
kinds of remedies are available, and instead left that
question for the courts to resolve under preexisting
principles of law.
2. RFRA’s language stands in contrast to that of
statutes where Congress has expressly created a private cause of action and allowed for an award of damages against individual government employees. Most
prominently, Section 1983 provides that “[e]very person” acting under color of state law who deprives another of federal rights “shall be liable to the party injured in an action at law.” 42 U.S.C. 1983. The reference to liability “at law” leaves no doubt Congress intended to allow for a damages suit. See Curtis v. Loether, 415 U.S. 189, 196 (1974) (damages are “the traditional form of relief offered in the courts of law”). And
as the district court observed, “every other federal statute identified by [respondents] as recognizing a personal capacity damages action against federal officers
* * * includes specific reference to the availability of
damages.” App., infra, 103a; see, e.g., 18 U.S.C. 2520(b)
(“appropriate relief includes * * * damages * * * and
punitive damages”); 42 U.S.C. 1985 (“action for the recovery of damages”); 50 U.S.C. 1809-1810 (“aggrieved
person * * * entitled to recover” from person acting
“under color of law” “actual damages * * * liquidated
damages [and] * * * punitive damages”).
When Congress has created an express cause of action that provides for damages against individual officers, it has thus consistently taken that significant step
consciously, conveying its intent in unequivocal terms.
RFRA, by contrast, does not mention “liability” or
“damages,” nor does it refer to an action “at law” or
even to a “remedy.” RFRA instead simply provides for
“appropriate relief against a government,” 42 U.S.C.

16
2000bb-1(c), to include an “official,” 42 U.S.C.
2000bb-2(1), suggesting that, unlike in Section 1983,
Congress did not intend for individual officials to be liable for damages under RFRA. 2
3. This Court has already held in Sossamon that the
very same phrase “appropriate relief against a government” in RLUIPA—RFRA’s “sister statute,” Holt v.
Hobbs, 135 S. Ct. 853, 859 (2015)—does not provide for
an award of damages against a State. In RLUIPA, Congress relied on its powers under the Spending Clause to
allow state prisoners and certain other claimants “to
seek religious accommodations pursuant to the same
standard as set forth in RFRA.” Id. at 860 (quoting
Gonzales v. O Centro Espirita Beneficente Uniao do
Vegetal, 546 U.S. 418, 436 (2006)). RLUIPA’s remedial
language is materially identical to RFRA’s: A person
may “obtain appropriate relief against a government,”
42 U.S.C. 2000cc-2(a), and “government” is defined to
include an “official.” 42 U.S.C. 2000cc-5(4)(A)(ii). Faced
with this language in Sossamon, this Court held that
damages were not “appropriate relief ” against a State.
563 U.S. at 288. The Court explained that Congress
must “give[] clear direction that it intends to include a
damages remedy” against a State for one to be available. Id. at 289 (emphasis omitted).
Every court of appeals to consider the question has
similarly concluded that RLUIPA does not permit a
RFRA echoes Section 1983 in the limited respect that it applies
to an “official (or other person acting under color of law).” 42 U.S.C.
2000bb-2(1). But that phrase “tells us nothing about damages” because it is needed to facilitate injunctive and declaratory relief
against federal officials and private parties (such as operators of a
privately operated prison) acting under color of federal law. App.,
infra, 53a (Jacobs., J., dissenting from the denial of reh’g en banc).
2

17
damages remedy against a state employee sued in an
individual capacity. E.g., Washington v. Gonyea, 731 F.3d
143, 145 (2d Cir. 2013) (per curiam); Sharp v. Johnson,
669 F.3d 144, 153-155 (3d Cir.), cert. denied, 567 U.S. 937
(2012); Rendelman v. Rouse, 569 F.3d 182, 188-189
(4th Cir. 2009); Sossamon v. Lone Star State of Tex.,
560 F.3d 316, 328-329 (5th Cir. 2009), aff ’d, 563 U.S. 277
(2011); Haight v. Thompson, 763 F.3d 554, 567-570
(6th Cir. 2014); Nelson v. Miller, 570 F.3d 868, 886-889
(7th Cir. 2009); Stewart v. Beach, 701 F.3d 1322, 13331335 (10th Cir. 2012); Smith v. Allen, 502 F.3d 1255,
1271-1275 (11th Cir. 2007), abrogated on other grounds
by Sossamon v. Texas, 563 U.S. 277 (2011). The courts
of appeals have also been unanimous in concluding that
in cases against the federal government, “RFRA’s reference to ‘appropriate relief ’ [does not] include[] monetary damages.” Webman v. Federal Bureau of Prisons,
441 F.3d 1022, 1026 (D.C. Cir. 2006); accord Davila v.
Gladden, 777 F.3d 1198, 1210 (11th Cir.), cert. denied,
136 S. Ct. 78 (2015); Oklevueha Native Am. Church of
Haw., Inc. v. Holder, 676 F.3d 829, 840-841 (9th Cir.
2012).
The phrase “appropriate relief against a government” in RFRA should similarly be understood not to
provide for money damages against federal officials in
their individual capacities. “Given that RFRA and
RLUIPA attack the same wrong, in the same way, in
the same words, it is implausible that ‘appropriate relief
against a government’ means something different in
RFRA, and includes money damages.” App., infra, 53a
(Jacobs, J., dissenting from the denial of reh’g en banc).
Indeed, it would be anomalous if federal officers were
personally exposed to damages, as the court of appeals

18
held here, but the federal government, the States, and
individual state officials were not.
To be sure, in holding that “appropriate relief against
a government” does not include damages awarded against
a State for purposes of RLUIPA, 42 U.S.C. 2000cc-2(a),
this Court in Sossamon relied in part on concerns about
State sovereign immunity. Specifically the Court relied
on the principle that a State’s waiver of its sovereign
immunity must be “ ‘unequivocally expressed,’ ” and determined that the phrase “appropriate relief against a
government” was insufficiently clear to indicate a
waiver of sovereign immunity. 563 U.S. at 284 (citation
omitted); see id. at 289. Here, suing individual officials
in their personal capacities avoids that sovereignimmunity concern—but it runs headlong into significant
separation-of-power concerns with imposing personal
liability on individual federal executive officials. See
pp. 12-15, supra. It is accordingly just as inappropriate
to make damages available against individual federal officials under RFRA. And, as Judge Jacobs pointed out
in his dissent from the denial of rehearing en banc, this
Court in Sossamon “relied not on sovereign immunity
alone, but on the plain meaning of the text.” App., infra,
52a. The statute provides for “appropriate relief against
a government.” 42 U.S.C. 2000bb-1(c) (emphasis added).
By making the government the object of the relief,
RFRA suggests “that monetary damages are not ‘suitable’ or ‘proper’ ” at all. Id. at 53a (quoting Sossamon,
563 U.S. at 286).
4. RFRA’s history and purpose further bolster that
conclusion. Congress enacted RFRA in the wake of
Employment Division v. Smith, 494 U.S. 872 (1990), and
the statutory text makes clear that Congress’s primary

19
aim was to restore the status quo ante that existed before Smith and thereby to effectively abrogate that decision. Congress stated that its purposes were to “restore the compelling interest test” that Congress understood to have been in place before Smith and “to provide a claim or defense to persons whose religious exercise is substantially burdened by government.” 42 U.S.C.
2000bb(b). Congress thus intended to “ ‘turn the clock
back’ to the day before Smith was decided.” H.R. Rep.
No. 88, 103d Cong., 1st Sess. 15 (1993). And the Senate
Report reinforces the point: “To be absolutely clear,
the act does not expand, contract or alter the ability of
a claimant to obtain relief in a manner consistent with
the Supreme Court’s free exercise jurisprudence under
the compelling governmental interest test prior to
Smith.” S. Rep. No. 111, 103d Cong., 1st Sess. 12 (1993).
In light of that basic aim of effectively abrogating
Smith, RFRA should not be understood to break new
ground and take the dramatic step of providing for
money damages against individual federal officers. The
only potential basis for obtaining money damages against
individual federal officers for a religious-exercise claim
before Smith would have been via a Bivens claim—but
this Court has never recognized a Bivens claim for damages based on a First Amendment violation, let alone
before Congress enacted RFRA. See Webman, 441 F.3d
at 1028 (Tatel, J., concurring) (“Because Congress enacted RFRA to return to a pre-Smith world, a world in
which damages were unavailable against the government, ‘appropriate relief ’ is most naturally read to exclude damages against the government.”). Indeed, at
the time Congress enacted RFRA, this Court had already declined to create an implied damages remedy in
a First Amendment suit against a federal employer.

20
Bush v. Lucas, 462 U.S. 367, 390 (1983); see Abbasi,
137 S. Ct. at 1857.
At most, the phrase “appropriate relief” can be understood in light of the statutory purpose to be agnostic
as to whether any particular kind of relief is available,
and instead simply to indicate that whatever relief a
plaintiff could obtain under the First Amendment before Smith is now available under RFRA after Smith.
But if a plaintiff can obtain money damages against individual federal officers only to the same extent they
would be available under Bivens absent Smith, then
they are not available at all: This Court’s subsequent
decisions eliminate the ambiguity and make clear that
Bivens relief does not extend to this novel context, regardless of anything in Smith. See Abbasi, 137 S. Ct. at
1855-1858; Ashcroft v. Iqbal, 556 U.S. 662, 675 (2009)
(“[W]e have not found an implied damages remedy under the Free Exercise Clause. Indeed, we have declined
to extend Bivens to a claim sounding in the First
Amendment.”); App., infra, 76a-94a.
B. There Is No Basis For Presuming That Congress Intended
Individual Officers To Be Liable For Damages

1. The court of appeals reached a contrary result
largely by relying on Franklin v. Gwinnett County
Public Schools, 503 U.S. 60 (1992), which it understood
to support a presumption that money damages are
available under a federal cause of action, absent a clear
indication that they are unavailable. See App., infra,
24a-26a. But Franklin is inapposite.
In Franklin, this Court held that money damages
are available under the cause of action this Court had
previously found to be implied under Title IX of the Education Amendments of 1972, 20 U.S.C. 1681 et seq., see
Cannon v. University of Chicago, 441 U.S. 677 (1979).

21
Franklin, 503 U.S. at 76. In reaching that result, the
Court relied on a general background principle that,
when a cause of action exists under federal law, courts
will “presume the availability of all appropriate remedies unless Congress has expressly indicated otherwise.” Id. at 66; see id. at 70-71 (“The general rule,
therefore, is that absent clear direction to the contrary
by Congress, the federal courts have the power to
award any appropriate relief in a cognizable cause of action brought pursuant to a federal statute.”).
This case cannot be decided based on any presumption that damages are usually available under a federal
cause of action, however, because this Court’s decision
in Sossamon already establishes that damages are not
available in many RFRA cases. Specifically, in Sossamon, this Court determined that the presumption reflected in Franklin was inapplicable when interpreting
the phrase “appropriate relief against a government” in
RLUIPA. The Court explained that any presumption
under Franklin “is irrelevant to construing the scope of
an express waiver of sovereign immunity,” and emphasized that Franklin “did not involve sovereign defendants, so the Court had no occasion to consider sovereign
immunity.” Sossamon, 563 U.S. at 288, 289 n.6. Instead, the Court relied on the opposite presumption that
damages are not available against a sovereign unless
“Congress has given clear direction that it intends to
include a damages remedy.” Id. at 289. Consistent with
Sossamon, the courts of appeals have uniformly held
that damages are not available under RFRA against the
federal government, because the phrase “appropriate
relief against a government” is insufficient to waive the
federal government’s sovereign immunity. See p. 17,
supra (collecting cases).

22
Of course, RFRA’s cause of action applies to both
sovereign and non-sovereign defendants. But the dual
character of RFRA’s cause of action means that this
case cannot be decided simply by pointing to a background presumption that damages are usually available, when damages are usually not available for the primary class of defendants (sovereign “government[s]”)
identified in the statute. 42 U.S.C. 2000bb-1(c). If anything, for the reasons set forth above, the proper approach here is to apply a single presumption against the
availability of money damages in all actions under
RFRA: Congress should be required to speak clearly,
as it did in Section 1983 and other statutes, before a
court will authorize an award of damages against an individual federal official.
In any event, Franklin’s holding that money damages are available under Title IX did not rest solely on
a presumption that damages are available under a federal cause of action. Instead, this Court also looked to
the statutory context, including Congress’s subsequent
amendment of Title IX to waive States’ sovereign immunity and make available “remedies both at law and in
equity.” Franklin, 503 U.S. at 72 (quoting 42 U.S.C.
2000d-7(a)(2)). As set forth above, no similar contextual
clues indicate that Congress intended to make “remedies * * * at law,” ibid., available under RFRA.
2. There is also no sound basis for understanding
RFRA’s phrase “appropriate relief against a government” to incorporate the presumption reflected in
Franklin and thus to indicate that damages are available against individual officers. If Congress had actually
considered the issue and intended to make such damages available, it could have done so far more directly,
such as by expressly providing for damages. And al-

23
though Congress is presumed to be familiar with applicable judicial precedent, see Ryan v. Gonzales, 568 U.S.
57, 66 (2013), the phrase “appropriate relief against a
government” appears nowhere in Franklin. The Court
in Franklin construed an implied cause of action, not an
express one. See Sossamon, 563 U.S. at 288. And the
Court used a variety of formulations, including “appropriate relief,” “appropriate remedies,” “ ‘all necessary
and appropriate remedies,’ ” “ ‘any available remedy,’ ”
Franklin, 503 U.S. at 66, 69, 74 (citations omitted),
without suggesting that any particular formulation was
a term of art necessarily implying damages. Finally,
the phrase “appropriate relief” was first introduced into
the draft of RFRA in 1990, several years before this
Court decided Franklin. See H.R. 5377, 101st Cong.,
2d Sess., § 2(c) (1990). There is no indication in the legislative history that any Member of Congress later considered Franklin to be relevant when deciding what
kinds of remedy would be available under that preexisting language.
C. The Question Presented Warrants This Court’s Review

The question whether federal officers can be individually liable for money damages under RFRA warrants
this Court’s review. This is a pure question of statutory
interpretation that recurs with some frequency. And
although there is not a circuit conflict—the Second Circuit’s decision here accords with the Third Circuit’s decision in Mack v. Warden Loretto FCI, 839 F.3d 286 (3d
Cir. 2016)—and the posture here is interlocutory, the
question has considerable and immediate practical importance to the federal government and its employees.
This case illustrates the threat individual-capacity
damages may pose to the “sensitive functions of the Ex-

24
ecutive Branch.” Abbasi, 137 S. Ct. at 1861. The allegations in this lawsuit concern purported efforts by FBI
agents to obtain assistance from respondents in connection with investigations into potential terrorist or criminal activity, including by noncitizens. The investigations thus implicated both national security and immigration, core powers of the Executive Branch. See ibid.
(national security); Haig v. Agee, 453 U.S. 280, 292 (1981)
(same); Fiallo v. Bell, 430 U.S. 787, 792 (1977) (immigration). In particular, discovery in a national securityrelated lawsuit, which may be necessary in some cases
even to assess a qualified-immunity defense among individual defendants, may cause even greater harm to
the Executive’s functioning. See Iqbal, 556 U.S. at 685
(harms from diverting officials from their duties “magnified” in national security context). The potential costs
of allowing a damages remedy, both in deterring government officials from discharging their duties and imposing the burdens of litigation and discovery even
when a qualified-immunity defense is available, militate
strongly in favor of immediate review. See Abbasi,
137 S. Ct. at 1856-1857.
The nature of a RFRA claim makes those burdens of
suit even heavier. “The determination of what is a ‘religious’ belief or practice is more often than not a difficult and delicate task” under the substantial-burden
test reinstated by RFRA, and indeed “religious beliefs
need not be acceptable, logical, consistent, or comprehensible to others in order to merit * * * protection”
under that test. Thomas v. Review Bd. of Ind. Emp’t
Sec. Div., 450 U.S. 707, 714 (1981); see Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520, 531 (1993). Yet under the decision of the court of

25
appeals, a federal law enforcement officer or other employee whose actions place a substantial burden on the
exercise of those beliefs, even those not “comprehensible to others,” Thomas, 450 U.S. at 714, would be faced
with the potential for drawn-out and disruptive litigation followed by possible individual liability for an
unknown and conceivably devastating damages award.
Cf. Nieves v. Bartlett, 139 S. Ct. 1715, 1725 (2019) (“Any
inartful turn of phrase or perceived slight * * * could
land an officer in years of litigation.”). In this case, petitioners “were never told that [respondents] believed
cooperating with an investigation ‘burdened their religious beliefs.’ ” App., infra, 58a (Jacobs, J., dissenting
from the denial of reh’g en banc). Yet under the court’s
decision, they may be forced to proceed to discovery.
Moreover, if available, damages will serve as a powerful incentive for potential plaintiffs to sue federal employees at all levels of decisionmaking, more broadly affecting the government’s operations. For instance,
prison officials are charged with accommodating the religious practices of approximately 180,000 federal inmates, while balancing prisoners’ needs against the demands of prison safety and security. See Bureau of Justice Statistics, Office of Justice Programs, U.S. Dep’t of
Justice, Prisoners in 2017, at 3 (Apr. 2019).3 Numerous
individual officials along the Bureau of Prisons’ chain of
authority may make decisions regarding religious accommodations, and each could potentially be sued personally for damages for a decision allegedly burdening
an inmate’s religious practice. Or officers of the Drug
Enforcement Administration could be sued in their in-

3

https://www.bjs.gov/content/pub/pdf/p17.pdf.

26
dividual capacities for enforcing federal law by plaintiffs claiming a religious purpose for their use of drugs.
In these and other scenarios, federal officials would be
discouraged from performing their duties by the prospect
of litigation and potentially severe personal financial
consequences. The question of whether Congress provided for a damages remedy against individual federal
officials, when it merely provided for “appropriate relief
against a government,” 42 U.S.C. 2000bb-1(c), accordingly warrants this Court’s review at this time.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
ZACHARY D. TRIPP
Assistant to the Solicitor
General
BENJAMIN H. TORRANCE
SARAH S. NORMAND
ELLEN BLAIN
MARY HAMPTON MASON
REGINALD M. SKINNER
Attorneys

JULY 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Docket No. 16-1176
Aug. Term, 2016
MUHAMMAD TANVIR, JAMEEL ALGIBHAH,
NAVEED SHINWARI, PLAINTIFFS-APPELLANTS
v.
FNU TANZIN, SPECIAL AGENT, FBI; SANYA
GARCIA, SPECIAL AGENT, FBI; JOHN LNU, SPECIAL
AGENT, FBI; FRANCISCO ARTUSA, SPECIAL AGENT ,
FBI; JOHN C. HARLEY III, SPECIAL AGENT, FBI;
STEVEN LNU, SPECIAL AGENT, FBI; MICHAEL LNU,
SPECIAL AGENT, FBI; GREGG GROSSOEHMIG, SPECIAL
AGENT, FBI; WEYSAN DUN, SPECIAL AGENT IN
CHARGE, FBI; JAMES C. LANGENBERG, ASSISTANT
SPECIAL AGENT IN CHARGE, FBI; JOHN DOE #1,
SPECIAL AGENT, FBI; JOHN DOE #2, SPECIAL AGENT,
FBI; JOHN DOE #3, SPECIAL AGENT, FBI;
JOHN DOE #4, SPECIAL AGENT, FBI; JOHN DOE #5,
SPECIAL AGENT, FBI; JOHN DOE #6, SPECIAL AGENT,
FBI, DEFENDANTS-APPELLEES1
Argued:
Mar. 1, 2017
Decided: May 2, 2018
Amended: June 25, 2018
Before: KATZMANN, Chief Judge, POOLER, and LYNCH,
Circuit Judges.

The Clerk of Court is respectfully directed to amend the official
caption in this case to conform with the caption above.
1

(1a)

2a
POOLER, Circuit Judge:
Plaintiffs‐Appellants Muhammad Tanvir, Jameel Algibah, and Naveed Shinwari (“Plaintiffs”) appeal from a
February 17, 2016 final judgment of the United States
District Court for the Southern District of New York
(Abrams, J.), dismissing their complaint against senior
federal law enforcement officials and 25 named and
unnamed federal law enforcement officers. As relevant
here, the complaint alleged that, in retaliation for Plaintiffs’ refusal to serve as informants, federal officers
improperly placed or retained Plaintiffs’ names on the
“No Fly List,” in violation of Plaintiffs’ rights under the
First Amendment and the Religious Freedom Restoration Act, 42 U.S.C. § 2000bb et seq. (“RFRA”).
The complaint sought (1) injunctive and declaratory
relief against all defendants in their official capacities
for various constitutional and statutory violations, and
(2) compensatory and punitive damages from federal law
enforcement officers in their individual capacities for violations of their rights under the First Amendment and
RFRA. As relevant here, the district court held that
RFRA does not permit the recovery of money damages
against federal officers sued in their individual capacities. Plaintiffs appeal that RFRA determination only.
Because we disagree with the district court, and hold
that RFRA permits a plaintiff to recover money damages against federal officers sued in their individual capacities for violations of RFRA’s substantive protections, we reverse the district court’s judgment and remand for further proceedings.

3a
BACKGROUND

On appeal from the district court’s dismissal of Plaintiffs’ complaint, we “accept[] as true factual allegations
in the complaint, and draw[] all reasonable inferences
in the favor of the plaintiffs.” Town of Babylon v. Fed.
Hous. Fin. Agency, 699 F.3d 221, 227 (2d Cir. 2012).
I.

Relevant Factual and Procedural Background

Plaintiffs are Muslim men who reside in New York or
Connecticut. Each was born abroad, immigrated to the
United States early in his life, and is now lawfully present here as either a U.S. citizen or as a permanent resident. Each has family remaining overseas.
Plaintiffs assert that they were each approached by
federal agents and asked to serve as informants for the
FBI. Specifically, Plaintiffs were asked to gather information on members of Muslim communities and report that information to the FBI.2 In some instances,
the FBI’s request was accompanied with severe pressure, including threats of deportation or arrest; in others, the request was accompanied by promises of financial and other assistance. Regardless, Plaintiffs rebuffed
those repeated requests, at least in part based on their
sincerely‐held religious beliefs. In response to these
refusals, the federal agents maintained Plaintiffs on the
Plaintiffs assert that they were caught up in a broader web of
federal law enforcement mistreatment of American Muslims. They
allege that, following the tragic attacks of September 11, 2001, “the
FBI has engaged in widespread targeting of American Muslim communities for surveillance and intelligence-gathering.” App’x at 66
¶ 36. These law enforcement practices included “the aggressive recruitment and deployment of informants . . . in American Muslim communities, organizations, and houses of worship.” Id.
2

4a
national “No Fly List,” despite the fact that Plaintiffs
“do[] not pose, ha[ve] never posed, and ha[ve] never been
accused of posing, a threat to aviation safety.” App’x at
74, 84, 92 ¶¶ 68, 118, 145.
According to the complaint, Defendants “forced Plaintiffs into an impermissible choice between, on the one
hand, obeying their sincerely held religious beliefs and
being subjected to the punishment of placement or retention on the No Fly List, or, on the other hand, violating their sincerely held religious beliefs in order to avoid
being placed on the No Fly List or to secure removal
from the No Fly List.” App’x at 109 ¶ 210. Plaintiffs allege that this dilemma placed a substantial burden on
their exercise of religion.
Additionally, Defendants’ actions caused Plaintiffs to
suffer emotional distress, reputational harm, and economic loss. As a result of Defendants’ actions placing
and retaining Plaintiffs on the “No Fly List,” Plaintiffs
were prohibited from flying for several years. Such prohibition prevented Plaintiffs from visiting family members overseas, caused Plaintiffs to lose money they had
paid for plane tickets, and hampered Plaintiffs’ ability to
travel for work.3

One Plaintiff, for example, had to quit a job as a long‐haul trucker
because that job required him to fly home after completing his route,
while another declined temporary employment in Florida due to
these travel restrictions. These same restrictions barred another
Plaintiff from traveling to Pakistan to visit his ailing mother, and
rendered yet another Plaintiff unable to see his wife or daughter in
Yemen for many years.
3

5a
A.

The “No Fly List”

In an effort to ensure aircraft security, Congress
directed the Transportation Security Administration
(“TSA”) to establish procedures for notifying appropriate officials of the identity of individuals “known to pose,
or suspected of posing, a risk of air piracy or terrorism
or a threat to airline or passenger safety.” 49 U.S.C.
§ 114(h)(2). TSA was further instructed to “utilize all
appropriate records in the consolidated and integrated
terrorist watchlist maintained by the Federal Government” to perform a passenger prescreening function.
49 U.S.C. § 44903( j)(2)(C)(ii).
The “No Fly List” is one such terrorist watchlist and
is part of a broader database developed and maintained
by the Terrorist Screening Center (“TSC”), which is administered by the FBI. The TSC’s database contains
information about individuals who are known or reasonably suspected of being involved in terrorist activity.
The TSC shares the names of individuals on the “No Fly
List” with federal and state law enforcement agencies,
the TSA, airline representatives, and cooperating foreign governments.
Plaintiffs allege that federal law enforcement and intelligence agencies may “nominate” an individual for inclusion in the TSC’s database, including the “No Fly
List,” if there is “reasonable suspicion” that the person
is a “known or suspected terrorist.” App’x at 68 ¶ 41.
In order for a nominated individual to be added to the
“No Fly List,” there must be additional “derogatory information” showing that the individual “pose[s] a threat
of committing a terrorist act with respect to an aircraft.”
App’x at 68 ¶ 42. Any person placed on the “No Fly

6a
List” is barred from boarding a plane that starts in, ends
in, or flies over the United States.4
Plaintiffs claim that the federal agents named in the
amended complaint “exploited the significant burdens
imposed by the No Fly List, its opaque nature and ill‐
defined standards, and its lack of procedural safeguards,
in an attempt to coerce Plaintiffs into serving as informants within their American Muslim communities and
places of worship.” App’x at 59 ¶ 8. When rebuffed,
the federal agents “retaliated against Plaintiffs by placing or retaining them on the No Fly List.” Id.
B.

Tanvir: An Illustrative Story

As did the district court below, we present Tanvir’s
story as illustrative of Plaintiffs’ experiences.
At the time the complaint was filed, Tanvir was a
lawful permanent resident living in Queens, New York.
Tanvir’s wife, son, and parents remain in Pakistan. In
February 2007, Tanvir alleged that FBI Special Agents
FNU Tanzin and John Doe 1 approached him at work
and questioned him for 30 minutes about an acquaintance who allegedly entered the United States illegally.
Two days later, Agent Tanzin called Tanvir and asked
whether he had anything he “could share” with the FBI
about the American Muslim community. App’x at 74

In their amended complaint, Plaintiffs decry the secrecy around
the “No Fly List,” alleging that there is little public information
about its size, the criteria for inclusion, the standards for “derogatory information,” or the adequacy of its procedural safeguards.
Upon information and belief, Plaintiffs assert that the “No Fly List”
burgeoned from 3,400 individuals in 2009 to over 21,000 individuals
by February 2012.
4

7a
¶ 70. Tanvir said he told Agent Tanzin that he knew
nothing relevant to law enforcement.
In July 2008, after returning home from a trip to Pakistan to visit his family, Tanvir was detained by federal
agents for five hours at JFK Airport. His passport was
confiscated and he was told he could retrieve it on January 28, 2009, nearly six months later. Two days prior
to that appointment, Agent Tanzin and FBI Special Agent
John Doe 2 visited Tanvir at his new workplace and
asked him to come to the FBI’s Manhattan field office.
Tanvir agreed.
At the FBI field office, the federal agents questioned
Tanvir for about an hour. The agents asked Tanvir
whether he was aware of Taliban training camps near
his home village in Pakistan and whether he had Taliban
training. Tanvir denied knowledge of the camps or participation in such training.
After the questioning, Agents Tanzin and John Doe 2
complimented Tanvir and asked him to work as an informant for the FBI in Pakistan or Afghanistan. Tanvir
alleged that they offered him various incentives, including facilitating visits for his family to the United States
and paying for his parents’ religious pilgrimage. Despite the offer, Tanvir declined, stating that he did not
want to be an informant. The agents persisted, threatening Tanvir that his passport would not be returned
and he would be deported if he failed to cooperate.
Tanvir implored the agents not to deport him. At the
meeting’s end, the agents asked Tanvir to reconsider
and to keep their conversation private.
The next day, Agent Tanzin asked Tanvir if he had
reconsidered and would become an informant. Agent

8a
Tanzin threatened Tanvir with deportation if he did not
cooperate. Again, Tanvir declined.
On January 28, 2009, Tanvir recovered his passport
from Department of Homeland Security (“DHS”) officers at JFK Airport without incident. The DHS officers
said his passport was withheld for an investigation, but
that the investigation was complete. Nevertheless, the
next day, Agent Tanzin called Tanvir and said that he
asked for the release of Tanvir’s passport because Tanvir
was “cooperative” with the FBI. App’x at 77 ¶ 81.
The FBI agents continued to pressure Tanvir to work
as an informant over the next few weeks. Tanvir received numerous calls and visits at his workplace from
Agents Tanzin and John Doe 1. Tanvir stopped answering their phone calls and asked them to stop their
visits. Later, the agents asked Tanvir to submit to a
polygraph test, and when he declined, they threated to
arrest him. When Tanvir flew to Pakistan in July 2009
to visit his family, Agents Tanzin and John Doe 3 questioned Tanvir’s sister at her workplace about Tanvir’s
travel.
After Tanvir returned to the United States in January 2010, he took a job as a long‐haul trucker. The job
required him to drive across the country and fly back to
New York after he had completed his route.
In October 2010, Tanvir heard that his mother was
visiting New York from Pakistan. Tanvir, who had
been in Atlanta for work, booked a flight back to New
York. When he arrived at the Atlanta airport, an airline employee told Tanvir that he could not fly. At that
time, two FBI agents approached Tanvir and told him to
call the agents who had previously spoken to him in New

9a
York. Tanvir contacted Agent Tanzin, who instructed
that other agents would contact Tanvir and that he
should “cooperate.” App’x at 79 ¶ 92. Unable to fly to
New York, Tanvir traveled by bus—a 24‐hour ride.
Two days later, FBI Special Agent Sanya Garcia contacted Tanvir. She told him that if he met with her and
answered her questions, she would help remove his name
from the “No Fly List.” Tanvir declined, saying that
he had already answered the FBI’s questions. Because
Tanvir believed he could no longer fly, and therefore
could not return to New York after completing his one‐
way deliveries, he quit his job as a long‐haul trucker.
On September 27, 2011, Tanvir filed a complaint with
the DHS Traveler Redress Inquiry Program (“TRIP”),
an administrative mechanism for filing a complaint about
placement on the “No Fly List.”
The next month, Tanvir purchased tickets to Pakistan for himself and his wife so that they could visit his
ailing mother. The day before his flight, Agent Garcia
told Tanvir that he would not be able to fly unless he met
with her and answered her questions. Because of his
urgent need to travel, Tanvir agreed to do so. After
answering the same questions that the other agents
asked him previously, Tanvir pleaded with Agent Garcia
to allow him to fly to Pakistan the next day. The next
day, Agent Garcia told Tanvir that he could not fly.
Moreover, she stated that he could not fly in the future
unless he submitted to a polygraph test. Tanvir cancelled his flight and received only a partial refund. His
wife traveled alone to Pakistan.

10a
After this incident, Tanvir hired counsel. Tanvir’s
counsel communicated with FBI lawyers. The FBI lawyers directed Tanvir’s counsel to the TRIP process, even
though Tanvir had already submitted a TRIP complaint
and not yet received any redress.
Tanvir persisted, buying another plane ticket to Pakistan to visit his ailing mother. On December 11, 2011,
however, he was denied boarding and told he was on
the “No Fly List.” This was the third time Tanvir was
barred from boarding a flight for which he had purchased a ticket.
In April 2012, nearly six months after Tanvir filed his
complaint with TRIP, he received a response. The response did not acknowledge that he was on the “No Fly
List,” but noted that “no changes or corrections are warranted at this time.” App’x at 83 ¶ 110. Tanvir appealed
this TRIP determination.
In November 2012, Tanvir purchased another ticket
to Pakistan in an effort to visit his ailing mother.
Again, Tanvir was denied boarding when he arrived for
his flight. An FBI agent approached Tanvir and his
counsel at the airport and told them that Tanvir would
not be removed from the “No Fly List” until he met with
Agent Garcia.
In March 2013, ten months after Tanvir appealed his
TRIP determination, he received a letter from DHS overturning that earlier determination. The letter blamed
Tanvir’s experience on probable “misidentification against
a government record” or “random selection,” and stated
that the government “made updates” to its records.
App’x at 83 ¶ 114. Following this communication, Tanvir
purchased a plane ticket to Pakistan for June 2013. On

11a
June 27, 2013, Tanvir successfully boarded a flight to Pakistan. By this time, over five years had passed since
Tanvir was first contacted by the FBI.
Tanvir asserts that because the federal agents wrongfully placed his name on the “No Fly List,” Tanvir could
not fly to visit his family in Pakistan, quit his trucking
job, lost money from unused airline tickets, and feared
additional harassment by the FBI.
C.

Procedural History

On October 1, 2013, Plaintiffs filed a complaint asserting that Defendants violated their constitutional and
statutory rights by placing their names on the “No Fly
List”—even though they posed no threat to aviation
safety—in retaliation for their refusal to become informants for the government. On April 22, 2014, Plaintiffs
filed an amended complaint.
Plaintiffs sued Defendants in their official capacities
under the First Amendment, the Fifth Amendment, the
Administrative Procedure Act, 5 U.S.C. §§ 702, 706, and
RFRA, 42 U.S.C. § 200bb et seq., seeking injunctive and
declaratory relief. Plaintiffs also sued the federal agents
in their individual capacities, seeking compensatory
and punitive damages under the First Amendment and
RFRA.5

Plaintiffs and non-appealing plaintiff Awais Sajjad asserted a
First Amendment retaliation claim against all 25 federal agents
named as Defendants. Plaintiffs, excluding Sajjad, asserted a claim
under RFRA against only the 16 federal agents named as Defendants that allegedly interacted with Plaintiffs.
5

12a
On July 28, 2014, the Defendants filed two separate
motions to dismiss the amended complaint. One motion sought to dismiss Plaintiffs’ official capacity claims;
the other sought to dismiss Plaintiffs’ individual capacity claims.
On June 1, 2015, the government moved to stay Plaintiffs’ official capacity claims, arguing that it had revised
the redress procedures available to challenge one’s designation on the “No Fly List,” and that Plaintiffs had
availed themselves of those procedures. On June 8,
2015, Plaintiffs received letters from DHS informing
them that the government knows of no reason why they
would be unable to fly. On June 10, 2015, Plaintiffs
consented to a stay of their official capacity claims.
The district court stayed those claims and terminated
the government’s related motion to dismiss. The parties continued to dispute Plaintiffs’ individual capacity
claims.
D.

District Court Opinion

On September 3, 2015, the district court issued an
opinion and order dismissing Plaintiffs’ individual capacity claims.
First, the district court dismissed Plaintiffs’ First
Amendment retaliation claims, stating that the Supreme
Court and this Court have “declined to extend Bivens to
a claim sounding in the First Amendment.” Tanvir v.
Lynch, 128 F. Supp. 3d 756, 769 (S.D.N.Y. 2015) (quoting Turkmen v. Hasty, 789 F.3d 218, 236 (2d Cir. 2015),
rev’d in part and vacated and remanded in part sub
nom. Ziglar v. Abbasi, 137 S. Ct. 1843 (2017)). Plaintiffs do not appeal that determination here.

13a
Next, the district court held that RFRA does not permit the recovery of money damages from federal officers
sued in their individual capacities. The district court
determined that “Congress’ intent in enacting RFRA
could not be clearer.” Tanvir, 128 F. Supp. 3d at 780.
Specifically, the court determined that Congress intended to restore the compelling interest test by which
courts evaluated free exercise claims before the Supreme Court’s decision in Employment Division, Dept.
of Human Res. of Or. v. Smith, 494 U.S. 872 (1990). In
doing so, it held that Congress did not express an intention to expand the remedies available to those individuals who asserted that their free exercise of religion was
substantially burdened by the government.
The district court found this conclusion supported by
the state of the law at the time RFRA was passed, and
RFRA’s legislative history. With respect to the former,
the district court stated that, at the time Smith was decided, the Supreme Court had not recognized a Bivens
remedy for claims under the Free Exercise Clause, and
to allow damages in this case against federal employees
would expand, rather than restore, the remedies available prior to Smith. With respect to the latter, the district court identified congressional reports stating that
Congress in RFRA did not intend to “expand, contract
or alter the ability of a claimant to obtain relief in a manner consistent” with the Supreme Court’s pre‐Smith free
exercise jurisprudence. Tanvir, 128 F. Supp. 3d at 778
(quoting S. Rep. No. 103‐111 at 12).
Finally, the district court rejected Plaintiffs’ assertions with respect to Franklin v. Gwinnett Cty. Pub.
Schs., 503 U.S. 60 (1992). In Franklin, the Supreme

14a
Court stated that “we presume the availability of all appropriate remedies unless Congress has expressly indicated otherwise.” Id. at 66. The district court nevertheless found that the traditional Franklin presumption
did not apply here. In particular, the district court
noted that “Franklin required the Supreme Court to interpret an implied statutory right of action,” and held
that Franklin’s “ordinary convention” does not control
where, as here, Congress created an express private right
of action. Tanvir, 128 F. Supp. 3d at 779.
Plaintiffs appeal the district court’s ruling that RFRA
does not permit the recovery of money damages from
federal officers sued in their individual capacities.6 We
agree with Plaintiffs, and reverse.
DISCUSSION
I.

Standard of Review

We review de novo a district court’s dismissal pursuant to Federal Rule of Civil Procedure 12(b)(6). Town
of Babylon, 699 F.3d at 227. When reviewing the dismissal of a complaint for failure to state a claim, we
accept as true the factual allegations in the complaint
and draw all reasonable inferences in plaintiff ’s favor.
ATSI Commc’ns, Inc. v. Shaar Fund, Ltd., 493 F.3d 87,
98 (2d Cir. 2007). “To survive a motion to dismiss, a
complaint must contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible

Plaintiffs voluntarily dismissed their official capacity claims
on December 28, 2015, rendering the district court’s ruling on the
individual claims a final appealable order. See Tanvir v. Comey,
No. 1:13-cv-06951-RA (docs. 109, 111).
6

15a
on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(internal quotation marks omitted).
The district court here held that RFRA does not permit a plaintiff to recover money damages against federal
officers sued in their individual capacities. Tanvir,
128 F. Supp. 3d at 775. Where, as here, the district court
decision below “presents only a legal issue of statutory
interpretation,” “[w]e review de novo whether the district court correctly interpreted the statute.” White v.
Shalala, 7 F.3d 296, 299 (2d Cir. 1993).
II.

Official Capacity and Individual Capacity Suits

The district court held that RFRA does not permit
the recovery of money damages against federal officers
sued in their individual capacities. To frame our discussion, we briefly address the difference between official capacity suits and individual capacity suits.
The Supreme Court has stated that “official‐capacity
suits generally represent only another way of pleading
an action against an entity of which an officer is an
agent.” Hafer v. Melo, 502 U.S. 21, 25 (1991) (citation
and internal quotation marks omitted). In an official
capacity suit, “the real party in interest . . . is the
governmental entity and not the named official.” Id.
By contrast, individual capacity suits “seek to impose individual liability upon a government officer for [her] actions under color of [] law.” Id. Any damages awarded
in an individual capacity suit “will not be payable from
the public fisc but rather will come from the pocket of

16a
the individual defendant.”
Blackburn v. Goodwin,
608 F.2d 919, 923 (2d Cir. 1979).7
This distinction proves important with respect to the
recovery of damages. “Absent a waiver, sovereign immunity shields the Federal Government and its agencies
from suit.” Dep’t of Army v. Blue Fox, Inc., 525 U.S.
255, 260 (1999) (citation omitted). Sovereign immunity
does not, however, shield federal officials sued in their
individual capacities. Lewis v. Clarke, 137 S. Ct. 1285,
1291 (2017) (“[S]overeign immunity does not erect a barrier against suits to impose individual and personal liability.”) (internal quotation marks omitted).
III. Religious Freedom Restoration Act

“As in any case of statutory construction, we start
our analysis . . . with the language of the statute.”
Chai v. Comm’r of Internal Revenue, 851 F.3d 190, 217
(2d Cir. 2017) (citation omitted). “Where the statutory
language provides a clear answer, our analysis ends
there.” Id. (citation and internal punctuation omitted).
“[I]f the meaning of the statute is ambiguous, we may
resort to canons of statutory interpretation to help resolve the ambiguity.” Id. (citation and brackets omitted). “The plainness or ambiguity of statutory language is determined by reference to the language itself,
the specific context in which that language is used, and
Suits against public officers that seek damages are directed at
the particular officer whose allegedly unlawful actions are claimed
to have caused damage to plaintiffs. In contrast, suits against officers in their official capacity, which generally seek injunctive relief,
are directed at the office itself. See Fed. R. Civ. P. 17(d). As a
result, if the defendant in an official capacity suit leaves office, the
successor to the office replaces the originally named defendant.
See Fed. R. Civ. R. 25(d).
7

17a
the broader context of the statute as a whole.”
son v. Shell Oil Co., 519 U.S. 337, 341 (1997).
A.

Robin-

Statutory Text

In 1993, Congress passed RFRA. 42 U.S.C. § 2000bb,
et seq. Congress stated that its purposes in enacting
RFRA were “to restore the compelling interest test”
that been applied in cases where free exercise of religion
was substantially burdened and “to provide a claim or
defense to persons whose religious exercise is substantially burdened by government.” 42 U.S.C. § 2000bb(b).
Through RFRA, Congress sought “to provide very broad
protection for religious liberty.” Burwell v. Hobby Lobby
Stores, Inc., 134 S. Ct. 2751, 2760 (2014).
RFRA provides that the “Government shall not substantially burden a person’s exercise of religion even if
the burden results from a rule of general applicability”
unless the “Government” can “demonstrate[] that application of the burden to the person—(1) is in furtherance
of a compelling governmental interest; and (2) is the
least restrictive means of furthering that compelling
governmental interest.” 42 U.S.C. § 2000bb‐1(a), (b).
In order to protect this statutory right, RFRA created an explicit private right of action. Id. § 2000bb‐1(c).
That section permits any “person whose religious exercise has been burdened in violation of [the statute]” to
“assert that violation as a claim or defense in a judicial
proceeding and obtain appropriate relief against a government.” Id. § 2000bb‐1(c) (emphasis added). RFRA
defines the term “government,” to include “a branch, department, agency, instrumentality, and official (or other
person acting under color of law) of the United States.”

18a
Id. § 2000bb‐2(1).
propriate relief.”

RFRA does not define the term “ap-

In its decision below, the district court determined
that the phrase “appropriate relief ” did not include
money damages from federal officials sued in their individual capacities. See Tanvir, 128 F. Supp. 3d at 775.
The district court did not address whether federal officers sued in their individual capacities are included within
RFRA’s definition of “government” and therefore amenable to suit under RFRA. See id. at 774 n.17.
B.

“Against a Government”

On appeal, the parties disagree over whether RFRA
authorizes individual capacity suits against government
officials. In construing the meaning of the term “government” under RFRA, we begin by reviewing RFRA’s
plain language. See Chai, 851 F.3d at 217. Because
RFRA’s plain language “provides a clear answer,” we
conclude that RFRA authorizes individual capacity
claims against federal officers. Id.
As discussed above, RFRA permits a plaintiff to assert a violation of the statute “as a claim or defense in a
judicial proceeding and obtain relief against a government.” 42 U.S.C. § 2000bb‐1(c). RFRA defines “government” to include “a branch, department, agency, instrumentality, and official (or other person acting under
color of law) of the United States.” Id. § 2000bb‐2(1).
When we substitute that definition for the defined term,
it is clear that a plaintiff may bring a claim for “appropriate relief against” either a federal “official” or “other
person acting under color of [federal] law” whose actions
substantially burden the plaintiff ’s religious exercise.

19a
Therefore, RFRA, by its plain terms, authorizes individual capacity suits against federal officers.
Defendants argue, to the contrary, that the plain text
of RFRA permits suits only against officers in their official capacities and not suits against federal officers in
their individual capacities. Defendants argue that we:
(1) should give the term “government” its most natural
reading; (2) should understand the phrase “official” in
the statutory definition of “government” as suggesting
that only official capacity suits are permitted; and
(3) should conclude that the phrase “or other person acting under color of law” is not intended to permit government officers to be sued in their individual capacities.
We disagree with each argument.
First, we refuse Defendants’ request to apply a natural reading of the term “government” in this case
where RFRA includes an explicit definition of “government.” 42 U.S.C. § 2000bb‐2(1). “When a statute includes an explicit definition, we must follow that definition.” Stenberg v. Carhart, 530 U.S. 914, 942 (2000);
Upstate Citizens for Equality, Inc. v. United States,
841 F.3d 556, 575 (2d Cir. 2016) (“In general, statutory
definitions control the meaning of statutory words.”) (internal quotation marks omitted). Further, the statute
specifically defines ‘government’ to include officials and
others acting under color of law. There would be no
need to permit suits against government agents in their
official capacity, since such a suit is simply a formal variant of an action that, in substance, runs against the government itself. See Hafer, 502 U.S. at 25.
Second, RFRA’s use of the word “official” in the statutory definition of “government” does not mandate that
a plaintiff may only obtain relief against federal officers

20a
in official capacity suits. In ordinary usage, an “official”
is generally defined simply as “one who holds or is invested with an office” and is roughly synonymous with
the term “officer.” Merriam‐Webster Unabridged, http:/
unabridged.merriam‐webster.com/unabridged/official
(noun definition). There is no reason to think that, in
using this ordinary English word, Congress intended to
invoke the technical legal concept of “official capacity,”
rather than simply to state that government “officials”
are amenable to suit. Moreover, the statute permits
suits against “officials (or other person[s] acting under
color of law).” 42 U.S.C.A. § 2000bb‐2(1). The specific authorization of actions broadly against “other person[s] acting under color of law,” undercuts the assertion that the term “official” ’ was intended to limit the
scope of available actions.
Further, a defendant’s status as a federal officer “is
not controlling” in determining whether a suit is, in reality,
against the government. Stafford v. Briggs, 444 U.S.
527, 542 n.10 (1980) (citation omitted). Rather, “the
dispositive inquiry is ‘who will pay the judgment?’ ” Id.
A plaintiff may not sue a federal officer in her official
capacity for money damages, because such suit seeks
money from the federal government, and sovereign immunity would bar recovery from the federal government
absent an explicit waiver. However, a plaintiff may sue
a federal officer in her individual capacity without implicating sovereign immunity concerns. See Hafer, 502 U.S.
at 25‐28. RFRA’s use of the word “official” does not alter
that rule.
Third, we reject Defendants’ argument that the phrase
“other person acting under color of law” authorizes only

21a
official capacity suits. Rather, that phrase “contemplates that persons ‘other’ than ‘officials’ may be sued
under RFRA, and persons who are not officials may be
sued only in their individual capacities.” Patel v. Bureau of Prisons, 125 F. Supp. 3d 44, 50 (D.D.C. 2015)
(citing Jama v. INS, 343 F. Supp. 2d 338, 374 (D. N.J.
2004)) (emphasis added). “Defendants’ interpretation
would render the entire phrase surplasage: once Congress authorized official‐capacity suits against ‘officials,’
adding another term that allowed only official‐capacity
suits would have had no effect whatsoever.” Id.
Our conclusion that RFRA authorizes individual capacity claims against federal officers is consistent with
the Supreme Court’s recognition of RFRA’s “[s]weeping
coverage,” City of Boerne v. Flores, 521 U.S. 507, 532
(1997), which “was designed to provide very broad protection for religious liberty,” Hobby Lobby, 134 S. Ct. at
2767. RFRA’s reach “ensures its intrusion at every
level of government, displacing laws and prohibiting official actions of almost every description and regardless
of subject matter.” City of Boerne, 521 U.S. at 532 (further stating that RFRA’s restrictions “apply to every
agency and official of the Federal . . . Government[]”).
Moreover, we draw support for our conclusion from
Congress’s use of comparable language in enacting
42 U.S.C. § 1983, which, long prior to RFRA’s enactment, had consistently been held to authorize individual
and official capacity suits. See, e.g., Hafer, 502 U.S. at
25; Graham, 473 U.S. at 166. Section 1983 creates a
private right of action against “persons” who, acting
“under color of [law],” violate a plaintiff ’s constitutional
rights—regardless of whether that person was acting

22a
pursuant to an unconstitutional state law, regulation, or
policy. 42 U.S.C. § 1983.
We, like several of our sister circuits before us, do
not find “this word choice [] coincidental,” as “Congress
intended for courts to borrow concepts from § 1983
when construing RFRA.” Mack v. Warden Loretto FCI,
839 F.3d 286, 302 (3d Cir. 2016); see also Listecki v. Official Comm. of Unsecured Creditors, 780 F.3d 731, 738
(7th Cir. 2015); Sutton v. Providence St. Joseph Med.
Ctr., 192 F.3d 826, 834‐35 (9th Cir. 1999). As these courts
have explained, “[w]hen a legislature borrows an already judicially interpreted phrase from an old statute
to use it in a new statute, it is presumed that the legislature intends to adopt not merely the old phrase but the
judicial construction of that phrase.” Sutton, 192 F.3d
at 834‐35 (citation omitted); Mack, 839 F.3d at 302 (quoting same); see also Leonard v. Israel Discovery Bank,
199 F.3d 99, 104 (2d Cir. 1999) (“[R]epetition of the same
language in a new statute indicates, as a general matter,
the intent to incorporate its judicial interpretations as
well.”) (citation and ellipses omitted).
In light of this presumption, given both RFRA’s and
Section 1983’s applicability to “person[s]” acting “under
color of law,” we hold that RFRA, like Section 1983, authorizes a plaintiff to bring individual capacity claims
against federal officials or other “person[s] acting under
color of [federal] law.”
C.

“Appropriate Relief ”

Having determined that RFRA permits individual capacity suits against government officers acting under
color of law, we now turn to whether “appropriate relief ”
in that context includes money damages. In its opinion

23a
below, the district court held that “appropriate relief ” did
not include money damages in suits against federal officers in their individual capacities. Tanvir, 128 F. Supp. 3d
at 780‐81. We disagree.
a.

Ambiguity and the Franklin Presumption

Starting with RFRA’s statutory text, as we do in any
case of statutory construction, we note that RFRA does
not define the phrase “appropriate relief.” See Chai,
851 F.3d at 217. Unable to draw further insight from a
plain reading of the statute, we turn to the context in
which the language is used and the context of the statute
more broadly. See Robinson, 519 U.S. at 341.
In the context of RFRA’s companion statute, the Religious Land Use and Institutionalized Persons Act of
2000 (“RLUIPA”), 42 U.S.C. § 2000cc et seq.,8 the Supreme Court acknowledged that the phrase “ ‘appropriate relief ’ is open‐ended and ambiguous about what
types of relief it includes . . . Far from clearly identifying money damages, the word ‘appropriate’ is inherently context-dependent.” Sossamon, 563 U.S. at 286.

The district court opinion aptly notes that RFRA and RLUIPA
are companion statutes. See Tanvir, 128 F. Supp. 3d at 775. After
the Supreme Court in City of Boerne, 521 U.S. 507, determined that
RFRA was unconstitutional as applied to state and local governments because it exceeded Congress’s power under Section 5 of the
Fourteenth Amendment, Congress passed RLUIPA pursuant to the
Spending Clause and Commerce Clause. See Tanvir, 128 F. Supp. 3d
at 775 n.18; Sossamon v. Texas, 563 U.S. 277, 281 (2011). “RLUIPA
borrows important elements from RFRA . . . includ[ing] an express private cause of action that is taken from RFRA.” Sossamon,
563 U.S. at 281. As a result, courts commonly apply RFRA case
law to issues arising under RLUIPA and vice versa. See Redd v.
Wright, 597 F.3d 532, 535 n.2 (2d Cir. 2010).
8

24a
Indeed, “[i]n some contexts, ‘appropriate relief ’ might
include damages.” Webman v. Fed. Bureau of Prisons, 441 F.3d 1022, 1026 (D.C. Cir. 2006). But in other
contexts, “another plausible reading is that ‘appropriate
relief ’ covers equitable relief but not damages.” Id.
As with the analogous phrase in RLUIPA, we agree that
the phrase “appropriate relief ” in RFRA’s statutory
text is ambiguous.
Having made that determination, “we resort to canons of statutory interpretation to help resolve the ambiguity.” Chai, 851 F.3d at 217. We turn to the “the
venerable canon of construction that Congress is presumed to legislate with familiarity of the legal backdrop
for its legislation.” Mobil Cerro Negro, Ltd. v. Bolivarian Republic of Venezuela, 863 F.3d 96, 115 (2d Cir.
2017); see also Ryan v. Gonzales, 568 U.S. 57, 66 (2013)
(“We normally assume that, when Congress enacts statutes, it is aware of relevant judicial precedent.”). We
have stated:
Of course, Congress may depart from [our traditional
legal concepts] . . . But when a statute does not
provide clear direction, it is more likely that Congress was adopting, rather than departing from, established assumptions about how our legal . . .
system works. We will not lightly assume a less
conventional meaning absent a clear indication that
such a meaning was intended.
Nat. Res. Def. Council, Inc. v. U.S. Food & Drug Admin., 760 F.3d 151, 166 (2d Cir. 2014).
Congress enacted RFRA in the wake of Franklin,
503 U.S. 60, a Supreme Court decision issued over a year
prior to the enactment of the statute. In Franklin, the

25a
Supreme Court stated that when faced with “the question of what remedies are available under a statute that
provides a private right of action,” it “presume[s] the
availability of all appropriate remedies unless Congress has expressly indicated otherwise.” Id. at 65‐66
(emphasis added); see also Carey v. Piphus, 435 U.S. 247,
255 (1978) (upholding damages remedy under 42 U.S.C.
§ 1983, even though the enacting Congress did not “address directly the question of damages”). It based that
presumption on a long‐standing rule that “has deep
roots in our jurisprudence:” that “[w]here legal rights
have been invaded, and a federal statute provides for a
general right to sue for such invasion, federal courts
may use any available remedy to make good the wrong
done.” Franklin, 503 U.S. at 66 (alterations omitted).
Applying this traditional presumption in the context of
an implied right of action to enforce Title IX, the Supreme Court held that a damages remedy was available.
Id. at 76.
RFRA permits plaintiffs to “obtain appropriate relief
against a government,” 42 U.S.C. § 2000bb‐1(c), and includes no “express[] indicat[ion]” that it proscribes the
recovery of money damages, Franklin, 503 U.S. at 66.
Because Congress enacted RFRA one year after the Supreme Court decided Franklin, and because Congress
used the very same “appropriate relief ” language in
RFRA that was discussed in Franklin, the Franklin
presumption applies to RFRA’s explicit private right of
action. In light of RFRA’s purpose to provide broad
protections for religious liberty, Hobby Lobby, 134 S. Ct.
at 2760, and applying the Franklin presumption here,
we hold that RFRA authorizes the recovery of money

26a
damages against federal officers sued in their individual
capacities.9
b.

Defendants’ Arguments to the Contrary
i.

Precedent Does Not Require a Different
Outcome

Defendants argue that our holding here is inconsistent
with several decisions by the Supreme Court, our Court,
and our sister circuits limiting the recovery of money
damages in suits under RFRA and RLUIPA. See Sossamon, 563 U.S. 277; Washington v. Gonyea, 731 F.3d
143, 145 (2d Cir. 2013); Webman, 441 F.3d at 1026; Oklevueha Native Am. Church of Hawaii, Inc. v. Holder,
676 F.3d 829, 840‐41 (9th Cir. 2012); Davila v. Gladden,
777 F.3d 1198, 1210 (11th Cir. 2015), cert. denied sub
nom. Davila v. Haynes, 136 S. Ct. 78 (2015). Our holding, however, is not inconsistent with these decisions,
each of which is based upon animating principles that
are inapplicable here.
In Sossamon, the Supreme Court held that the phrase
“appropriate relief ” in RLUIPA does not permit the re-

Indeed, the determination that RFRA permits individual capacity suits leads logically to the conclusion that it permits a damages
remedy against those individuals. An individual capacity suit that
is confined to injunctive relief has limited value; official capacity
suits for injunctive relief already supply injunctive relief against the
governmental entity as a whole. As a result, plaintiffs will rarely,
if ever, prefer to enjoin the conduct of a single officer. In contrast,
as noted above, suits seeking compensation from officers in their official capacity, being in essence suits against the state or federal
government itself, are generally barred by sovereign immunity.
Thus, individual capacity suits tend to be associated with damages
remedies, and official capacity suits with injunctive relief.
9

27a
covery of money damages against a state or state officers sued in their official capacities. 563 U.S. at 288.
The Supreme Court based its conclusion on considerations relating to state sovereign immunity. Namely,
when determining whether an act of Congress waives
sovereign immunity, the Court stated that such language “will be strictly construed, in terms of scope, in
favor of the sovereign.” Id. at 285. Therefore, in that
context, the Court’s relevant inquiry was the opposite of
the one at issue here: “not whether Congress has given
clear direction that it intends to exclude a damages remedy, see Franklin, [503 U.S.] at 70‐71, but whether Congress ha[d] given clear direction that it intend[ed] to include a damages remedy.” Sossamon, 563 U.S. at 289
(emphasis in original). Because the phrase “appropriate
relief ” in that context did not “unequivocally express[]”
Congress’s intent to waive state sovereign immunity,
the Supreme Court held that RLUIPA did not permit a
suit for monetary damages against a state or state officials sued in their official capacities. Id. at 288.
Like Sossamon, several of our sister circuits have determined that RFRA’s prescription for “appropriate relief ” does not include damages against the federal government or its officers acting in their official capacities.
See Webman, 441 F.3d at 1026; Oklevueha Native Am.
Church of Hawaii, 676 F.3d at 840‐41; Davila 777 F.3d
at 1210. These courts so held because, in the context of
suits against the federal government and its officers in
their official capacities, the phrase “appropriate relief ”
similarly does not express an unambiguous waiver of the
federal government’s sovereign immunity. See, e.g.,
Davila, 777 F.3d at 1210 (“Congress did not unequivocally waive its sovereign immunity in passing RFRA.

28a
RFRA does not therefore authorize suits for money
damages against officers in their official capacities.”).
The animating principles underlying Sossamon, Webman, Oklevueha Native Am. Church of Hawaii, and
Davila, however, are absent from the instant case.
Each of those cases involved a question of whether “appropriate relief ” under RFRA or RLUIPA permitted
suits against a sovereign or its officers in their official
capacities. Although the Supreme Court and our sister
circuits declined to construe the phrase “appropriate relief ” to amount to an explicit waiver of sovereign immunity, Plaintiffs’ individual capacity suits against Defendants present no sovereign immunity concerns here. This
is so because Plaintiffs seek monetary relief from those
officers personally, not from the federal or state government. See Hafer, 502 U.S. at 25‐28; Blackburn, 608 F.2d
at 923. As we stated above, “Congress need not waive
sovereign immunity to permit an individual-capacity
suit against a federal official.” Patel, 125 F. Supp. 3d
at 54 (citing Larson, 337 U.S. at 686‐87).
Indeed, as the district court below acknowledged in
its discussion of precedent, “[b]ecause these decisions
. . . are grounded in principles of sovereign immunity,
they are of limited assistance in addressing the question
of damages against those who ‘come to court as individuals.’ ” Tanvir, 128 F. Supp. 3d at 775 n.19 (quoting
Hafer, 502 U.S. at 27). We agree and similarly find
those cases inapplicable here where sovereign immunity
concerns are not at play.
Furthermore, our holding that RFRA permits the recovery of money damages against federal officers sued
in their individual capacities does not conflict with our
decision in Washington v. Gonyea. In Gonyea, we held

29a
that the phrase “appropriate relief ” in RLUIPA prohibits both the recovery of money damages from state officers sued in their official capacities and in their individual
capacities. Gonyea, 731 F.3d at 145. The conclusion
that RLUIPA does not permit the recovery of money
damages from state officers sued in their official capacities follows directly from the Supreme Court’s decision
in Sossamon. 563 U.S. at 293 (“States, in accepting
federal funding, do not consent to waive their sovereign
immunity to private suits for money damages under
RLUIPA because no statute expressly and unequivocally includes such a waiver.”).
Gonyea’s conclusion that RLUIPA does not permit
the recovery of money damages from state officers sued
in their individual capacities follows from another
source: the constitutional basis upon which Congress
relied in enacting RLUIPA. RLUIPA “was enacted
pursuant to Congress’ spending power, which allows the
imposition of conditions, such as individual liability, only
on those parties actually receiving state funds.” 731 F.3d
at 145 (citation omitted). “Applying restrictions created pursuant to the Spending Clause to persons or entities other than the recipients of the federal funds at
issue would have the effect of binding non‐parties to the
terms of the spending contract.” Patel, 125 F. Supp. 3d
at 52 (internal quotation marks omitted). “Indeed, to
decide otherwise would create liability on the basis of a
law never enacted by a sovereign with the power to affect the individual rights at issue—i.e., the state receiving the federal funds—and this would raise serious questions regarding whether Congress had exceeded its authority under the Spending Clause.” Gonyea, 731 F.3d
at 146 (emphasis in original; citations and internal punctuation omitted). As a result, in Gonyea, we held that

30a
RLUIPA did not permit a plaintiff to sue state officials
in their individual capacities because the state prison,
and not the state prison officials, was the ‘contracting
party,’ which had “agree[d] to be amenable to suit as a
condition to received funds.” Id. at 145.
RFRA, by contrast, was enacted pursuant to Section 5
of the Fourteenth Amendment and the Necessary and
Proper Clause. Hankins v. Lyght, 441 F.3d 96, 105
(2d Cir. 2006). RFRA’s constitutional bases thus “do[]
not implicate the same concerns” as those relevant to
RLUIPA and the Spending Clause, which we addressed
in Gonyea. Mack, 839 F.3d at 303‐04; see also Tanvir,
128 F. Supp. 3d at 775 n.19. Because the animating principles underlying our decision in Gonyea are absent in
the instant case, our holding here—that RFRA permits
the recovery of money damages from federal officials
sued in their individual capacities—and our holding in
Gonyea—that RLUIPA does not permit the recovery of
money damages from state officials sued in their individual capacities—are entirely consistent.
Defendants complain that our holding in this case
makes the phrase “appropriate relief ” in RFRA into a
chameleon. See United States v. Santos, 553 U.S. 507,
522 (2008) (plurality op.) (stating that the Supreme Court
has “forcefully rejected” the “interpretive contortion” of
“giving the same word, in the same statutory provision,
different meanings in different factual contexts”) (emphasis omitted). But that is incorrect. To the contrary,
we are tasked with interpreting the meaning of RFRA’s
phrase “appropriate relief,” an inquiry that is “inherently context‐dependent.” Sossamon, 563 U.S. at 286.
Indeed, the word ‘appropriate’ does not change its
meaning; rather, the question addressed in each of these

31a
various contexts is what sort of relief is ‘appropriate’ in
that particular situation. And, since the relevant animating principles vary appreciably across legal contexts, the meaning of ‘appropriate’ may well take on different meanings in different settings.
At the time of the district court decision below, neither the Supreme Court nor any of our sister circuits
had squarely addressed whether RFRA provides for
money damages.10 Since then, however, the Third Circuit has held, as we do now, that RFRA authorizes individual capacity suits against federal officers for money
damages. See Mack, 839 F.3d at 304.
In Mack, the Third Circuit reached that holding by
applying the Franklin presumption—that any “appropriate relief ” is available unless Congress expressly indicates otherwise. Id. at 302‐03. The court found
that its conclusion was buttressed by the fact that, in enacting RFRA, Congress used the exact language (“appropriate relief ”) discussed by the Supreme Court in
Franklin. Id. at 303. “Congress enacted RFRA one
year after Franklin was decided and was therefore well
aware that ‘appropriate relief ’ means what it says, and

The Seventh Circuit has previously decided that a plaintiff was
entitled to sue state prison officials in their individual capacities for
damages. Mack v. O’Leary, 80 F.3d 1175, 1177 (7th Cir. 1996) (Posner, J.), vacated on other grounds, 522 U.S. 801 (1997). Before
reaching that conclusion, the court noted that RFRA “says nothing
about remedies except that a person whose rights under the Act are
violated ‘may assert that violation as a claim or defense in a judicial
proceeding and obtain appropriate relief against a government.’ ”
Id. (emphasis in original) (quoting 42 U.S.C. § 2000bb-1(c)). The
court also acknowledged that the defendants in that case did not contest the availability of damages as a remedy under RFRA. Id.
10

32a
that, without expressly stating otherwise, all appropriate relief would be available.” Id. at 303.11 In light of
RFRA’s purpose of providing broad religious liberty
protections, the Third Circuit concluded that it saw “no
reason why a suit for money damages against a government official whose conduct violates RFRA would be inconsistent with” that purpose. Id.12
We agree with the Third Circuit’s reasoning in Mack
and adopt it here. In particular, we reject a strained
reading of “appropriate relief ” that would be less generous to plaintiffs under RFRA than under implied
rights of action, and thus would undermine Congress’s
intention to “provide broad religious liberty protections.” Id. Further, as one district court has pointed
out, “[i]t seems unlikely that Congress would restrict the
kind of remedies available to plaintiffs who challenge
free exercise violations in the same statute it passed to
elevate the kind of scrutiny to which such challenges
would be entitled.” Jama, 343 F. Supp. 2d at 374‐75
(emphasis in original). Given that Congress has not
Of note, the Third Circuit in Mack stated that “[b]ecause Mack
brings his RFRA claim against only [two federal officers] in their individual capacities, the federal government’s sovereign immunity to
suits for damages is irrelevant here.” Id. at 302 n.92.
12
The court in Mack drew further support from the similarities between RFRA and 42 U.S.C. § 1983, which has long permitted money
damages against state officials sued in their individual capacities. Id.
By comparison, the court distinguished its earlier decision in Sharp v.
Johnson, 669 F.3d 144, 154‐55 (3d Cir. 2012), in which it found that
RLUIPA did not provide for money damages against state officials
sued in their individual capacities, by pointing out how Congress’s constitutional authorization for RLUIPA (Commerce Clause and Spending Clause) poses concerns not relevant to its analysis of RFRA (Necessary and Proper Clause and Section 5 of Fourteenth Amendment).
11

33a
specified that individual capacity suits for money damages should be barred under RFRA, and that, unlike in
the RLIUPA context, no constitutional conflict prevents
their application, we find that such suits are wholly appropriate under this statutory scheme.
ii.

The Franklin Presumption Is Not Confined
to Statutes with Implied Rights of Action

The district court below found that the Franklin
presumption did not apply in the instant case. Tanvir,
128 F. Supp. 3d at 779. In making that determination,
the district court noted that Franklin “required the Supreme Court to interpret the scope of an implied statutory right of action.” Id. (emphasis in original). By
comparison, Congress created an express private right
of action in RFRA. See 42 U.S.C. § 2000bb‐1(c). The
district court held that “the Franklin presumption is
thus inapplicable” to RFRA “and the meaning of ‘appropriate relief ’ must be discerned using the traditional tools
of statutory construction.” Tanvir, 128 F. Supp. 3d at
779. Applying those tools, the district court discerned
that Congress lacked an intent to permit money damages under RFRA through its use of the phrase “appropriate relief.” Id.
Although Franklin indeed considered the availability
of damages under a statute with an implied private right
of action, we are not convinced that the district court’s
distinction is correct. The logical inference, in our
view, runs the other way: one would expect a court to
be more cautious about expanding the scope of remedies
available for a private right of action that is not explicitly provided by Congress, than in determining what
remedies are available for a right of action that Congress has expressly created. This is particularly true

34a
where, in creating the right of action, Congress has also
explicitly authorized courts to provide any “appropriate
relief,” without limitation. In fact, the Court in Franklin recounted its own case, Kendall v. United States
ex rel. Stokes, in which it held that damages were available under a statute with an explicit private right of action where that statute failed to specify the remedies
available. 37 U.S. (12 Pet) 524, 624 (1838) (stating that
to find otherwise would present “a monstrous absurdity
in a well organized government, that there should be no
remedy, although a clear and undeniable right should be
shown to exist”).
As discussed above, the Third Circuit in Mack applied the Franklin presumption in determining that
RFRA’s express private right of action permitted the
recovery of money damages against individuals sued in
their individual capacities. Mack, 839 F.3d at 303‐04;
see also Patel, 125 F. Supp. 3d at 53 n.1 (“[T]he mere
mention of remedies [in RFRA] does not rebut the
[Franklin] presumption;” rather, the phrase “appropriate relief ” “does nothing more than authorize what courts
applying Franklin presume, and it falls far short of an
express indication that damages are prohibited.”) (internal punctuation omitted). Other courts have applied the
Franklin presumption in the context of statutes containing express private rights of action. See, e.g., Reich v.
Cambridgeport Air. Sys., 26 F.3d 1187, 1191 (1st Cir.
1994) (applying Franklin presumption to conclude that
“all appropriate relief ” under Section 11 of the Occupational Safety and Health Act included money damages);
Ditulio v. Boehm, 662 F.3d 1091, 1098 (9th Cir. 2011)
(holding that punitive damages were available under the
Trafficking Victims Protection Act, which permits the
recovery of “damages,” because the court “follow[s] the

35a
‘general rule’ that we should award ‘any appropriate relief in a cognizable cause of action brought pursuant to
a federal statute’ ” (quoting Franklin, 503 U.S. at 71)).
We disagree with the district court’s decision to limit
the application of the Franklin presumption in this case.
The Franklin presumption need not be confined to only
those cases interpreting the remedies available under
an implied private right of action. To the contrary,
“[t]he same presumption applies here—more so, we think,
because Congress expressly stated that a claimant may
obtain ‘appropriate relief ’ against a government—the
exact language used in Franklin.” Mack, 839 F.3d at
303. Thus, we reject the district court’s position that
the Franklin presumption does not apply in interpreting the meaning of “appropriate relief ” under RFRA.
iii. Legislative History
Although we conclude that the Franklin presumption extends to express private rights of action, the presumption can be rebutted. Pursuant to Franklin, “we
presume the availability of all appropriate remedies
unless Congress has expressly indicated otherwise,”
503 U.S. at 66, and our analysis of whether Congress intended to limit the application of this general principle
will vary depending on whether the right of action is implied or explicit.
Where a statutory cause of action is implied, it is futile to resort to the statutory text and legislative history,
because Congress usually has not spoken about remedies applicable to a right that the federal courts, rather
than Congress, created. See id. at 71 (“[T]he usual recourse to statutory text and legislative history . . .

36a
necessarily will not enlighten our analysis.”). Accordingly, our analysis of Congress’s intent in such contexts
“is not basically a matter of statutory construction,” but
rather a matter of “evaluat[ing] the state of the law
when the Legislature passed [the statute].” Id. (emphasis in original).
On the other hand, where the private right of action
is express, the statutory text and legislative history may
enlighten our understanding. The question thus becomes whether these interpretative sources exhibit a
“clear direction” by Congress that the federal courts
lack “the power to award any appropriate relief in a cognizable cause of action brought pursuant to a federal
statute.” Id. at 70‐71. We conclude that neither the
statutory text nor the legislative history provides such a
clear direction here.
As noted above, the district court supported its conclusion in part by referencing legislative history indicating
that RFRA was intended solely to reverse the Supreme
Court’s decision in Smith. See Tanvir, 128 F. Supp. 3d
at 778-80. For instance, the Senate Committee Report,
which discusses the background and purpose for RFRA,
states that “the purpose of this act is only to overturn
the Supreme Court’s decision in Smith,” S. Rep. No.
103‐111, at 12 (1993), and by doing so restore the compelling interest test to free exercise claims, id. at 8. The
House Committee Report similarly focuses on the effect
of the Smith decision and the resulting outcome that
free exercise claims receive the “the lowest level of scrutiny employed by the courts.” H.R. Rep. No. 103‐88, at
5‐6 (1993).

37a
The Senate and House Committee Reports, however,
are not conclusive as to the meaning of RFRA’s statutory text. The statutory text of RFRA reflects a dual
purpose: “to restore the compelling interest test” applied by the Supreme Court in free exercise cases before
Smith, and “to provide a claim or defense to persons
whose religious exercise is substantially burdened by
government.” 42 U.S.C. § 2000bb(b). In accomplishing
the latter purpose, Congress also codified a statutory
cause of action to bring claims against officials in their
individual capacities—a type of action never explicitly
authorized (or foreclosed) by the Supreme Court’s free
exercise jurisprudence. Congress accordingly went beyond merely restoring the compelling interest test. It
removed ambiguity about who could be held liable for
violations of religious exercise.13

The Supreme Court also has indicated that RFRA’s least restrictive means requirement may well have gone beyond what was required by its pre‐Smith decisions. See City of Boerne, 521 U.S. at
509 (“[T]he least restrictive means requirement was not used in the
pre‐Smith jurisprudence RFRA purported to codify.”); see also
Hobby Lobby, 134 S. Ct. at 2761 n.3 (observing that City of Boerne
reflects an understanding that RFRA’s least restrictive means requirement “provided even broader protection for religious liberty
than was available under those [pre‐Smith] decisions”); id. at 2767
n.18 (declining to decide whether RFRA’s least restrictive means requirement in fact “went beyond what was required by our pre‐Smith
decisions”); id. at 2793 (Ginsburg, J., dissenting) (“Our decision in City
of Boerne, it is true, states that the least restrictive means requirement was not used in the pre‐Smith jurisprudence RFRA purported
to codify. As just indicated, however, that statement does not accurately convey the Court’s pre‐Smith jurisprudence.”) (internal quotation marks and citation omitted). If RFRA’s least restrictive means
requirement in fact went beyond pre-Smith jurisprudence, such an
13

38a
The legislative history further fails to provide an “express[]” and “clear direction” that Congress intended to
preclude litigants from seeking damages in these individual capacity suits. Franklin, 503 U.S. at 66, 70. To
be sure, the House and Senate Committee Reports each
contain similar language stating, “[t]o be absolutely clear,
the bill does not expand, contract or alter the ability of
a claimant to obtain relief in a manner consistent with
free exercise jurisprudence, including Supreme Court
jurisprudence, under the compelling governmental interest test prior to Smith.” H.R. Rep. No. 103‐88, at 8;
see also S. Rep. No. 103‐111, at 12 (“To be absolutely
clear, the act does not expand, contract or alter the ability of a claimant to obtain relief in a manner consistent
with the Supreme Court[’]s[] free exercise jurisprudence
under the compelling governmental interest test prior
to Smith.”). It does not follow, however, that Congress
therefore intended to limit the remedies available for
RFRA violations.
As an initial matter, the broader legislative history
shows that the House and Senate Committee Reports
were not using the term “relief ” to refer to remedies.
Rather, the reports were concerned with claimants bringing particular causes of action. See generally Douglas
Laycock & Oliver S. Thomas, Interpreting the Religious
Freedom Restoration Act, 73 Tex. L. Rev. 209, 236‐39
(1994). During the House and Senate hearings, several
religious and social organizations raised concerns that
claimants would use RFRA to challenge restrictions on
extension further supports our holding that RFRA provides an individual damages remedy. We need not decide this dispute today,
however, because our holding remains the same in light of RFRA’s
statutory text and legislative history.

39a
abortion, tax exemptions, and government funding for
religious organizations. 14 These concerns were sufficiently serious that several key Republican representatives withdrew their support for the bill and introduced
legislation that explicitly prohibited claimants from
using the statute to affect those issues. Id.; see also
H.R. 4040, 102d Cong. § 3(c)(2) (1991).
RFRA’s lead sponsors subsequently agreed to compromise language in the House and Senate Committee
Reports addressing these concerns, and made clear that
the act “does not expand, contract or alter the ability of
a claimant to obtain relief ” in accordance with the federal courts’ free exercise jurisprudence. Laycock &
Thomas, supra, at 236‐39; see also S. Rep. No. 103‐111,
at 12; H.R. Rep, No. 103-88, at 8. The reports accordingly stated that claims challenging abortion restrictions
should be adjudicated pursuant to the Supreme Court’s
decision in Planned Parenthood of Southeastern Pennsylvania v. Casey, 505 U.S. 833 (1992), and that the bill
does “not change the law” determining whether religious organizations may receive public funding or enjoy
tax exemptions. S. Rep. No. 103‐111, at 12; HR, Rep.
No. 103‐88, at 8. Taken in context, it is thus clear that
See Religious Freedom Restoration Act of 1991: Hearings on
HR. 2797 Before the Subcomm. on Civil and Constitutional Rights
of the H. Comm. on the Judiciary, 102d Cong. 33‐35, 40‐43 (1992)
(statement of Mark E. Chopko, Gen. Counsel, United States Catholic Conference); id. at 270‐301 (statement of James Bopp, Jr., Gen.
Counsel, National Right to Life Committee, Inc.); The Religious
Freedom Restoration Act: Hearing on S. 2969 Before the Sen.
Comm. on the Judiciary, 102d Cong., 99‐115 (1992) (statement of
Mark E. Chopko, Gen. Counsel, United States Catholic Conference);
id. at 203‐37 (statement of James Bopp, Jr., Gen. Counsel, National
Right to Life Committee, Inc.).
14

40a
Congress was not concerned with limiting plaintiffs’ available remedies under the act—it was concerned with preventing plaintiffs from pursuing certain causes of action.15
Moreover, even if the compromise language in the
House and Senate Committee Reports could be read as
excluding certain remedies from RFRA’s scope, it does
not clearly indicate that Congress intended to exclude
an individual damages remedy. As previously noted,
the Senate Committee Report states that the act does
not “alter the ability of a claimant to obtain relief in a
manner consistent with the Supreme Courts’[] free exercise jurisprudence . . . prior to Smith.” S. Rep.
No. 103‐111, at 12. The Supreme Court, in turn, never
ruled out the possibility of plaintiffs’ bringing individual
damages claims for free exercise violations before
Smith was decided. To the contrary, in Bivens v. Six
Unknown Named Agents of Fed. Bureau of Narcotics,
403 U.S. 388 (1971), the Supreme Court held that victims
of Fourth Amendment violations could pursue individual
damages claims against officials, and it extended this

The floor debate likewise confirms that Congress intended to limit
the causes of action that could be brought under the statute. Representative Henry Hyde stated that he had offered amendments to
RFRA because he was concerned that the legislation would “create an
independent statutory basis” for individuals to challenge restrictions
on abortion, social service programs operated by religious institutions
with public funds, and the tax‐exempt status of religious institutions.
139 Cong. Rec. 103, 9682 (1993). Representative Hyde further stated
that his concerns were “resolved either through explicit statutory
changes or through committee report language,” which “ma[de] clear”
that “such claims are not the appropriate subject of litigation” under
RFRA, and that the “bill does not expand, contract, or alter the ability
of a claimant to obtain relief ” consistent with free exercise jurisprudence prior to Smith. Id.
15

41a
principle in Carlson v. Green, 446 U.S. 14, (1980), to permit individual damages claims for constitutional violations unless the defendants could show that Congress
“provided an alternative remedy which it explicitly declared to be a substitute for recovery directly under the
Constitution,” or there are “special factors counseling hesitation in the absence of affirmative action by Congress,”
id. at 18-19 (emphasis omitted). It was therefore at least
possible at the time that Congress passed RFRA that an
individual damages claim would have been available for
a free exercise violation. Given this potential, we cannot say that the Senate Committee Report expressly intended to exclude such a remedy when it stated that it
did not intend to “expand” or “alter” claimants’ ability
to obtain relief. S. Rep. No. 103‐111, at 12.16

To be sure, the Supreme Court has subsequently shown “caution
toward extending Bivens remedies into any new context,” Corr.
Servs. Corp. v. Malesko, 534 U.S. 61, 74 (2001), and “[s]ince Carlson
in 1980, the Supreme Court has declined to extend the Bivens remedy in any new direction at all,” Arar v. Ashcroft, 585 F.3d 559, 571
(2d Cir. 2009). This trend, however, was not clearly apparent at the
time of RFRA’s passage because the Court had recognized Bivens
claims in three instances and denied such claims in four. See id. at
571‐72. Additionally, although the Supreme Court in Bush v. Lucas, 462 U.S. 367, 368 (1983), held that federal employees could not
bring Bivens claims against their superiors, the decision was narrow, and based on federal employees’ existing access to “an elaborate remedial system” that protected their constitutional rights, id.
at 388. That remedial framework is not applicable here, because
the plaintiffs are not federal employees. Moreover, even if the
trend away from extending Bivens were obvious when RFRA was
passed, it still falls short of the Supreme Court’s clearly foreclosing
an individual damages remedy for free exercise violations. We
therefore conclude that it would not be a basis for finding the Franklin presumption inapplicable here.
16

42a
Furthermore, even if the Senate Committee Report
could be read to limit RFRA’s remedies to those explicitly authorized by the Supreme Court prior to Smith,
the approach of the House Committee Report is not necessarily so narrow. Unlike the Senate Committee Report, which authorizes relief “consistent with the Supreme Courts’[] free exercise jurisprudence,” S. Rep.
No. 103‐111, at 12, the House Committee Report authorizes relief so long as it is “consistent with free exercise
jurisprudence, including Supreme Court jurisprudence,”
H.R. Rep. No. 103‐88, at 8. The House Committee Report therefore appears to have contemplated providing
a broad array of relief consistent not only with Supreme
Court jurisprudence but that of the lower courts as well.
We thus find it highly relevant that at the time of
RFRA’s passage, several Courts of Appeals had held
that plaintiffs could pursue individual damages claims
for violations of their free exercise rights. See Caldwell v. Miller, 790 F.2d 589, 607‐608 (7th Cir. 1986);
Jihaad v. O’Brien, 645 F.2d 556, 558 n.1 (6th Cir. 1981);
see also Paton v. La Prade, 524 F.2d 862, 870 (3d Cir.
1975) (holding that Bivens claims are broadly available
for First Amendment violations); Scott v. Rosenberg,
702 F.2d 1263, 1271 (9th Cir. 1983) (assuming, without
deciding, that the plaintiff could recover damages if his
free exercise rights had been violated).
Accordingly, we do not believe that the legislative
history evinces a clear and express indication that Congress intended to exclude individual damages claims from
the scope of RFRA’s available relief, and we therefore
conclude that the Franklin presumption is applicable.

43a
VI. Qualified Immunity

Having held that RFRA authorizes a plaintiff to sue
federal officers in their individual capacities for money
damages, we consider whether those officers should be
shielded by qualified immunity.
At the panel’s request, the parties submitted supplemental briefing addressing two questions: (1) “whether,
assuming arguendo that RFRA authorizes suits against
officers in their individual capacities, [Defendants] would
be entitled to qualified immunity,” and (2) “whether Ziglar
v. Abbasi, No. 15‐1358, 2017 WL 2621317 (June 19, 2017),
applies in any relevant way to this question or the other
questions presented in this appeal.” Order, Tanvir v.
Tanzin, No. 16-1176 (2d Cir. 2017), Dkt. No. 83; see also
Post‐Argument Ltr. Brs., Tanvir v. Tanzin, No. 16‐1176
(2d Cir. 2017), Dkt Nos. 89‐90, 93‐94.
We are sensitive to the notion that qualified immunity should be resolved “at the earliest possible stage in
the litigation.” Hunter v. Bryant, 502 U.S. 224, 227
(1991). Indeed, we have, in some circumstances, “permitted the [qualified immunity] defense to be successfully
asserted in a Rule 12(b)(6) motion.” McKenna v. Wright,
386 F.3d 432, 435 (2d Cir. 2004). Nevertheless, as a general matter, “[i]t is our practice in this Circuit when a
district court fails to address the qualified immunity defense to remand for such a ruling.” Eng v. Coughlin,
858 F.2d 889, 895 (2d Cir. 1988) (citing Francis v. Coughlin, 849 F.2d 778, 780 (2d Cir. 1988)).
Here, the district court decision below did not address whether Defendants were entitled to qualified immunity. Similarly, until the panel prompted the parties at oral argument and in its post‐argument order,

44a
neither side fully addressed or briefed the issue of qualified immunity on appeal. In the absence of a more developed record, we decline to address in the first instance whether the Defendants are entitled to qualified
immunity. We remand to the district court to make
such determination in the first instance.
CONCLUSION

For the foregoing reasons, we reverse the judgment
of the district court and remand for further proceedings.

45a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

No. 16-1176
MUHAMMAD TANVIR, JAMEEL ALGIBHAH,
NAVEED SHINWARI, PLAINTIFFS-APPELLANTS
v.
FNU TANZIN, SPECIAL AGENT, FBI; SANYA
GARCIA, SPECIAL AGENT, FBI; JOHN LNU, SPECIAL
AGENT, FBI; FRANCISCO ARTUSA, SPECIAL AGENT ,
FBI; JOHN C. HARLEY III, SPECIAL AGENT, FBI;
STEVEN LNU, SPECIAL AGENT, FBI; MICHAEL LNU,
SPECIAL AGENT, FBI; GREGG GROSSOEHMIG, SPECIAL
AGENT, FBI; WEYSAN DUN, SPECIAL AGENT IN
CHARGE, FBI; JAMES C. LANGENBERG, ASSISTANT
SPECIAL AGENT IN CHARGE, FBI; JOHN DOE #1,
SPECIAL AGENT, FBI; JOHN DOE #2, SPECIAL AGENT,
FBI; JOHN DOE #3, SPECIAL AGENT, FBI;
JOHN DOE #4, SPECIAL AGENT, FBI; JOHN DOE #5,
SPECIAL AGENT, FBI; JOHN DOE #6, SPECIAL AGENT,
FBI, DEFENDANTS-APPELLEES
[Filed: Feb. 14, 2019]
PRESENT:
ROBERT A. KATZMANN,
Chief Judge,
DENNIS JACOBS,
JOSÉ A. CABRANES,
ROSEMARY S. POOLER,
PETER W. HALL,
DENNY CHIN,

46a
RAYMOND J. LOHIER, JR.,
SUSAN L. CARNEY,
CHRISTOPHER F. DRONEY,
RICHARD J. SULLIVAN,
Circuit Judges.*
Following disposition of this appeal on June 25, 2018,
an active judge of the Court requested a poll on whether
to rehear the case en banc. A poll having been conducted and there being no majority favoring en banc review, rehearing en banc is hereby DENIED.
Rosemary S. Pooler, Circuit Judge, joined by Robert
A. Katzmann, Chief Judge, concurs by opinion in the denial of rehearing en banc.
Dennis Jacobs, Circuit Judge, joined by José A.
Cabranes and Richard J. Sullivan, Circuit Judges, dissents by opinion from the denial of rehearing en banc.
José A. Cabranes, Circuit Judge, joined by Dennis
Jacobs and Richard J. Sullivan, Circuit Judges, dissents
by opinion from the denial of rehearing en banc.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK

Circuit Judge Debra Ann Livingston recused herself from these
proceedings.
*

47a
ROBERT A. KATZMANN, Chief Judge, and ROSEMARY S.
POOLER, Circuit Judge, concurring in the denial of rehearing en banc:1

Our dissenting colleagues do their level best to disguise the panel’s opinion as an extension of Bivens v. Six
Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971). They claim that despite the
Supreme Court’s recent decisions restraining Bivens
actions, the panel’s opinion effectively dabbles in the
now‐forbidden practice of implying private rights of action. Dissent from the Denial of Rehearing En Banc
(Jacobs, J.), slip op. at 5; Dissent from the Denial of Rehearing En Banc (Cabranes, J.), slip op. at 1‐2. But
these arguments deny an incontrovertible truth: the
panel’s opinion does not imply a private right of action.
To the contrary, RFRA contains an express private
right of action with an express provision for “appropriate relief.” See 42 U.S.C. § 2000bb‐1(c).2 The panel
opinion interprets RFRA’s express private right of action to support a damages remedy where appropriate—

Pursuant to Second Circuit En Banc Protocol 12, Judge Gerard
E. Lynch, although a member of the panel that decided this case, is
a Senior Judge and thus may not report his views on the petition for
rehearing en banc.
2
RFRA’s private right of action in its entirety states:
1

A person whose religious exercise has been burdened in violation
of this section may assert that violation as a claim or defense in
a judicial proceeding and obtain appropriate relief against a government. Standing to assert a claim or defense under this section shall be governed by the general rules of standing under article III of the Constitution.
42 U.S.C. § 2000bb‐1(c).

48a
a conclusion based on principles of statutory interpretation that Bivens and its progeny do not touch.
Separation of powers considerations compel the judiciary to exercise “caution with respect to actions in the
Bivens context, where [an] action is implied to enforce
the Constitution itself.” Ziglar v. Abbasi, 137 S. Ct. 1843,
1856 (2017). Undoubtedly, the Supreme Court’s hesitancy to apply Bivens to new contexts reflect a concern
for judicial absorption of legislative power: “[T]he inquiry must concentrate on whether the Judiciary is well
suited, absent congressional action or instruction, to
consider and weigh the costs and benefits of allowing a
damages action to proceed.” Id. at 1857‐58. The Court
suggests that Congress is typically the best‐suited institution to resolve the “host of considerations that must
be weighed and appraised” in deciding whether a remedy for constitutional or statutory rights exists. Id. at
1857 (internal quotation marks omitted).
But despite our dissenting colleagues’ protests, the
Court’s reasoning in Ziglar is inapplicable to the question of whether Congress’s provision in RFRA for litigants to “obtain appropriate relief against a government,” 42 U.S.C. § 2000bb‐1(c), contemplates a damages
remedy. Franklin v. Gwinnett Cty. Pub. Schs., 503 U.S.
60, 65‐66 (1992) (“[T]he question of what remedies are
available under a statute that provides a private right of
action is analytically distinct from the issue of whether
such a right exists in the first place.” (internal quotation marks omitted)). In the context of an implied remedy, the Ziglar Court instructed that the answer to this
question is that Congress typically decides “whether to
provide for a damages remedy.” 137 S. Ct. at 1857.

49a
This truism recognizes that the judiciary’s power to impose liability by creating a private right of action vis-à‐
vis Congress’s silence is modest. See, e.g., Cort v. Ash,
422 U.S. 66, 78 (1975) (defining four searching requirements for implying a private right of action). By contrast, in the context of a private right of action, Congress
has already spoken to impose liability and thereby bestows the judiciary with greater power to effect a remedy. E.g., Bell v. Hood, 327 U.S. 678, 684 (1946) (“[I]t
is . . . well settled that where legal rights have been
invaded, and a federal statute provides for a general
right to sue for such invasion, federal courts may use
any available remedy to make good the wrong done.”).
The role of the court in this case is different because implying a right of action is a judicially constructed remedy, whereas interpreting a statute to provide a damages remedy is a time‐honored exercise of the judiciary’s power to grant relief where Congress has legislated liability.
This makes sense. While it would upset the separation of powers for federal courts “to award remedies
when the Constitution or laws of the United States do
not support a cause of action,” if federal courts declined
to recognize remedies for express causes of action, it
“would harm separation of powers principles in another
way, by giving judges the power to render inutile causes
of action authorized by Congress.” Franklin, 503 U.S.
at 74. Thus, the opinion, rather than narrowly skirting
the Supreme Court’s Bivens jurisprudence (as the dissents from rehearing darkly imply), recognizes the
Court’s power where separation of powers concerns are
weakest.

50a
It is therefore axiomatic that the judiciary’s interpretation of “appropriate relief ” as prescribed in an express
right of action is not akin to a Bivens action. Unlike a
Bivens action, where the Court itself implies a cause of
action, Tanvir considers the scope of an express right of
action with an express provision of remedies from Congress. This distinction is critical, and no sleight of the
law can elide Bivens and the judiciary’s power to interpret statutes.
The opinion stands on its own to address the dissents’
remaining arguments. We write separately merely to
expose the dissents’ Bivens accusations as a red herring.

51a
DENNIS JACOBS, Circuit Judge, joined by JOSÉ A.
CABRANES and RICHARD J. SULLIVAN, Circuit Judges, dissenting from the denial of rehearing en banc:

Plaintiffs allege that they were placed on the national
“No Fly List,” though they posed no threat to aviation,
in retaliation for their refusal to become FBI informants
reporting on fellow Muslims. The claim is that the retaliation they suffered substantially burdened their exercise of religion, in violation of the Religious Freedom
Restoration Act (“RFRA”), because their refusal was
compelled by Muslim tenets.
The sufficiency of such a claim is not at issue on appeal; so the only issue is whether RFRA affords a money‐
damages remedy against federal officers sued in their
individual capacities. The panel opinion argues that:
the statute permits “appropriate relief against a government”; a government is defined to include “a branch, department, agency, instrumentality, and official (or other
person acting under color of law)”; money damages is
presumptively “appropriate relief ”; and therefore money
damages is appropriate relief against individual officers.
Because the panel’s reasoning fails as a matter of law
and logic and runs counter to clear Supreme Court guidance on this subject, I would grant in banc review and
reverse the panel’s erroneous creation of a right to
money damages under RFRA. Indeed, the panel’s expansive conclusion could be viewed without alarm only
by people ( judges and law clerks) who enjoy absolute
immunity from such suits.

52a
I

RFRA states in relevant part that “[a] person whose
religious exercise has been burdened in violation of this
section may assert that violation as a claim or defense in
a judicial proceeding and obtain appropriate relief
against a government.” 42 U.S.C. § 2000bb‐1(c). As
to whether this statute affords a money‐damages remedy against individual federal officers, precedent points
the way with graphic simplicity.
This Court has already decided the scope of an identical private right of action in the Religious Land Use
and Institutionalized Persons Act of 2000 (“RLUIPA”).
RLUIPA and RFRA alike forbid substantial burdens on
religious exercise: RLUIPA applies to the states, while
RFRA applies to the federal government. We held that
the phrase “appropriate relief against a government” in
RLUIPA does not create a private right of action against
state officials sued in their individual capacities. Washington v. Gonyea, 731 F.3d 143, 146 (2d Cir. 2013).
Washington is fully consistent with the Supreme Court’s
ruling that RLUIPA does not authorize private suits for
money damages against the states themselves. Sossamon v. Texas, 563 U.S. 277, 293 (2011).
The district court followed these precedents. The
panel opinion labors to distinguish them. To distinguish Washington and Sossamon, the panel opinion emphasizes that they were informed by Congress’s Spending Clause powers and by state sovereign immunity (respectively), considerations not present here. But in
Sossamon, the Supreme Court relied not on sovereign
immunity alone, but on the plain meaning of the text.
The Court explained that the phrase “appropriate relief ”
takes its meaning from “context.” Sossamon, 563 U.S.

53a
at 286. In RLUIPA (as in RFRA) the context is clear:
the full phrase is “appropriate relief against a government.” As the Supreme Court explained, “[t]he context here—where the defendant is a sovereign—suggests,
if anything, that monetary damages are not ‘suitable’ or
‘proper.’ ” Id. Given that RFRA and RLUIPA attack
the same wrong, in the same way, in the same words, it
is implausible that “appropriate relief against a government” means something different in RFRA, and includes
money damages.
As the panel opinion concedes, “RLUIPA borrows
. . . an express private cause of action that is taken
from RFRA”; “[a]s a result, courts commonly apply
RFRA case law to issues arising under RLUIPA and
vice versa.” Op. 31 n.8 (internal quotation marks omitted). And the holding in Washington—that RLUIPA
creates no private right of action against state officials
in their individual capacities—was reached “as a matter
of statutory interpretation.” 731 F.3d at 146.
The panel opinion deems it significant that RFRA’s
definition of “government” includes an “official (or other
person acting under color of law).” The use of language similar to that found in 42 U.S.C. § 1983, the panel
argues, suggests personal liability for money damages
under RFRA. This argument is self‐defeating. First,
the inclusion of the word “official” in the definition of
“government” would be required simply to facilitate injunctive relief; it therefore tells us nothing about damages. Moreover, Congress’s use of a definition similar
to that found in § 1983 only highlights the fact that Congress declined to enact relief similar to that found in
§ 1983. RFRA contains nothing akin to § 1983’s explicit endorsement of suits for money damages (“shall be

54a
liable to the party injured in an action at law, suit in equity, or other proper proceedings for redress . . .”).
Surely this was not a careless oversight.
The panel opinion also fails to account adequately for
the limiting term “appropriate relief,” which “is open‐
ended and ambiguous about what types of relief it includes.” Sossamon, 563 U.S. at 286. “Far from clearly
identifying money damages, the word ‘appropriate’ is inherently context‐dependent,” Sossamon, 563 U.S. at 286,
and we must therefore consider what forms of relief may
be appropriate against different persons defined in
RFRA as components of government.
The reading of RLUIPA is easily extended to the
reading of RFRA. The District of Columbia Circuit recognized in Webman v. Fed. Bureau of Prisons, 441 F.3d
1022, 1026 (D.C. Cir. 2006), that “appropriate relief
against a government” in RFRA does not include money
damages against the federal government—just as the
Supreme Court in Sossamon later read the same wording in RLUIPA to foreclose a money damages award
against a state. I would follow suit, and align this case,
which considers personal damages awards under RFRA,
with our Washington precedent on personal damages
awards under RLUIPA.
As the district court opinion observed, “every other
federal statute identified by Plaintiffs as recognizing a
personal capacity damages action against federal officers . . . includes specific reference to the availability of damages.” Tanvir v. Lynch, 128 F. Supp. 3d 756,
778 (S.D.N.Y. 2015) (subsequent history omitted). The
omission of any such language in RFRA is telling, and
in my view conclusive.

55a
II

Proceeding backwards, the panel opinion observes
that RFRA’s legislative history does not evince “a clear
and express indication that Congress intended to exclude
individual damages claims from the scope of RFRA’s
available relief.” Op. 55 (emphasis added). Maybe;
but the absence of such an indication does not support a
positive inference. The opinion’s (lame) conclusion is
that it was “at least possible at the time that Congress
passed RFRA that an individual damages claim would
have been available for a free exercise violation.” Op. 53.
If a statute imposes personal damages liability against
individual federal officers, one would expect that to be
done explicitly, rather than by indirection, hint, or negative pregnant. There is no such explicit wording in
RFRA because the manifest statutory purpose has
nothing to do with such a remedy. The Religious Freedom Restoration Act was enacted to restore religious
freedom that Congress believed had been curtailed by
Employment Division v. Smith, 494 U.S. 872 (1990),
which held that under the First Amendment no compelling government interest is required to justify substantial burdens on religious exercise imposed by laws of
general application.
As the panel opinion concedes, RFRA’s legislative
history was “absolutely clear” that “the act does not expand, contract or alter the ability of a claimant to obtain
relief in a manner consistent with the Supreme Court’s
free exercise jurisprudence under the compelling governmental interest test prior to Smith.” Op. 50 (internal quotation marks omitted). The panel opinion fails
to draw the obvious inference: in the Supreme Court’s
free exercise jurisprudence pre‐Smith, the Court had

56a
never held that damages against the government for
First Amendment violations were available—let alone
personal damages against individual federal officers.
That is unsurprising given the default principle that “a
waiver of the Government’s sovereign immunity will be
strictly construed, in terms of its scope, in favor of the
sovereign.” Lane v. Pena, 518 U.S. 187, 192 (1996).
III

To support the idea that RFRA provides a personal
damages remedy against individual officers, the panel
relies on Franklin v. Gwinnett County Public Schools,
503 U.S. 60 (1992). Franklin, however, does not create
a presumption in favor of money damages; rather, it
simply recognizes a presumption (in the absence of contrary indication) that a private right of action is enforced
by all “appropriate” remedies. That of course simply
begs the question. Indeed, RFRA itself already speaks
of “appropriate relief ”; so Franklin provides no new information. In other cases, of course, the Supreme Court
has offered guidance regarding whether money damages are generally considered appropriate relief against
governments and government officials. Its answer is no.
See, e.g., Ziglar v. Abbasi, 137 S. Ct. 1843, 1856 (2017);
Sossamon, 563 U.S. at 286.
In any event, the Franklin presumption was created
in the context of an implied right of action “[w]ith no
statutory text to interpret.” Sossamon, 563 U.S. at 288.
That presumption is held in Sossamon to be “irrelevant
to construing the scope of an express waiver of sovereign immunity.” Id. The waiver of sovereign immunity in RFRA is of course “express.”

57a
The panel opinion detects irony in a rule that may
presume a broader set of remedies in an implied right of
action than in a right of action that is express. But
irony is dispelled when one considers that implied rights
of action for damages against individual federal officers
—i.e., Bivens actions—are not in vogue; they are tolerated in the few existing contexts, and may never be created in any other context whatsoever. Corr. Servs.
Corp. v. Malesko, 534 U.S. 61, 68 (2001) (“[W]e have consistently refused to extend Bivens liability to any new
context or new category of defendants.”); see also Arar
v. Ashcroft, 585 F.3d 559, 571 (2d Cir. 2009) (in banc).
The panel has done what the Supreme Court has forbidden: it has created a new Bivens cause of action, albeit by another name and by other means. The Supreme Court did not shut the Bivens door so that we
could climb in a window. The panel ignores the considerations that inform the Supreme Court’s refusal to extend Bivens. A private right of action for money damages against individual officers of “a government” entails “substantial social costs, including the risk that fear
of personal monetary liability and harassing litigation
will unduly inhibit officials in the discharge of their duties.” Anderson v. Creighton, 483 U.S. 635, 638 (1987).
We must consider “the burdens on Government employees who are sued personally,” and the “costs and consequences to the Government itself when the tort and monetary liability mechanisms of the legal system are used
to bring about the proper formulation and implementation of public policies.” See Ziglar, 137 S. Ct. at 1858.
The remedy created by the panel opinion is considerably more inhibiting than the personal damages remedy
in the context of 42 U.S.C. § 1983, which is mitigated by

58a
qualified immunity. The panel opinion mentions (without deciding) that qualified immunity may be available
as possible mitigation. Mitigation of error is always
encouraging, and I have no doubt that qualified immunity does apply here. Indeed, I have difficulty imagining a scenario in which its applicability would be more
apparent: the defendants here are FBI agents pursuing a national security investigation, and were never told
that Plaintiffs believed cooperating with an investigation “burdened their religious beliefs.” Yet a court’s
finding of qualified immunity is never a foregone conclusion, and many courts—including our own—have occasionally failed to apply it when appropriate. See, e.g.,
Iqbal v. Hasty, 490 F.3d 143, 153 (2d Cir. 2007). The
panel’s remand on this issue sows doubt where there
should be none.
With or without qualified immunity, such liability
would result in federal policy being made (or frozen) by
the prospect of impact litigation. The safest course for
a government employee in doubt would be to avoid doing
one’s job, which is not a choice in need of encouragement.
* *

*

I respectfully dissent from the denial of in banc review because the panel opinion is quite wrong and actually dangerous.

59a
JOSÉ A. CABRANES, Circuit Judge, joined by DENNIS JACOBS
and RICHARD J. SULLIVAN , Circuit Judges, dissenting
from the denial of rehearing en banc:

I fully join Judge Jacobs’ thorough dissent, which
does the heavy lifting on the merits. I write separately
simply to emphasize that the panel decision represents
a transparent attempt to evade, if not defy, the precedents of the Supreme Court.
For nearly half a century, the Supreme Court has
“consistently rejected invitations” to extend the Bivens
remedy to new contexts. Corr. Servs. Corp. v. Malesko,
534 U.S. 61, 70 (2001). Yet twelve years ago, in Iqbal v.
Hasty, 490 F.3d 143 (2d Cir. 2007), a panel of our Court
entertained the extension of Bivens to several such contexts, including violations of the Free Exercise clause.
In Ashcroft v. Iqbal, 556 U.S. 662 (2009), the Supreme
Court forcefully reversed, reminding us not to “extend
Bivens liability to any new context or new category of
defendants” including “an implied damages remedy under the Free Exercise Clause.” Id. at 675 (internal
quotation marks omitted).
Nevertheless, four years ago, there was another attempt to evade the Supreme Court’s clear instruction.
In Turkmen v. Hasty, 789 F.3d 218 (2d Cir. 2015), a
panel of our Court sought to extend the Bivens remedy
to the extraordinary case of officials implementing national security policy. A motion to rehear the case en
banc failed by vote of an evenly divided court (6‐6). See
808 F.3d 197 (2d Cir. 2015). Once again, however, the
Supreme Court intervened, reining in our Court’s misplaced enthusiasm for creating official liability ex nihilo.
See Ziglar v. Abbasi, 137 S. Ct. 1843 (2017).

60a
In Ziglar, the Supreme Court not only reversed us,
but patiently explained why damages remedies against
government officials are disfavored and should not be
recognized absent explicit congressional authorization:
“Claims against federal officials often create substantial
costs, in the form of defense and indemnification . . .
time and administrative costs . . . resulting from
the discovery and trial process.” Id. at 1856. These
costs, the Supreme Court instructed, provide “sound
reasons to think Congress might doubt the efficacy or
necessity of a damages remedy.” Id. at 1858. Thus
“courts must refrain from creating the remedy in order
to respect the role of Congress.” Id.
It appears our Court is still incapable of learning this
lesson. In the instant case, however, we have developed
still another rationalization for avoiding the Supreme
Court’s instruction. “We are not extending Bivens,”
the panel in effect insists. “We are simply presuming
that Congress legislated a Bivens‐like remedy—sub
silentio—in enacting RFRA.”
This rationalization is as flawed as it is transparent.
Insofar as this panel suggests we may assume that Congress authorized such damages implicitly, Ziglar reminds
us that “Congress will be explicit if it intends to create a
new private cause of action” or “substantive legal liability,” particularly for government officials. Id. at 1856‐57.
Insofar as the panel suggests that Congress incidentally
legislated such a remedy—as part of its general intent
to restore the Free Exercise legal structure antedating
Employment Division v. Smith, 494 U.S. 872 (1990)—
Iqbal makes clear that damages are not, and never have
been, available for Free Exercise claims. 556 U.S. at 676.

61a
In sum, RFRA reveals no Congressional intent to
create a damages remedy, and on no theory may we presume it.
When asked why he persisted in issuing decisions
that the Supreme Court would predictably overturn, a
prominent judge of another circuit once explained,
“[t]hey can’t catch ’em all.”1 Such an attitude is not, and
must not become, the approach of our Circuit.

Linda Greenhouse, Dissenting Against the Supreme Court’s
Rightward Shift, N.Y. TIMES, April 12, 2018, https://www.nytimes.
com/2018/04/12/opinion/supreme-court-right-shift.html.
1

62a
APPENDIX C
UNITED STATES DISTTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

No. 13-CV-6951 (RA)
MUHAMMAD TANVIR, JAMEEL ALGIBHAH,
NAVEED SHINWARI, AND AWAIS SAJJAD, PLAINTIFFS
v.
LORETTA E. LYNCH, ATTORNEY GENERAL,
JEH C. JOHNSON, SECRETARY OF HOMELAND
SECURITY, JAMES COMEY, DIRECTOR, FEDERAL
BUREAU OF INVESTIGATION, CHRISTOPHER M.
PIEHOTA, DIRECTOR, TERRORIST SCREENING
CENTER, FNU TANZIN, SANYA GARCIA, FRANCISCO
ARTUSA, JOHN LNU, MICHAEL RUTOWSKI, WILLIAM
GALE, JOHN C. HARLEY III, STEVEN LNU, MICHAEL
LNU, GREGG GROSSOEHMIG, WEYSAN DUN, JAMES C.
LANGENBERG, AND JOHN DOES 1-13, DEFENDANTS
[Filed: Sept. 3, 2015]
OPINION & ORDER
RONNIE ABRAMS, United States District Judge:

Plaintiffs Muhammad Tanvir, Jameel Algibhah,
Naveed Shinwari, and Awais Sajjad bring this suit to
remedy alleged violations of their constitutional and
statutory rights. Each is either a lawful permanent
resident or citizen of the United States, and each is Muslim. They claim that as part of the U.S. Government’s

63a
efforts to bolster its intelligence gathering in the aftermath of the terrorist attacks of September 11, 2001, they
were asked to become informants by agents of the Federal Bureau of Investigation (FBI). When they refused
because, among other things, serving as informants
would contradict their sincerely held religious beliefs,
they say the Government retaliated against them by
placing or maintaining their names on its “No Fly List,”
even though they posed no threat to aviation security.
Since then, each Plaintiff claims to have been denied a
boarding pass on at least one occasion, leaving him unable to visit loved ones who live abroad. To redress this
alleged violation of their rights, Plaintiffs filed a Complaint against numerous federal officials, including Attorney General Loretta E. Lynch, Secretary of Homeland Security Jeh C. Johnson, FBI Director James B.
Comey, and 25 named and unnamed FBI and Homeland
Security agents.
Plaintiffs seek relief on two bases. First, they seek
injunctive and declaratory relief against all of the defendants in their official capacities. These claims arise
under the First and Fifth Amendments of the Constitution, the Administrative Procedure Act (APA), 5 U.S.C.
§§ 702, 706, and the Religious Freedom Restoration Act
(RFRA), 107 Stat. 1488, 42 U.S.C. § 2000bb et seq.
Plaintiffs assert that these constitutional and statutory
provisions entitle them to an order from this Court requiring the Government to halt its alleged investigative
tactics and to create fair procedures governing who is
placed on the No Fly List and how such individuals may
contest their inclusion. Second, Plaintiffs also seek compensatory and punitive damages from each of the individual agent defendants in their personal capacities.

64a
They argue that they are entitled to such monetary relief under the First Amendment and RFRA.
As explained in further detail below, the official capacity claims were stayed at the request of the parties
on June 10, 2015, two days after the Government advised
Plaintiffs that it knew of “no reason” why they would be
unable to fly in the future. The personal capacity claims,
however, remain active. This opinion concerns only
those claims and, more specifically, resolves a motion
bought by all but two of the individual agents (“Agents”),
who seek to dismiss the personal capacity claims against
them.1 The Agents argue, among other things, that the
remedy Plaintiffs seek from them—money damages from
each of the agents personally—is unavailable as a matter of law. For the reasons that follow, the Court agrees
and will grant the Agents’ motion.

Pursuant to the Stipulation and Order filed July 24, 2014, see
Dkt. 30, Defendants FNU (i.e., first name unknown) Tanzin, John
LNU (i.e., last name unknown), Steven LNU, Michael LNU and John
Does 1-6 and 9-13 are currently proceeding under the pseudonyms
specified in the First Amended Complaint, Dkt. 15. John Doe 2 is
currently proceeding as John Doe 2/3. This motion is not brought
by John Does 7 and 8 because the Government to date has not been
able to identify those Defendants and, accordingly, they have not
been served. On December 18, 2014, the Court extended Plaintiffs’
time to serve John Does 7 and 8 through 30 days after a decision on
this motion. See Dkt. 78.
1

65a
BACKGROUND2
A.

Plaintiffs’ Factual Allegations

Plaintiffs claim that they are “among the many innocent people” who have been “swept up” in the years
since 9/11 by the U.S. Government’s “secretive watch
list dragnet.” ¶ 4. Although they acknowledge that
the No Fly List is a critical national security tool meant
to ensure that individuals believed to be threats to aviation security are not allowed to board airplanes, ¶¶ 2, 40,
Plaintiffs argue that the process for placing individuals
on the No Fly List is “shrouded in secrecy and [thus]
ripe for abuse,” ¶ 63. Plaintiffs contend their names
are on the No Fly List only because they are the victims
of abusive—and illegal—investigative tactics. And they
say that they were unable to do anything about their unjust inclusion because of the pervasive secrecy surrounding the List.
The No Fly List is a database compiled and maintained by the Terrorist Screening Center (TSC), an
agency within the FBI. ¶ 40. Federal agencies may
“nominate” individuals for inclusion in the Government’s various terrorist databases, including the No Fly
List, if there is a “reasonable suspicion” that they are
“known or suspected terrorist[s].” ¶ 41. An individual should only be placed on the No Fly List if there is
additional “derogatory information” showing that he

The facts as alleged by Plaintiffs are drawn from their Complaint. All citations in this opinion preceded by “¶” or “¶¶” refer to
paragraphs of the Complaint. For purposes of this motion, the
Court must accept Plaintiffs’ allegations as true. See Tellabs, Inc.
v. Makor Issues & Rights, Ltd., 551 U.S. 308, 322 (2007).
2

66a
“pose[s] a threat of committing a terrorist act with respect to an aircraft.” ¶ 42. Anyone whose name is on
the list is barred from boarding a flight that starts or
ends in the United States, or flies over any part of the
country. ¶ 44. Beyond this, however, little is known
about the No Fly List. ¶ 43. Although they do not have
information about its exact size, Plaintiffs assert that the
List has grown more than six times over from roughly
3,400 names in 2009 to over 21,000 in 2012. ¶ 47. The
TSC itself has found that “many” of these thousands of
individuals were placed on the No Fly List even though
they did not qualify. ¶ 48. For example, a federal district court in California recently concluded that a Muslim doctoral student at Stanford was placed on the No
Fly List because an FBI agent checked the wrong boxes
on a nominating form. ¶ 49 (citing Ibrahim v. Dep’t of
Homeland Sec., 62 F. Supp. 3d 909, 916 (N.D. Cal. 2014)).
Plaintiffs claim that each of the federal agents named
in this suit, instead of utilizing the No Fly List based on
legitimate information for legitimate purposes, have
“exploited the significant burdens imposed by the No
Fly List, its opaque nature and ill-defined standards, as
well as its lack of procedural safeguards, in an attempt
to coerce Plaintiffs into serving as informants within their
American Muslim communities and places of worship.”
¶ 8. Plaintiffs further allege that higher-level officials—
including the Attorney General, Secretary of Homeland
Security, and Director of the FBI—“promulgated, encouraged and tolerated a pattern and practice of aggressively recruiting and deploying informants in American
Muslim communities.” ¶ 67.
Although the details of each of the four Plaintiffs’ experiences with the No Fly List are different, they follow

67a
the same broad contours. Each man was born into the
Islamic faith in a foreign country where at least some of
his family members remain. Each legally immigrated
to this country and is now lawfully present here, either
as a citizen or permanent resident. Each claims he was
asked to become an informant for the FBI and to share
what he learned by, for example, traveling abroad to Pakistan or Afghanistan, participating in online Islamic forums, or attending certain mosques. Each declined to
do so. Each was placed or kept on the No Fly List and
thus was unable to fly for sustained periods over several
years, unable to see loved ones. Yet each asserts that
he does not—and has never—posed a threat to aviation
security. Rather, each maintains that the Agents worked
together to add or keep his name on the No Fly List because he refused to serve as an informant for the FBI.
In light of the manner in which the Court resolves
this motion, the specific details of each Plaintiff ’s claims
need not be discussed in detail. Some discussion, however, is warranted, and Tanvir’s story is illustrative.
He is a lawful permanent resident who presently lives in
Queens, New York. ¶ 68. His wife, son, and parents
remain in Pakistan. Id. In February 2007, Tanvir alleges that FBI Special Agents FNU Tanzin and John
Doe 1 approached him at the dollar store in the Bronx
where he then worked. ¶ 69. He was questioned for
roughly 30 minutes about an old acquaintance whom the
agents believed had entered the country illegally. Id.
Nothing else about that interaction appears to have been
remarkable. Two days later, however, Tanvir heard
again from Agent Tanzin, who asked whether there was
anything he “could share” with the FBI concerning the
American Muslim community. ¶ 70. Tanvir alleges

68a
that he told Tanzin that he knew nothing that would be
relevant to law enforcement. Id.
Fast-forward more than a year later to July 2008.
After returning from a trip in Pakistan to visit his family, Tanvir asserts that he was detained for five hours by
federal agents at John F. Kennedy International Airport
in New York. ¶ 71. Although he was not interviewed,
his passport was confiscated and he was given an appointment to pick it up on January 28, 2009, nearly six months
later. Id. Two days before that appointment—and
almost two years since they had last been in contact—
Tanvir heard again from Agent Tanzin, this time joined
by FBI Special Agent John Doe 2/3,3 who visited him at
his new workplace. ¶ 73. The agents asked him to accompany them to the FBI’s New York field office in
Manhattan. Id. Tanvir agreed, and once there, he was
questioned for about an hour. ¶¶ 74-75. Among other
things, he was asked about terrorist training camps near
the village in Pakistan where he was raised and whether
he had any Taliban training. ¶ 75. Tanvir denied knowledge of or attendance at any such training camps. Id.
Toward the end of the hour, Agents Tanzin and John
Doe 2/3 told Tanvir that they recognized he was “special,” “honest,” and “hardworking,” and that they wanted
him to work as an informant for the FBI. ¶ 76. Specifically, he asserts that they asked him to travel to Pakistan and report on what he learned. Id. They offered to facilitate visits to the United States for his family, and to provide financial assistance for his parents in
Pakistan to travel to Saudi Arabia for a religious pilgrimage. Id. Tanvir reiterated his earlier position:
3

With request to John Doe 2/3’s pseudonym, see supra note 1.

69a
He did not want to work as an informant. ¶ 77. But
the agents purportedly persisted, warning him that he
would not receive his passport and that he would be deported to Pakistan if he failed to cooperate. Id.
Tanvir claims to have pleaded with the agents not to
deport him because his family depended on him financially. ¶ 78. He also said that he feared for his safety
in Pakistan if he went there as an American informant.
Id. When the agents suggested he could work in Afghanistan instead, he responded that that too would be
dangerous. Id. (Although Tanvir also asserts that
serving as a government informant would violate the
tenets of his Muslim faith, ¶ 84, he does not appear to
assert that he said as much to the agents.) At the conclusion of the meeting, the agents advised Tanvir to
keep thinking, and cautioned him not to discuss their
conversation with anyone. ¶ 78. The next day, Agent
Tanzin called Tanvir to ask whether he had changed his
mind. ¶ 79. Tanvir claims that Agent Tanzin reiterated that he would be deported if he failed to cooperate.
Id. Tanvir again declined. Id.
On January 28, 2009, Tanvir went to JFK Airport to
retrieve his passport, as previously instructed. ¶ 80.
Department of Homeland Security (DHS) officials advised him that his passport had been withheld for an investigation that had since been completed, and they returned the document to him without incident. Id. The
next day, however, Agent Tanzin called Tanvir and told
him that his passport had been returned to him because
he—Agent Tanzin—had instructed DHS officials to release the passport in recognition of the fact that Tanvir
was being “cooperative” with the FBI. ¶ 81.

70a
The Complaint alleges that the FBI agents’ attempts
to persuade Tanvir to become an informant continued
over the next three weeks. He received multiple telephone calls and visits from Agent Tanzin and John Doe
2/3 at his workplace. ¶¶ 82-83. 4 Eventually, Tanvir
stopped answering their calls, and when Agents Tanzin
and John Doe 2/3 visited him at his workplace to ask
why, he told them that he no longer wished to speak with
them. ¶ 86. They then asked him to take a polygraph.
¶ 87. When he refused, they threatened to arrest him,
but did not do so once Tanvir said he would hire an attorney if they did. Id. Roughly six months later, in July
2009, Tanvir traveled to Pakistan to visit his wife and
parents. ¶ 88. While he was abroad, Agents Tanzin
and John Doe 2/3 visited his sister at her workplace in
Queens and inquired about Tanvir’s travel plans. Id.
She was uncomfortable talking to the agents. Id.
Tanvir returned to the United States in January
2010, at which time he took a job as a long-haul trucker.
¶ 89. His new job involved driving across the country
and then taking a return flight to New York. Id. In
October 2010, while Tanvir was in Atlanta for work, he
received word that his mother was visiting New York
from Pakistan. ¶ 91. He booked a flight back to New
York, but was advised by an airline agent at the checkin counter in Atlanta that he was not allowed to fly. Id.
Two unknown FBI agents approached Tanvir at the airport and advised him to contact the agents who had spoken to him in New York. Id. They then drove him to
a nearby bus station. Id. While waiting for a bus to
Plaintiffs advise that the Complaint “may” have incorrectly identified John Doe 2/3 as John Doe 1 in these paragraphs of the Complaint. See Pls. Mem. at 10 n.6.
4

71a
New York, Tanvir called Agent Tanzin, who advised
Tanvir that he was no longer assigned to Tanvir. ¶ 92.
Agent Tanzin told him, however, that other agents
would be contacting him soon and that he should “cooperate.” Id. These interactions led Tanvir to believe
that Agents Tanzin and John Doe 1-3 placed him on the
No Fly List “at some time during or before October 2010
because he refused to become an informant against his
community and refused to speak or associate further
with the agents.” ¶ 90. His bus trip home to New
York took approximately 24 hours. ¶ 93.
Two days after he returned to New York from Atlanta, the Complaint alleges that FBI Special Agent
Sanya Garcia contacted Tanvir, telling him that she
would assist him in getting off the No Fly List if he met
with her and answered her questions. ¶ 94. Tanvir
told Garcia that he had already answered the FBI’s
questions and declined to meet with her. Id. Recognizing that he was still unable to fly, Tanvir eventually
quit his job as a truck driver because he could no longer
take a flight back to New York after completing his deliveries. ¶ 95. On September 27, 2011, he filed a complaint with the DHS Traveler Redress Inquiry Program
(TRIP). ¶ 97. This program provides an administrative mechanism for removing one’s name from the No
Fly List. ¶¶ 21, 57-61.
The month after filing his TRIP complaint, Tanvir
purchased tickets for a flight to Pakistan in November
2011. ¶ 98. The day before his flight, Agent Garcia
called Tanvir and told him he would not be allowed to fly
unless he met with her. ¶ 99. Tanvir agreed because
he needed to return to Pakistan to visit his ailing
mother. ¶ 100. At that meeting, he was asked the

72a
same questions that Agents Tanzin and John Doe 2/3
had asked previously. ¶ 101. He answered them because he wanted to see his mother. Id. After the
meeting, the agents told him that they would obtain a
one-time waiver for him to fly, but that it would take several weeks to process. ¶ 102. Tanvir begged Agent
Garcia to let him fly the next day. ¶ 103. She said it
might be possible, but she changed her mind the next
day. ¶¶ 103-104. When they spoke the next day,
Agent Garcia told Tanvir that he would not be able to fly
until he submitted to a polygraph. ¶ 104. Tanvir cancelled his flight, obtaining only a partial refund from the
airline. Id. He also hired a lawyer, whom the agents
referred to the FBI’s lawyers, who in turn told Tanvir’s
lawyer to contact TRIP. ¶¶ 105, 107. Tanvir again purchased a flight to Pakistan for travel in December 2011
in the hopes of visiting his mother, whose health continued to deteriorate. ¶ 109. He was denied boarding at
the airport—the third time he was unable to fly. Id.
On April 16, 2012, Tanvir received a response to his
TRIP complaint, about six months after having filed it.
¶ 110. The letter did not confirm that he was on the No
Fly List, but stated only that “no changes or corrections
are warranted at this time.” Id. On May 23, 2012, he
appealed that determination and asked the Government
to provide him with the information on which it had
based the determination that he could not be allowed to
fly. ¶ 112.
In November 2012, Tanvir purchased another ticket
to Pakistan and was again denied boarding at JFK
Airport—the fourth time he was unable to fly. ¶ 113.
The Complaint alleges that Tanvir and his lawyer, who
had accompanied him to the airport, were approached

73a
by an FBI agent at the check-in counter, who informed
them that Tanvir would not be removed from the No Fly
List until he met with Agent Garcia. Id.
On March 28, 2013, ten months after he had filed his
TRIP appeal—and well over two years after he was first
denied boarding in October 2010—Tanvir received a letter from DHS superseding its initial determination of
April 16, 2012. ¶ 114. The letter stated, in part, that
Tanvir’s experience “was most likely caused by a misidentification against a government record or by random
selection,” and that the Government had “made updates”
to its records. Id. Tanvir decided to try flying again
and purchased another ticket. Id.
On June 27, 2013, in what was his fifth attempt to fly
since being denied boarding in October 2010, Tanvir successfully boarded a flight and flew to Pakistan. ¶ 115.
He does not know whether he was able to fly as a result
of a one-time waiver provided by the agents or whether
he had been removed from the No Fly List. Id. Tanvir
asserts that his placement on the No Fly List forced him
to quit his job as a truck driver, prevented him from visiting his sick mother in Pakistan when he wished to, and
resulted in financial losses, including lost income and expenses related to airline tickets. ¶¶ 116-17. He says
that he also continues to fear harassment by the FBI,
which causes him and his family great distress. ¶ 116.
As noted previously, Algibhah’s, Shinwari’s, and Sajjad’s allegations, including the nature of their interactions with the FBI, largely track those of Tanvir. See
generally ¶¶ 118-96. As of the time this action was
commenced, Algibhah had not flown since the spring of
2009, which was then the last time he saw his wife and
daughters, who live in Yemen. ¶ 143. He has attempted

74a
to fly home twice since then and was denied boarding
each time. Id. Algibhah asserts that several of the
Agents kept his name on the No Fly List even after they
determined he posed no threat to aviation security so
they could retaliate against him for his refusal to become
an informant. ¶ 135. Shinwari was able to fly domestically in March 2014 after first being denied boarding
in March 2012 while returning from Afghanistan, although he believed his name was still on the No Fly List
until he was advised otherwise in June 2015. ¶ 169.
He too claims that he was denied the ability to fly because he refused to become an informant. ¶ 159. Sajjad was first denied boarding in September 2012 while
attempting to visit his family in Pakistan and, as of the
time this motion was briefed, had not attempted to fly
again since, believing his name remained on the No Fly
List. ¶¶ 173, 196. Sajjad asserts that his name was
kept on the No Fly List even after several of the Agents
determined he had been wrongfully included as retaliation for his refusal to serve as an informant. ¶ 195.
B.

Procedural History

Plaintiffs brought this action on October 1, 2013 and
filed their operative Complaint on April 22, 2014. See
Dkt. 15. On July 28, 2014, two separate motions to dismiss were filed. The first, on behalf of the Government, sought to dismiss all official capacity claims. See
Dkt. 34.5 The second, on behalf of the Agents, sought
to dismiss all personal capacity claims. See Dkt. 38.

In light of the discussion below regarding the distinction between official and personal capacity claims, see infra at 12-14, the
Court refers to the defendants sued in their official capacity as “the
Government.”
5

75a
After briefing was completed, oral argument was scheduled for June 12, 2015.
On June 1, 2015, the Government moved to stay the
official capacity claims. See Dkt. 89. As the Government explained, it had revised the redress procedures
available through TRIP as a result of the decision in
Latif v. Holder, 28 F. Supp. 3d 1134 (D. Or. 2014), which
held various aspects of the TRIP process inadequate under the Fifth Amendment’s Due Process Clause and the
APA. See also Mohamed v. Holder, No. 1:11-CV-50
AJT/MSN, 2015 WL 4394958 (E.D. Va. July 16, 2015)
(same); Dkt. 85 (notice from Government describing revised TRIP procedures). Plaintiffs elected to avail themselves of these revised procedures. And because Plaintiffs did so, the Government argued a stay of Plaintiffs’
official capacity claims was warranted, as those claims,
which primarily challenge the original TRIP procedures, were or were likely to become moot in light of the
revised TRIP procedures.
Plaintiffs initially resisted the Government’s request
for a stay. See Pls. Letter of June 3, 2015, Dkt. 91. But
on June 8, 2015—less than a week before oral argument—
Plaintiffs each received a letter from DHS advising
them that: “At this time the U.S. Government knows
of no reason you should be unable to fly. This determination, based on the totality of available information,
closes your DHS TRIP inquiry.” See Pls. Letter of
June 10, 2015, Dkt. 92. In light of that development—
apparently indicating that Plaintiffs are not now on the
No Fly List—Plaintiffs consented to a stay of their official capacity claims. Id. The Court ordered such a
stay and administratively terminated the official capacity motion to dismiss. See Dkt. 93. Only Plaintiffs’

76a
claims against the Agents in their personal capacities remain active at this time.
DISCUSSION
A.

Introduction

The difference between official capacity claims, which
are not at issue in this motion, and personal capacity
(sometimes called “individual” capacity claims), which
are, has long been a source of confusion, see generally
Kentucky v. Graham, 473 U.S. 159, 163-68 (1985), and
some background is appropriate given the centrality of
those distinctions to the claims made here. The starting point is that “[a]bsent a waiver, sovereign immunity
shields the Federal Government and its agencies from
suit.” F.D.I.C. v. Meyer, 510 U.S. 471, 475 (1994). In
other words, the Government cannot be sued without its
consent. That rule may bar a suit even when an action
is commenced against an individual government official
instead of a governmental agency “if the decree would
operate against the latter,” Hawaii v. Gordon, 373 U.S.
57, 58 (1963) (per curiam), as is usually the case when a
plaintiff seeks an order in the form of an injunction commanding or preventing some action. Such a suit is
known as an “official” capacity claim because it is effectively a suit against the Government, regardless of the
named party.6

The Supreme Court has explained that the Government is the
real party in interest “if the judgment sought would expend itself on
the public treasury or domain, or interfere with the public administration, or if the effect of the judgment would be to restrain the
Government from acting, or to compel it to act.” Dugan v. Rank,
372 U.S. 609, 620 (1963) (quotations omitted). That approach reflects the commonsensical observation that the Government can act
6

77a
In 1976, Congress amended the APA to include a formal waiver of the United States’ sovereign immunity
from claims “seeking relief other than money damages”
against “an agency or an officer or employee thereof
. . . in an official capacity or under color of legal authority.” 5 U.S.C. § 702; see also B.K. Instrument, Inc.
v. United States, 715 F.2d 713, 723-25 (2d Cir. 1983) (describing Congress’s intention with the APA amendments to “eliminate the sovereign immunity defense in
all equitable actions for specific relief against a Federal
agency or officer acting in an official capacity”) (quotation omitted). As a result, sovereign immunity does
not pose a barrier to claims seeking injunctive or declaratory relief against the Government and its officers
when they are sued in their official capacities.
Significant for present purposes, however, neither
the APA nor any other statute relevant in this context
waives the Government’s immunity (or the immunity of
its officers sued in their official capacity) from damages
claims.7 There is no disagreement among the parties
only through agents and thus, for example, “when the agents’ actions
are restrained, the sovereign itself may, through [the agents], be restrained.” Larson v. Domestic & Foreign Commerce Corp., 337 U.S.
682, 688 (1949). As a result, where the effect of a judgment would
operate against the Government, a suit against a named federal officer “is not a suit against the official [personally] but rather is a suit
against the official’s office.” Will v. Michigan Dep’t of State Police,
491 U.S. 58, 71 (1989). Because these suits are really suits against
the Government, when officials sued in their official capacity die or
leave office, their successors automatically assume their roles in the
litigation, as Attorney General Loretta E. Lynch did in this case
for former Attorney General Eric J. Holder. See Fed. R. Civ. P.
25(d)(1); Dkt. 93 (order substituting Lynch for Holder).
7
The United States has, however, waived its immunity from damages in other contexts.
See, e.g., the Tucker Act, 28 U.S.C.

78a
on this point. See Pls. Mem. at 84; Defs. Reply at 1 n.1.
But this is the significance of suits against government
officials in their “personal” capacities: Where an official is sued in his or her personal capacity, sovereign immunity does not apply. Unlike official capacity suits,
“[p]ersonal-capacity suits . . . seek to impose individual liability upon a government officer for actions taken
under color of [federal] law.” Hafer v. Melo, 502 U.S.
21, 25 (1991) (emphasis added). Because any award of
money damages in such a suit (theoretically) comes from
the official’s own pocket, there is no concern about sovereign immunity. 8 The common-law cause of action
first recognized in Bivens v. Six Unknown Named
Agents of Fed. Bureau of Narcotics, 403 U.S. 388 (1971),
and 42 U.S.C. § 1983 are two mechanisms that may provide for personal capacity damages actions in the constitutional context against federal and state officers, respectively, while several federal statutes may provide
for such damages in other contexts.9
Here, Plaintiffs seek injunctive and declaratory relief
against Defendants sued in their official capacities and
money damages from a subset of Defendants—namely,
the Agents—in their personal capacities. See Pls. Mem.
at 49 n.24. As resolution of the official capacity claims
has been left for another day by consent of the parties,
§§ 1346(a)(2), 1491 (certain contracts claims); see also United States
v. Mitchell, 463 U.S. 206, 212-16 (1983) (recounting history of the
Federal Government’s waiver of immunity from suits for damages).
8
As a practical matter, the Government almost always indemnifies its officials from such suits and provides representation through
lawyers from the Department of Justice. See 28 C.F.R. § 50.15.
Indeed, that is true for the Agents’ representation in this case.
9
For examples of such statutes, see infra at 32.

79a
this opinion addresses only whether the specific theories
by which Plaintiffs seek to recover damages from the
Agents in their personal capacities are legally viable.
Plaintiffs advance arguments under both Bivens and
RFRA, a federal statute that provides for “appropriate
relief ” in certain situations where an individual’s ability
to freely exercise his faith has been substantially
burdened by the Government or its agents. 42 U.S.C.
§ 2000bb-1(c). For the reasons that follow, neither of
these two arguments ultimately succeeds. 10
B.

Bivens Is Unavailable in This Context

In Bivens, the Supreme Court “recognized for the first
time an implied private action for damages against federal officers alleged to have violated a citizen’s constitutional rights.” Corr. Servs. Corp. v. Malesko, 534 U.S.
61, 66 (2001). Although initially predicated on the traditional understanding that the existence of a right must
imply a remedy, see Bivens, 403 U.S. at 397 (citing Marbury v. Madison, 1 Cranch 137, 163 (1803)), the Supreme Court has since “rejected the claim that a Bivens
remedy should be implied simply for want of any other
The Agents also argue pursuant to Fed. R. Civ. P. 12(b)(2) that
the Court lacks personal jurisdiction over multiple Agents. See
Defs. Mem. at 61-66. After submissions from the parties concerning Plaintiffs’ request for limited jurisdictional discovery in order to
oppose that aspect of the Agents’ motion, the Court accepted the
Agents’ suggestion to defer consideration of that aspect of their motion to dismiss until the balance of the motion was resolved. See
09/16/2014 Tr. 36, Dkt. 69. Given the holdings in this opinion, the
personal jurisdiction arguments are now moot. Finally, the Agents
have argued that the claims against John Does 1 and 2/3 are timebarred. See Defs. Mem. at 66-69. The Court need not reach that
argument in light of its conclusion that no relief is available against
them.
10

80a
means for challenging a constitutional deprivation in
federal court,” Malesko, 534 U.S. at 69. Thus, although
sometimes described as “the federal analog to suits
brought against state officials under [42 U.S.C. § 1983],”
Hartman v. Moore, 547 U.S. 250, 2545 n.2 (2006), Bivens
is far more limited than § 1983 because “a Bivens remedy is not available for all who allege injury from a federal officer’s violation of their constitutional rights,”
Turkmen v. Hasty, 789 F.3d 218, 234 (2d Cir. 2015).
Indeed, a Bivens action “is not an automatic entitlement
no matter what other means there may be to vindicate a
protected interest, and in most instances . . . a
Bivens remedy [is] unjustified.” Wilkie v. Robbins,
551 U.S. 537, 550 (2007).
A federal court asked to imply a Bivens remedy in
2015 must approach that task with circumspection.
Although the Supreme Court has twice implied Bivens
actions since Bivens itself was decided, see Davis v.
Passman, 442 U.S. 228 (1979) (employment discrimination in violation of Due Process Clause); Carlson v. Green,
446 U.S. 14 (1980) (Eighth Amendment violation by prison
officials), in the more than three decades since the last
of the Bivens trilogy was decided, the Supreme Court
has “consistently refused to extend Bivens liability to any
new context or new category of defendants,” Malesko,
534 U.S. at 68; accord Arar v. Ashcroft, 585 F.3d 559,
571 (2d Cir. 2009) (en banc) (“[T]he Bivens remedy is an
extraordinary thing that should rarely if ever be applied
in new contexts.”) (internal quotation marks omitted).
The Supreme Court’s refusal to recognize a new
Bivens action since 1980 is not for want of opportunity.
See, e.g., Bush v. Lucas, 462 U.S. 367 (1983) (federal employee’s claim that his federal employer dismissed him

81a
in violation of the First Amendment); Chappell v. Wallace, 462 U.S. 296 (1983) (claim by military personnel
that military superiors violated various constitutional
provisions); United States v. Stanley, 483 U.S. 669 (1987)
(similar); Schweiker v. Chilicky, 487 U.S. 412 (1988)
(claim by recipients of Social Security disability benefits
that benefits had been denied in violation of the Fifth
Amendment); Meyer, 510 U.S. 471 (former bank employee’s suit against a federal banking agency, claiming
that he lost his job due to agency action that violated the
Fifth Amendment’s Due Process Clause); Malesko,
534 U.S. 61 (prisoner’s Eighth Amendment-based suit
against a private corporation that managed a federal
prison); Wilkie, 551 U.S. 537 (ranch owner’s claim for
harassment and intimidation against federal land management officials under Fourth and Fifth Amendments);
Minneci v. Pollard, 132 S. Ct. 617 (2012) (prisoner’s
Eighth Amendment-based claim against employees of
privately-operated federal prison).
Although the Court has on each of these occasions explained its refusal to extend Bivens with reasons specific
to the particular context, this generation of Bivens jurisprudence appears rooted in the more fundamental
judgment that “ ‘Congress is in a far better position than
a court to evaluate the impact of a new species of litigation’ against those who act on the public’s behalf.”
Wilkie, 551 U.S. at 562 (quoting Bush, 462 U.S. at 389);
see also E. Chemerinsky, Federal Jurisdiction § 9.1,
p. 633 (6th ed. 2011) (“There is no way to understand the
law concerning Bivens suits except in the context of how
the Court’s attitudes toward such claims has changed.”).
Indeed, one Justice has observed that it is “doubtless
correct that a broad interpretation of [Bivens’] rationale

82a
would logically produce [its] application [in more contexts],” but noted that he was “not inclined (and the
Court has not been inclined) to construe Bivens broadly.”
Malesko, 534 U.S. at 75 (Scalia, J., concurring) (emphasis in original). As a consequence, “[w]hatever presumption in favor of a Bivens-like remedy may once have existed has long since been abrogated.” Vance v. Rumsfeld, 701 F.3d 193, 198 (7th Cir. 2012) (en banc).
Against that background, the Second Circuit’s recent
decision in Turkmen, which was handed down only days
after oral argument on this motion, is instructive—and,
indeed, dispositive. As in this case, Turkmen raised “a
difficult and delicate set of legal issues concerning individuals who were caught up in the post-9/11 investigation even though they were unquestionably never involved in terrorist activity.” 789 F.3d at 224. The
plaintiffs in Turkmen were eight Muslim or Arab noncitizens who were detained by the federal government in
the aftermath of 9/11. Id. While detained, they were,
among other things, allegedly subjected to frequent
physical and verbal abuse, denied copies of the Koran
for weeks or months after requesting them, denied the
Halal food required by their Muslim faith, and mocked
by prison officials while they prayed. Id. at 227-28.
For these alleged injuries, the plaintiffs sought, among
other things, a Bivens remedy against various government officials under the First, Fourth, and Fifth Amendments. Id. at 225.
In light of the Supreme Court’s—and the Second
Circuit’s—repeated admonitions against extending Bivens to new contexts, Turkmen carefully analyzed the
context of the claims asserted by the plaintiffs there.
The panel majority looked to “both the rights injured

83a
and the mechanism of the injury.” Id. at 234; accord
Arar, 585 F.3d at 572 (defining context as “a potentially
recurring scenario that has similar legal and factual
components”). It explained that the rights injured were
those secured by the First Amendment’s Free Exercise
Clause, the Fifth Amendment’s Due Process Clause,
and the Fourth Amendment’s prohibition against unreasonable searches, id. at 235-37, while the mechanism of
injury involved “punitive conditions [of confinement in a
federal facility in the custody of federal officials] without
sufficient cause,” id. at 235. Significant for present purposes, although the panel determined that the combination of rights injured and mechanism of injury “st[ood]
firmly within a familiar Bivens context” with respect to
the Turkmen plaintiffs’ Fourth and Fifth Amendment
claims, see id. at 235, 237 (collecting cases), that was
not so with respect to their First Amendment claim.
With respect to that claim, “it [was] the right injured—
Plaintiffs’ free exercise right—and not the mechanism
of injury that place[d] Plaintiffs’ claims in a new Bivens
context.” Id. at 236. As the panel majority explained,
“the Supreme Court has ‘not found an implied damages
remedy under the Free Exercise Clause’ and has ‘declined to extend Bivens to a claim sounding in the First
Amendment.’ ” Id. (quoting Ashcroft v. Iqbal, 556 U.S.
662, 675 (2009)); accord id. at 268 n.3 (Raggi, J., concurring in part and dissenting in part) (“[T]he Supreme
Court [has] consistently declined to extend a Bivens
remedy to a First Amendment claim in any context.”)
(emphasis in original); Reichle v. Howards, 132 S. Ct.
2088, 2093, n.4 (2012) (“We have never held that Bivens
extends to First Amendment claims.”). Indeed, Turkmen leaves no doubt that recognizing a “free exercise
claim would require extending Bivens to a new context”—

84a
“a move [the panel] decline[d] to make absent guidance
from the Supreme Court.” 789 F.3d at 237. In so concluding, the panel explicitly reversed the holding of the
district court. See Turkmen v. Ashcroft, 915 F. Supp. 2d
314, 352 (E.D.N.Y. 2013) (“Bivens should be extended to
afford the plaintiffs a damages remedy if they prove the
alleged violation of their free exercise rights.”).
In supplemental briefing, Plaintiffs seek to distinguish Turkmen by arguing that its holding is limited to
free exercise claims, not the panoply of other rights under the First Amendment. See Pls. Letter of July 14,
2015 at 1-2, Dkt. 97. To that end, Plaintiffs assert that
their Bivens claim is grounded not merely in the Free
Exercise Clause, but in several other First Amendment
rights, including “the freedom of speech . . . and
the closely-intertwined right of free association.” Id.
at 2. 11 Although Plaintiffs are no doubt correct that

Although the First Amendment’s text explicitly safeguards the
freedom to speak and to worship (“Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise thereof; or abridging the freedom of speech . . . ”), the Supreme Court has “long understood as implicit in the right to engage
in activities protected by the First Amendment a corresponding
right to associate with others in pursuit of a wide variety of political,
social, economic, educational, religious, and cultural ends.” Roberts v. U.S. Jaycees, 468 U.S. 609, 622 (1984). Whether Plaintiffs’
allegations sufficiently make out a First Amendment retaliation
claim—under free exercise, speech, or association theories, see
¶¶ 200-01, 203—is an important question that the Court need not,
and does not, reach in light of its conclusion that Bivens is unavailable in this context and the fact that the Agents have not raised the
issue here. Indeed, the Agents do not argue that Plaintiffs fail to
state a First Amendment claim because, for example, Plaintiffs’ refusal to cooperate is not protected speech or protected associational
11

85a
the Turkmen plaintiffs’ First Amendment claim was
limited to the Free Exercise Clause, they overlook the
fact that Turkmen itself is unambiguously predicated
on the understanding that the Supreme Court has never
recognized a Bivens claim in the First Amendment context at all. See 789 F.3d at 236 (noting the Supreme
Court has “ ‘declined to extend Bivens to a claim sounding in the First Amendment’ ” (quoting Iqbal, 556 U.S.
at 675). That understanding is sufficient to conclude
that the relief Plaintiffs seek here requires extending
Bivens to a new context, whether the right injured is
freedom of speech, religion, or association. In other
words, while Turkmen plainly forecloses a Bivens remedy for free exercise claims, the decision at a minimum
also reiterates the Supreme Court’s own pronouncements that any claim sounding in the First Amendment
would require extending Bivens to a new context. 12
activity under the First Amendment, or that the Agents’ alleged conduct could not infringe Plaintiffs’ free exercise rights. Rather,
their argument appears to be limited to the claim that “Plaintiffs fail
to allege that each Agent defendant was a proximate cause of, or
personally involved in, Plaintiffs’ alleged inclusion on the No Fly
List,” Defs. Mem. at 39, and that “the alleged First Amendment
rights at issue were not clearly established,” id. at 51; see also Defs.
Reply at 34-37. But see Ayala v. Harden, No. 1:12-CV-00281-AWI,
2012 WL 4981269, at *2 (E.D. Cal. Oct. 17, 2012) (concluding in summary fashion that “[r]efusal to become an informant is not a protected First Amendment activity”).
12
Although Plaintiffs cannot be faulted for pointing to a sentence
in the Supreme Court’s decision in Hartman suggesting the availability of a Bivens remedy in the anti-retaliation context, see Pls.
Mem. at 39-40, the Court has resolved any ambiguity created by
Hartman in subsequent decisions by at least twice reiterating that
it has never recognized a Bivens claim in the First Amendment context. See Iqbal, 556 U.S. at 675 (“[W]e have declined to extend

86a

Bivens to a claim sounding in the First Amendment.”); Reichle,
132 S. Ct. at 2093 n.4 (“We have never held that Bivens extends to
First Amendment claims.”)
The Supreme Court granted certiorari in Hartman to determine
whether plaintiffs in retaliatory-prosecution suits bear the burden of
showing a lack of probable cause. See 547 U.S. at 255-56. At the
time, the D.C. Circuit, from where Hartman emerged, had long recognized a Bivens action in the First Amendment context, see, e.g.,
Dellums v. Powell, 566 F.2d 167 (D.C. Cir. 1977) (Bivens available
for false arrest of Vietnam War protestors on U.S. Capitol steps),
and specifically for retaliatory prosecution, see, e.g., Haynesworth v.
Miller, 820 F.2d 1245, 1274 (D.C. Cir. 1987). The petitioners in
Hartman did not seek review—nor did the Supreme Court grant
review—on the predicate question of whether Bivens was available
for First Amendment retaliation. It was against that background
that Justice Souter, in an introductory paragraph of his opinion, observed that “[w]hen the vengeful [prosecutor] is [a] federal [officer],
he is subject to an action for damages on the authority of Bivens,”
and cited Bivens without further analysis. Id. at 256.
But in light of Hartman’s posture—and the careful consideration
that the Supreme Court has given to the availability of Bivens in
each context where it has recognized Bivens’ availability—that single sentence simply cannot bear the weight Plaintiffs would put on
it. Bivens’ availability “was not at issue” in Hartman, “the point
. . . was not then fully argued,” and the Court “did not canvas the
considerations” it invariably does in such cases. Kirtsaeng v. John
Wiley & Sons, Inc., 133 S. Ct. 1351, 1368 (2013). As such, Hartman
is better read as assuming—not deciding—the question of Bivens’
availability in the First Amendment retaliation context. See, e.g.,
Wood v. Moss, 134 S. Ct. 2056, 2066 (2014) (observing eight years
after Hartman was decided that “we have several times assumed
without deciding that Bivens extends to First Amendment claims”).
Indeed, Iqbal explicitly noted that “[t]he legal issue decided in Hartman concerned the elements a plaintiff ‘must plead and prove in order to win’ a First Amendment retaliation claim.” Iqbal, 556 U.S.
at 673 (quoting Hartman, 547 U.S. at 257 n.5). And while the Court
has cited Hartman on five occasions—including significant discus-

87a
Even assuming, however, that the right at issue did
not place Plaintiffs’ claims in a new context, the mechanism of injury in this case surely does. Although
Plaintiffs argue that the FBI agents’ use of the No Fly
List to retaliate against them merely represents “a new
tool [that] does not transform a familiar pattern of misconduct into a novel context for purposes of recognizing
a Bivens claim,” Pls. Mem. at 43, Turkmen makes plain
that this view is mistaken. A distinct mechanism of
injury—such as the extraordinary rendition alleged in
Arar—can “present[] a new context for Bivens-based
claims.” Turkmen, 789 F.3d at 234.13 Here, Plaintiffs
sions in Iqbal and Reichle—not once has it suggested Hartman decided the availability of a Bivens remedy for First Amendment
retaliation.
Plaintiffs also correctly note that the Second Circuit once described Hartman as “reiterat[ing] the general availability of a
Bivens action to sue federal officials for First Amendment retaliation.” See M.E.S., Inc. v. Snell, 712 F.3d 666, 675 (2d Cir. 2013).
But even assuming that is a fair characterization of Hartman, Snell
distinguished Hartman and declined to imply a Bivens remedy for
alleged First Amendment retaliation, id.; no other decision of the
Second Circuit has relied on Snell or Hartman for the proposition
that Bivens is available for a First Amendment anti-retaliation
claim; and the author of the Snell opinion was a member of the more
recent Turkmen panel and agreed with the panel majority that “the
Supreme Court [has] consistently declined to extend a Bivens remedy to a First Amendment claim in any context,” 789 F.3d at 268 n.3
(Raggi, J., concurring in part and dissenting in part) (emphasis in
original). As such, Snell offers Plaintiffs little support for the proposition that a Bivens claim already exists for anti-retaliation claims.
The other out-of-circuit cases cited by Plaintiffs overread Hartman
for the reasons discussed above. See, e.g., George v. Rehiel, 738 F.3d
562, 585 n.24 (3d Cir. 2013).
13
Turkmen emphasizes the right at issue and the mechanism of
injury in determining whether a claim presents a new context.

88a
cannot point to any case recognizing a Bivens remedy
for a federal officer’s retaliation against an individual by
placing or maintaining that individual’s name on the No
Fly List or, more generally, any government watch list.
Nor can Plaintiffs point to a case recognizing a Bivens
action where the mechanism of injury was the imposition of a substantial burden on an individual’s ability to
travel. Thus, whether viewed through the lens of the
rights injured or the mechanism of injury, Plaintiffs ask
this Court to extend Bivens to a new context.
Given the current state of Bivens jurisprudence, the
conclusion that Plaintiffs seek to extend Bivens to a new
context could end the inquiry. Indeed, in Turkmen,
the court declined to “extend[] Bivens to a new context
. . . absent guidance from the Supreme Court,” without undertaking any additional analysis of whether
When confronted with a new Bivens context, a court must assess
whether an alternative remedial scheme exists before recognizing a
Bivens remedy. Turkmen, 789 F.3d at 234 (citing Arar, 585 F.3d.
at 572). That inquiry ensures, among other things, that a court
does not imply a remedy for an injury when an alternative scheme
to remedy that injury already exists. A court need not consider alternative remedial schemes, however, where a claim arises in an existing context, since the determination of whether or not Bivens is
available in that context—and whether an alternate remedial scheme
is available—has already been made. Id. at 237 n.17. Taking
these two rules together makes clear that a failure to also consider
the injury in determining whether a claim presents a new context
would short-circuit the Bivens analysis because it risks ignoring a
remedial scheme addressing that very injury. Thus, the upshot of
Plaintiffs’ favored approach, which would appear to ignore the particular form of injury as nothing more than a “new tool,” would be
the expansion of Bivens based solely on the right at issue without
regard for remedial schemes that may exist—a result plainly contrary to the Supreme Court’s contemporary Bivens jurisprudence.

89a
Bivens might be appropriate in that context. Id. at 237;
see also Iqbal, 556 U.S. at 675 (observing that the Court’s
“reluctance [to extend Bivens since 1980] might well
have disposed of respondent’s First Amendment claim
of religious discrimination”). That said, after concluding a given claim involves extending Bivens to a new
context, a court should generally consider “(a) whether
there is an alternative remedial scheme available to the
plaintiff, and, even if there is not, (b) whether special
factors counsel hesitation in creating a Bivens remedy.”
Turkmen, 789 F.3d at 234 (quotations omitted). The
Court will do so here.
The existence of a system of administrative and judicial remedies for individuals who have been improperly
included on the No Fly List—the precise mechanism of
injury in this case—is sufficient to conclude that Bivens
should not be extended to this context. Specifically, Congress has directed the TSA to “establish a timely and
fair process for individuals identified [under the TSA’s
passenger prescreening function] to appeal to the [TSA]
and correct any erroneous information.” 49 U.S.C.
§ 44903( j)(2)(G)(i). The TSA is also required to “establish a procedure to enable airline passengers, who are
delayed or prohibited from boarding a flight because the
advanced passenger prescreening system determined
that they might pose a security threat, to appeal such
determination and correct information contained in the
system.” § 44903( j)(2)(C)(iii)(I). Congress also mandated that “[t]he Secretary of Homeland Security shall
establish a timely and fair process for individuals who
believe they have been delayed or prohibited from
boarding a commercial aircraft because they were
wrongly identified as a threat under the regimes utilized
by the [TSA],” § 44926(a), and that the Secretary “shall

90a
establish” procedures “to implement, coordinate, and execute the process” for redress, § 44926(b)(1). These legislative directives have resulted in the DHS TRIP program. See 49 C.F.R. § 1560.201 et seq. The TSA is
also required to maintain records for individuals whose
information has been corrected through its redress process. See §§ 44903( j)(2)(G)(ii), 44926(b)(2). Finally,
Congress has provided for judicial review of orders pertaining “to security duties and powers designated to be
carried out by” the TSA. § 46110(a). The bottom line,
then, is that Congress has crafted a remedial scheme for
individuals to challenge their inclusion on the No Fly
List and to judicially appeal an adverse determination.14
In their official capacity claims, Plaintiffs argue that this scheme
of judicial review is not exclusive and that they have recourse in this
Court under the APA for their claims concerning “the constitutional
‘adequacy’ of No Fly List placement, redress, and removal procedures.” Pls. Mem. at 25. Two courts of appeal have agreed with
this argument, albeit in the context of the original TRIP regime, not
the revised one. See Ibrahim v. Dep’t of Homeland Sec., 538 F.3d
1250 (9th Cir. 2008); Latif v. Holder, 686 F.3d 1122 (9th Cir. 2012);
Arjmand v. U.S. Dep’t of Homeland Sec., 745 F.3d 1300 (9th Cir.
2014); Ege v. U.S. Dep’t of Homeland Sec., 784 F.3d 791 (D.C. Cir.
2015). The Fourth Circuit has also adopted that reasoning in an
unpublished opinion. See Mohamed v. Holder, No. 11-1924, slip op.
at 4-6 (4th Cir. May 28, 2013). Were the official capacity claims to
proceed and were this Court to accept Plaintiffs’ argument, Plaintiffs would thus have a further remedial path that may be sufficient
to preclude the availability of a Bivens remedy. See, e.g., Western
Radio Servs. Co. v. U.S. Forest Serv., 578 F.3d 1116, 1123 (9th Cir.
2009) (“[T]he APA leaves no room for Bivens claims based on agency
action or inaction.”); Sinclair v. Hawke, 314 F.3d 934, 940 (8th Cir.
2003) (“[T]he existence of a right to judicial review under the Administrative Procedure Act is sufficient to preclude a Bivens action.”);
Miller v. U.S. Dep’t of Agr. Farm Servs. Agency, 143 F.3d 1413, 1416
(11th Cir. 1998) (“[T]he existence of a right to judicial review under
14

91a
Plaintiffs respond that this remedial scheme does not
provide for damages from the Agents personally and,
“[a]s such, TRIP and § 46110 are incapable of providing
remedies for the constitutional violations that the Special Agent Defendants committed.” Pls. Mem. at 45.
The remedies Congress has chosen to provide, however,
“need not be perfectly congruent,” Minneci, 132 S. Ct.
at 625, and they need not even “provide complete relief,”
Bush, 462 U.S. at 388. Indeed, although there can be
no dispute here that the scheme created by Congress
does not provide relief in the form of compensatory or
punitive damages from the Government or the Agents,
“[i]t does not matter that the creation of a Bivens remedy would obviously offer the prospect of relief for injuries that must now go unredressed.” Hudson Valley
Black Press v. I.R.S., 409 F.3d 106, 110 (2d Cir. 2005)
(quotation marks and alterations omitted). “That a particular plaintiff might suffer ‘unredressed’ injuries were
a court not to recognize a new type of Bivens action may
be a hard truth but it is a truth nonetheless and one to
which the Supreme Court has alerted potential litigants.”
Aryai v. Forfeiture Support Associates, 25 F. Supp. 3d
376, 395 (S.D.N.Y. 2012) (Preska, C.J.). The Court’s
jurisprudence instructs that the salient point, rather, is
that Congress has provided “what it considers adequate” for the relevant injury. Chilicky, 487 U.S. at 431
(1988) (emphasis added). 15 “So long as the plaintiff [s]
the APA is, alone, sufficient to preclude a federal employee from
bringing a Bivens action.”).
15
Analysis at this stage “include[s] an appropriate judicial deference to indications that congressional inaction has not been inadvertent.” Chilicky, 487 U.S. at 423. And as Plaintiffs’ themselves concede, “[t]he legislative history of the No Fly List remedial scheme
shows that Congress considered, and struck down, an amendment

92a
ha[ve] an avenue for some redress, bedrock principles of
separation of powers foreclose[] judicial imposition of a
new substantive liability.” Malesko, 534 U.S. at 69
(emphasis added). Indeed, it appears that the alternative remedial scheme here is far more comprehensive—
and effective—than that available to the Turkmen plaintiffs. Cf. Turkmen, 915 F. Supp. 2d at 353.
Nor is it relevant that Congress may not have had
constitutional violations of the sort alleged here—as opposed to administrative errors—in mind when crafting
the administrative and judicial review scheme it did.
See Pls. Mem. at 44. The Supreme Court has explicitly
rejected the argument that a remedy is inadequate because claimants “merely received that to which they
would have been entitled had there been no constitutional violation.” Chilicky, 487 U.S. at 427. In both
Bush and Chilicky, the Court rejected claims that a
Bivens remedy was necessary because the statutory
schemes did not provide for relief specifically intended
that would create a civil remedy against the Government if, following
the TRIP review process, the TSC decided not to remove the complainant from the No Fly List.” Pls. Mem. at 47 n.3. See H.R.
Rep. No. 108-724, pt. 5, at 270-71 (2004). Plaintiffs seek to sidestep
this legislative history because it concerns “a remedy against the
Government, not individual nominating agents.” Pls. Mem. at 47 n.3.
But nowhere has the Supreme Court suggested that courts should
look only to whether Congress has considered the specific question
of damages against federal officers in their personal capacity. Here,
Plaintiffs agree that Congress considered the question of what remedies would be appropriate in the context of the No Fly List and
specifically rejected the option of a civil remedy. “Congress’s pronouncements in the relevant context [thus] signal that it would not
support . . . a damages claim,” Lebron v. Rumsfeld, 670 F.3d
540, 548 (4th Cir. 2012) (Wilkerson, J.), and reinforce the conclusion
that a Bivens remedy is inappropriate here.

93a
to compensate a constitutional violation (First Amendment retaliation and Due Process violations, respectively) as opposed to the denial of a statutory right. “In
neither case . . . [did] the presence of alleged unconstitutional conduct that is not separately remedied under
the statutory scheme imply that the statute has provided ‘no remedy’ for the constitutional wrong at issue.”
Id. at 427-28 (emphasis in original). As Justice O’Connor explained in Chilicky, “the harm resulting from the
alleged constitutional violation can in neither case be
separated from the harm resulting from the denial of the
statutory right.” Id. at 428. The same is true here.
The crux of Plaintiffs’ injury is their improper inclusion
on the No Fly List as a result of the Agents’ alleged retaliation. And whether that injury resulted from administrative error, a constitutional violation, or both,
the dispositive point is that Congress’ remedial scheme
addresses precisely that injury.
In concluding that the remedial scheme crafted by
Congress forecloses the recognition of a Bivens action,
the Court does not overlook the fact that Plaintiffs in
their official capacity claims challenge the procedural
adequacy of that scheme. This Court does not today
consider whether the TRIP process is constitutionally
or otherwise deficient. Because the official capacity
claims are now stayed, the procedural adequacy of that
scheme, including the TRIP process, is a question for
another day. For purposes of assessing the viability of
a Bivens claim, however, it is enough to recognize that
an alternative remedial process is available. Indeed,
Plaintiffs have availed themselves of that process and
now have assurances from the Government that they
are not presently on the No Fly List. That is more

94a
than enough to conclude that the creation of a Bivens
remedy is inappropriate in these circumstances. 16
C.

RFRA Does Not Provide for Damages Against The
Agents

Plaintiffs also seek damages against the Agents pursuant to RFRA. Section 3 of that statute, which creates a private right of action and provides for judicial
remedies to enforce that right, states, in pertinent part,
that:
A person whose religious exercise has been burdened
in violation of this section may assert that violation as
a claim or defense in a judicial proceeding and obtain
appropriate relief against a government.
42 U.S.C. § 2000bb-1(c). The principal question that
divides the parties here is the meaning of “appropriate
relief.” Specifically, does the notion of “appropriate
relief ” encompass money damages against government
officials in their personal capacities? 17
Because an alternative remedial scheme is available in this context, the Court need not proceed to the second stage of inquiry and
consider the applicability of any additional special factors, including
the parties’ divergent arguments concerning the national security
implications of recognizing a Bivens action in this context. See
Defs. Mem. at 18-22; Pls. Mem. at 48-52.
17
The parties also dispute whether federal officials in their personal capacities are included within RFRA’s definition of “government” and thus amenable to suit under the statute at all. At least
two courts appear to have concluded that RFRA applies to personal
capacity claims against federal officials. See United Elmaghraby
v. Ashcroft, No. 04-CV-1809 (JG), 2005 WL 2375202, at *30 n.27
(E.D.N.Y. Sept. 27, 2005), aff ’d in part, rev’d in part and remanded
sub nom., Iqbal v. Hasty, 490 F.3d 143 (2d Cir. 2007), rev’d and remanded sub nom., Ashcroft v. Iqbal, 556 U.S. 662 (2009); Solomon v.
16

95a
“Statutory construction begins with the plain text
and, if that text is unambiguous, it usually ends there as
well.” United States v. Gayle, 342 F.3d 89, 92 (2d Cir.
2003). This is not the usual case, however, because the
plain text of RFRA merely raises, rather than answers,
the critical question. As the Supreme Court has recognized with respect to RFRA’s companion statute,
which includes identical language in this respect, the
phrase “ ‘appropriate relief ’ is open-ended and ambiguous about what types of relief it includes.” Sossamon
v. Texas, 131 S. Ct. 1651 (2011). 18 Indeed, “[f ]ar from
clearly identifying money damages, the word ‘appropriate’ is inherently context-dependent.” Id. “In some
Chin, No. 96-CIV-2619 (DC), 1997 WL 160643, at *5 (S.D.N.Y. Apr.
7, 1997). At least one other court, however, has expressed some
doubts about such a conclusion, at least in the national security context. See Lebron, 670 F.3d at 557. This Court need not address
the issue, however, in light of its conclusion that money damages are
unavailable under RFRA because, even assuming the Agents may
be sued in their personal capacities, Plaintiffs’ RFRA claim against
the Agents in their personal capacities here is limited to money damages. See Pls. Mem. at 49 n.24.
18
When the Supreme Court held RFRA unconstitutional as applied to state and local governments because it exceeded Congress’
power under § 5 of the Fourteenth Amendment, see City of Boerne
v. Flores, 521 U.S. 507, 519 (1997) (“Congress does not enforce a constitutional right by changing what that right is.”), Congress responded by enacting the Religious Land Use and Institutionalized
Persons Act of 2000 (RLUIPA), 114 Stat. 803, 42 U.S.C. § 2000cc
et seq., pursuant to its Spending Clause and Commerce Clause authority. See Sossamon, 131 S. Ct. at 1656. “RLUIPA borrows important elements from RFRA . . . includ[ing] an express private
cause of action that is taken from RFRA.” Id. at 1656. For that
reason, courts often apply “case law decided under RFRA to issues
that arise under RLUIPA” and vice-versa. Redd v. Wright, 597 F.3d
532, 535 n.2 (2d Cir. 2010).

96a
contexts, ‘appropriate relief ’ might include damages.”
Webman v. Fed. Bureau of Prisons, 441 F.3d 1022, 1026
(D.C. Cir. 2006). But “another plausible reading is
that ‘appropriate relief ’ covers equitable relief but not
damages.” Id. While the Supreme Court has acknowledged the availability of injunctive relief under
RFRA, see Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418, 425-30 (2006), neither
the Supreme Court nor any of the thirteen courts of appeals has held that RFRA provides for money damages.19 The question, then, remains: Does “appropriate relief ” in the context of RFRA encompass such damages? The answer is no.

Three courts of appeals have held that RFRA does not provide
for money damages against the United States (or its agents acting
in their official capacities) on the basis that “appropriate relief ” cannot include damages because the language does not amount to an
unambiguous waiver of sovereign immunity. See Webman, 441 F.3d
at 1026; Oklevueha Native Am. Church of Haw., Inc. v. Holder,
676 F.3d 829, 841 (9th Cir. 2012); Davila v. Gladden, 777 F.3d 1198,
1210 (11th Cir. 2015). Although the Second Circuit has not addressed the issue, Plaintiffs agree with that conclusion, see Pls.
Mem. at 84, and instead bring this case focusing on the remaining
gap in the RFRA jurisprudence: whether a damages action exists
against federal officials in their personal capacities. Because these
decisions (and Sossamon) are grounded in principles of sovereign
immunity, they are of limited assistance in addressing the question
of damages against those who “come to court as individuals,” Hafer,
502 U.S. at 27. At most, they may counsel caution in concluding
that the same term—even one as malleable as “appropriate relief ”—
can include damages as applied to one class of defendants but not
another.
19

The Court has also considered the Agents’ argument concerning
Washington v. Gonyea, 731 F.3d 143 (2d Cir. 2013), which held that
RLUIPA does not provide for damages against state officials in their

97a
Although the statute’s plain text is wanting in clarity,
“[t]he purpose and history of the statute elucidate the
meaning of this ambiguous phrase.” United States v.
Tohono O’Odham Nation, 131 S. Ct. 1723, 1736 (2011)
(Sotomayor, J., concurring); see also King v. Burwell,
135 S. Ct. 2480, 2496 (2015) (“A fair reading of legislation
demands a fair understanding of the legislative plan.”).
Indeed, Congress included detailed findings and an unambiguous statement of the law’s purpose in the statute itself. Section 2 of RFRA, codified at § 2000bb(b), provides that:
The purposes of this Act are—
(1) to restore the compelling interest test as set
forth in Sherbert v. Verner, 374 U.S. 398 (1963) and
Wisconsin v. Yoder, 406 U.S. 205 (1972) and to guarantee its application in all cases where free exercise
of religion is substantially burdened; and
(2) to provide a claim or defense to persons whose
religious exercise is substantially burdened by government.

personal capacities. As the panel explained, RLUIPA “was enacted
pursuant to Congress’ spending power, see 42 U.S.C. § 2000cc-1(b)(1),
which allows the imposition of conditions, such as individual liability,
only on those parties actually receiving the state funds.” Id. at 145.
Because the parties receiving the federal funds were state prison institutions, not state prison officials, Gonyea concluded “as a matter
of statutory interpretation and following the principle of constitutional avoidance” that RLUIPA did not create a personal capacity
damages action. Id. at 146. RFRA, by contrast, “was authorized
by the Necessary and Proper Clause.” Hankins v. Lyght, 441 F.3d
96, 106 (2d Cir. 2006). As such, the doctrinal concerns underlying
the conclusion in Gonyea do not assist here.

98a
RFRA was enacted three years after the Supreme
Court’s watershed decision in Employment Division v.
Smith, 494 U.S. 872 (1990), which, as the Act itself recounts, “virtually eliminated the requirement that the
government justify burdens on religious exercise imposed by laws neutral toward religion.” § 2000bb(a)(4).
Prior to Smith, the Supreme Court had employed a balancing test that took into account whether the challenged state action imposed a substantial burden on the
right to free exercise of religion, and if it did, whether
that action was necessary to serve a compelling government interest. Applying this test, the Court held in
Sherbert that an employee who was fired for refusing to
work on her Sabbath could not be denied unemployment
benefits. 374 U.S. at 408-409. And applying a similar
approach, the Court held in Yoder that Amish children
could not be required by state law to remain in school
until the age of 16 over the objection of their parents,
who viewed such education “as an impermissible exposure of their children to a ‘wordly’ influence in conflict
with their beliefs.” 406 U.S. at 210-211, 234-236.
The plaintiffs in Smith were two individuals who had
been fired from their jobs at a drug rehabilitation center
because they had ingested peyote as part of a religious
ceremony of the Native American Church, of which they
were both members. 494 U.S. at 874. They were subsequently denied state unemployment benefits after being found ineligible because of their discharge for workrelated “misconduct.” Id. Citing Supreme Court precedent, including Sherbert, the Oregon Supreme Court
concluded that “the state could not, consistent with the
First Amendment, deny unemployment compensation to
petitioners.” Smith v. Employment Div., 307 Or. 68,
71 (1988). The Supreme Court reversed.

99a
In his opinion for the closely divided Court, Justice
Scalia noted that its decisions “have consistently held
that the right of free exercise does not relieve an individual of the obligation to comply with a valid and neutral law of general applicability on the ground that the
law proscribes (or prescribes) conduct that his religion
prescribes (or proscribes).” Smith, 494 U.S. at 879
(quotation omitted). Indeed, Smith cautioned that “a
private right to ignore generally applicable laws” would
prove “a constitutional anomaly.” Id. at 886. In so
concluding, Smith distinguished the Court’s earlier decisions in Sherbert and Yoder, confining the former to its
facts, see id. at 884-85, and holding that the latter involved more than just the free exercise of religion, see
id. at 881 (discussing “the Free Exercise Clause in conjunction with other constitutional protections,” such as
the right of parents to direct the education of their children). Notable for present purposes, Smith did not
change the remedies available for a successful claim under the Free Exercise Clause. Indeed, it says nothing
about remedies at all.
Congress responded to Smith by affording greater
statutory protection than the Court in Smith had held
the Constitution offered. 20 Specifically, it concluded
While some have spoken of RFRA “overturning” Smith, “a statute cannot either enlarge or contract the Constitution.” Mack v.
O’Leary, 80 F.3d 1175, 1181 (7th Cir. 1996), vacated on other grounds,
522 U.S. 801 (1997). That Congress would seek to create a new
statutory right that exceeded constitutional baselines, however, is
not remarkable. “Indeed, Congress has often provided statutory
protection of individual liberties that exceed the Supreme Court’s
interpretation of constitutional protection.” Hankins, 441 F.3d at
107 (quotation omitted). In that respect, one aspect of RFRA’s test
is significant. As noted in City of Boerne, “the Act imposes in every
20

100a
that “the compelling interest test as set forth in prior
Federal court rulings”—that is, in Sherbert and Yoder—
offered “a workable test for striking sensible balances
between religious liberty and competing prior governmental interests.” § 2000bb(a)(5). As a result, in enacting RFRA, Congress sought “to restore the compelling interest test as set forth” in those earlier cases.
§ 2000bb(b). The Act thus created a new statutory
right beyond the constitutional baseline articulated in
Smith by providing that:
Government may substantially burden a person’s exercise of religion only if it demonstrates that application of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering
that compelling governmental interest.
§ 2000bb-1. In order to ensure that this new statutory
right (albeit one based in erstwhile constitutional doctrine) could be vindicated in the courts, Congress also
created a private right of action in § 3 providing for “appropriate relief ” against the Government.

case a least restrictive means requirement—a requirement that was
not used in the pre-Smith jurisprudence RFRA purported to codify.” 521 U.S. at 535. “On this understanding of [the Supreme
Court’s] pre-Smith cases, RFRA did more than merely restore the
balancing test used in the Sherbert line of cases; it provided even
broader protection for religious liberty than was available under
those decisions.” Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct.
2751, 2761 n.3 (2014). As discussed below, however, that breadth
did not include expanding the scope of remedies available as compared with those previously available for constitutional violations.

101a
Plaintiffs, however, see something more ambitious in
RFRA. In addition to restoring the standard by which
free exercise claims were adjudicated, Plaintiffs appear
to argue the language in § 3 demonstrates Congress’ intent to expand the scope of remedies available where an
individual’s religious freedom is abridged. But as Judge
Posner persuasively noted shortly after RFRA became
law, since the statute “says very little about remedies
. . . it is unlikely that Congress intended it to displace
the existing remedial system for constitutional violations.” Mack v. O’Leary, 80 F.3d 1175, 1181 (7th Cir.
1996), vacated on other grounds, 522 U.S. 801 (1997).
Indeed, nothing in the Act’s Congressional findings or
statements of purpose says anything about changing the
remedial scheme applicable to free exercise claims.
And nothing on the face of the Act’s substantive provisions outwardly suggests they do anything other than
carry out the law’s stated purpose—namely, restoring
the compelling interest test as it existed before Smith.
As noted in the discussion of official and personal capacity claims above, see supra 12-14, a Bivens action would
have provided the only potential path for an individual
seeking personal capacity damages from a federal official for violation of the Free Exercise Clause at the time
of RFRA’s enactment. And as also discussed at length
above, the Supreme Court has never recognized a
Bivens remedy for violations of the Free Exercise
Clause. See supra at 17-20. As a consequence, to interpret RFRA’s reference to “appropriate relief ” as
contemplating a remedy then unknown to the law is, at
the least, a stretch. Rather, the plain language of the
statute read in the light of its stated purpose suggests
the law changed the standard applicable to free exercise

102a
claims while retaining all remedies that were understood as “appropriate” for claims under the Free Exercise Clause—and nothing more.
The conclusion that RFRA did not displace the existing remedial scheme—whether by adding to or removing from it—is reinforced by the statute’s legislative
history. Indeed, both House and Senate committee
reports, which are regarded as “the most authoritative
and reliable materials of legislative history,” Disabled
in Action of Metro. New York v. Hammons, 202 F.3d
110, 124 (2d Cir. 2000), evidence concern about the potential misinterpretation of RFRA’s impact on existing
law. For example, the Senate Judiciary Committee’s
report states that “[a]lthough the purpose of this act is
only to overturn the Supreme Court’s decision in Smith,
concerns have been raised that the act could have unintended consequences and unsettle other areas of the
law.” S. Rep. No. 103-111 (“S. Rep.”) at 12; see also
H.R. Rep. No. 103-88 (“H.R. Rep.”) at 8 (including essentially identical language). In particular, the legislative history includes discussion of the bill’s potential
impact on abortion rights, the ability of religious organizations to participate in publicly funded social welfare
and educational programs, and the availability of tax
emptions for such organizations. See S. Rep. at 12;
H.R. Rep. at 8. Thus, the Senate Judiciary Committee’s report states that:
To be absolutely clear, the act does not expand, contract or alter the ability of a claimant to obtain relief
in a manner consistent with the Supreme Courts’s
[sic] free exercise jurisprudence under the compelling governmental interest test prior to Smith.

103a
S. Rep. at 12; see also H.R. Rep. at 8 (including essentially
identical language). In view of such an understanding—
and against a backdrop where the Supreme Court has
never recognized a Bivens remedy under the Free Exercise Clause, whether before or after Smith—it would
seem strange indeed for Congress to have employed a
phrase as ambiguous as “appropriate relief ” to create
such a remedy where one was not previously recognized.
The contrast between the language in RFRA’s remedial provision and every other federal statute identified
by Plaintiffs as recognizing a personal capacity damages
action against federal officers also points away from the
conclusion they urge. Indeed, each of these four statutes includes specific reference to the availability of damages. Section 1985’s remedial clause speaks of “an action
for the recovery of damages.” 42 U.S.C. § 1985. The
Foreign Intelligence Surveillance Act permits “recover[y]
. . . [of ] actual damages . . . [and] punitive damages.” 50 U.S.C. § 1810. The Telecommunication Acts
provides that a court “may award damages.” 47 U.S.C.
§ 605(e)(3). And although the Federal Wiretap Act
provides for “appropriate relief,” that term is specifically defined to include “damages . . . and punitive
damages in appropriate cases.” 18 U.S.C. § 2520(b).
Because Congress knows how to create a personal capacity damages remedy (and because Plaintiffs have not
pointed to a single statute where “appropriate relief ”
was interpreted to include such a remedy without an explicit definition to that effect), one might reasonably ex-

104a
pect such language if Congress in fact intended to depart from the pre-Smith world in such a significant
way.21
Nonetheless, Plaintiffs contend that Congress’s reference to “appropriate relief ” in RFRA’s private right
of action triggers the “ordinary convention” recognized
in Franklin v. Gwinnett Cnty. Pub. Sch., whereby courts
“presume the availability of all appropriate remedies
unless Congress has expressly indicated otherwise.”
503 U.S. 60, 76, 66 (1992); see also Bell v. Hood, 327 U.S.
678, 684 (1946) (“[W]here legal rights have been invaded, and a federal statute provides for a general right
Plaintiffs correctly observe that 42 U.S.C. § 1983, although usually concerned with the activities of state officials, also provides for
damages against a federal official in his personal capacity where
“state and federal defendants conspire[] under color of state law to
deprive plaintiff [s] of federally guaranteed rights.” See Kletschka
v. Driver, 411 F.2d 436, 442, 448-49 (2d Cir. 1969). Even § 1983,
however, is clear that appropriate relief under that statute includes
“an action at law,” which is to say, damages. See City of Monterey
v. Del Monte Dunes at Monterey, Ltd., 526 U.S. 687, 710-11 (1999).
21

Plaintiffs also note that Congress has sometimes specifically excluded damages from their definitions of “appropriate relief ” and
that “numerous” federal statutes specifically include injunctive and
other equitable relief within their definitions of “appropriate relief.”
See Pls. Mem. at 83-84 (citing 5 U.S.C. § 702; 42 U.S.C. § 6395(e)(1);
15 U.S.C. § 797(b)(5); 16 U.S.C. § 973i(e); 2 U.S.C. § 437g(a)(6)(A);
8 U.S.C. § 1324a(f )(2); 12 U.S.C. § 1715z-4a(b); 15 U.S.C. § 6309(a)).
None of these statutes, however, concerns the creation of a damages
remedy against federal officers in their personal capacities and, as
such, the value of Plaintiffs’ analogy is diminished. In any event,
the Supreme Court has “several times affirmed that identical language may convey varying content when used in different statutes,
sometimes even in different provisions of the same statute.” Yates
v. United States, 135 S. Ct. 1074, 1082 (2015) (collecting cases).

105a
to sue for such invasion, federal courts may use any
available remedy to make good the wrong done.”). But
whatever force of that rule in some contexts, it lacks any
here. As noted in Sossamon, which interpreted this
very statutory provision as borrowed in RFRA’s companion statute,22 Franklin required the Supreme Court
to interpret the scope of an implied statutory right of
action. “With no statutory text to interpret, the Court
‘presume[d] the availability of all appropriate remedies
unless Congress ha[d] expressly indicated otherwise.’ ”
Sossamon, 131 S. Ct. at 1660 (quoting Franklin, 503 U.S.
at 66); accord Landgraf v. USI Film Products, 511 U.S.
244, 285 n.38 (1994). That is not the case here, however, as Congress has created “an express private cause
of action” that provides for “appropriate relief.” Sossamon, 131 S. Ct. at 1656. The Franklin presumption is
thus inapplicable, and the meaning of “appropriate relief ” must be discerned using the traditional tools of
statutory construction. Those tools, as noted above,
point to the conclusion that Congress did not intend to
create a Bivens-type action with the language of “appropriate relief.”
Plaintiffs also seek support in Jama v. U.S.I.N.S.,
343 F. Supp. 2d 338 (D.N.J. 2004), where the court determined that RFRA provides for personal capacity
damages against federal officers. But that decision,
and subsequent district court opinions adopting its reasoning, 23 rest on a crucial yet flawed premise—that
See supra note 18.
See Lepp v. Gonzales, No. C-05-0566 (VRW), 2005 WL 1867723,
at *8 (N.D. Cal. Aug. 2, 2005); Padilla v. Yoo, 633 F. Supp. 2d 1005,
1039 (N.D. Cal. 2009), as amended, (June 18, 2009), rev’d on other
grounds, 678 F.3d 748 (9th Cir. 2012);
22
23

106a
“[c]ourts have always recognized § 1983 and Bivens
claims for money damages against officials for violation
of the Free Exercise Clause.” Id. at 374 (emphasis
added). Setting aside the § 1983 cases, which have no
bearing on whether a claim exists under Bivens, there is
no question—in light of Iqbal, Reichle, and, most recently, Turkmen—that the Supreme Court has never
recognized a Bivens remedy for violations of the Free
Exercise Clause. See supra at 17-21. 24 Indeed, before RFRA was enacted in 1993, the Supreme Court’s

Jama’s (and Plaintiffs’) sole citation to contrary authority is a
single decision of the Sixth Circuit concerning a prisoner’s free exercise claim. In that case, Jihaad v. O’Brien, 645 F.2d 556 (6th Cir.
1981), the court adopted the holding of an earlier panel extending
Bivens to the First Amendment as a whole—not merely to Free Exercise Clause, see id. at 558 n.1. That prior panel’s reasoning on
this point was as follows: “We recognize that Bivens dealt with a
Fourth Amendment violation, but its logic appears to us to be
equally applicable to a First Amendment violation.” Yiamouyiannis v. Chem. Abstracts Serv., 521 F.2d 1392, 1393 (6th Cir. 1975).
Although such reasoning may have seemed perfectly reasonable in
1975 (shortly after Bivens was decided), it has become untenable in
the years after 1980, as cases such as Turkmen ably demonstrate.
Indeed, the Sixth Circuit itself recently expressed doubts about the
availability of Bivens in the free exercise context, notwithstanding
its earlier holdings in Yiamouyiannis and Jihaad. See Meeks v.
Larsen, No. 14-1381, ___ F. App’x. ___, 2015 WL 2056346, at *9
(6th Cir. May 5, 2015) (observing that “there is a dearth of precedent
applying Bivens to free-exercise claims” and quoting the Eighth Circuit’s conclusion that Bivens’ availability in such contexts is “doubtful”).
Plaintiffs also point to Mack for the proposition that at least one
court of appeal has concluded that “appropriate relief ” includes personal capacity damages. See Pls. Mem. at 85. But such reliance is
difficult to justify because defendants there did not contest the availability of damages. As Judge Posner’s opinion in that case ob24

107a
only Bivens case in the First Amendment context came
in the form of its refusal to recognize such an action in
Bush—decided a full decade before RFRA became law.
In the end, “the fundamental task for the judge is
to determine what Congress was trying to do in passing the law.”
R. Katzmann, Judging Statutes 31
(2014); see also Lehigh Valley Coal Co. v. Yensavage,
218 F. 547, 553 (2d Cir. 1914) (Hand, J.) (“[S]tatutes
. . . should be construed, not as theorems of Euclid,
but with some imagination of the purposes which lie behind them.”) As explained, Congress’ intent in enacting RFRA could not be clearer: It was to restore Congress’ understanding of the compelling interest test as
it existed before Smith—no more, no less. And “[b]ecause
Congress enacted RFRA to return to a pre-Smith
world, a world in which damages were unavailable
against the government, ‘appropriate relief ’ is most naturally read to exclude damages against the govern-

served, they “d[id] not question the propriety of damages as a remedy for violations of the Act, even though [RFRA] says nothing about
remedies except that a person whose rights under the Act are violated ‘may assert that violation as a claim or defense in a judicial
proceeding and obtain appropriate relief against a government.’ ”
80 F.3d at 1177 (citing § 2000bb-1(c), emphasis added in Mack).

108a
ment.” Webman, 441 F.3d at 1028 (Tatel, J., concurring). 25
Plaintiffs’ argument to the contrary thus
26
fails.
CONCLUSION

Although federal law imposes limits on the investigative tactics federal officials may employ in seeking to
keep this nation safe, it also establishes limits on the
manner in which an individual may vindicate his rights
should those tactics cross the line. For the reasons
stated, the law does not permit Plaintiffs to seek damages against the Agents in their personal capacities either under Bivens or RFRA. Accordingly, the Agents’
motion to dismiss is GRANTED and the claims against
FNU Tanzin, Sanya Garcia, Francisco Artusa, John
25
RFRA provides only for relief “against the government,” which
is defined to include “a branch, department, agency, instrumentality,
and official (or other person acting under color of law) of the United
States, or of a covered entity.” 42 U.S.C. § 2000bb-2(1). As noted
above, see supra note 17, the Court need not address the predicate
question of whether “the government” includes federal officials sued
in their personal capacity in light of its conclusion that “appropriate
relief ” does not encompass damages in any event.
26
Plaintiffs’ argument might carry more weight were the Supreme
Court eventually to recognize a Bivens remedy in the First Amendment context. The Supreme Court has observed, in a related context, that “[t]he meaning of the word ‘appropriate’ permits its scope
to expand to include . . . remedies that were not appropriate before . . . , but in light of legal change . . . are appropriate
now.” West v. Gibson, 527 U.S. 212, 218 (1999) (holding that Title
VII’s reference to “appropriate remedies” as passed in 1972 should
be interpreted to include compensatory damages in light of subsequent legal developments in 1991). Thus, were the Supreme Court
to recognize a Bivens remedy under the Free Exercise Clause, it
might well be that “appropriate relief ” under RFRA would be held
to encompass personal capacity damages.

109a
LNU, Michael Rutowski, William Gale, John C. Harley
III, Steven LNU, Michael LNU, Gregg Grossoehmig,
Weysan Dun, James C. Langenberg, John Does 1-6 and
9-13 in their personal capacities are dismissed. The
Court on its own motion also dismisses all personal capacity claims against John Does 7 and 8. See Hecht v.
Commerce Clearing House, Inc., 897 F.2d 21, 26 n.6
(2d Cir. 1990). As previously noted, this opinion does
not address the viability of Plaintiffs’ official capacity
claims and thus expresses no opinion on the merits or
their arguments concerning the manner in which individuals are added to the No Fly List or the mechanisms
for challenging such inclusion. The parties are directed
to submit a joint letter to the Court within 30 days advising how they wish to proceed with respect to those
claims.
SO ORDERED.
Dated:

Sept. 3, 2015
New York, New York
/s/

RONNIE ABRAMS
RONNIE ABRAMS
United States District Judge

110a
APPENDIX D
UNITED STATES DISTTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

No. 13-CV-6951 (RA)
MUHAMMAD TANVIR, JAMEEL ALGIBHAH,
AWAIS SAJJAD, AND NAVEED SHINWARI, PLAINTIFFS
v.
LORETTA E. LYNCH, ATTORNEY GENERAL
OF THE UNITED STATES, ET AL., DEFENDANTS
Filed: Dec. 28, 2015
ORDER

RONNIE ABRAMS, United States District Judge:
On September 3, 2015, the Court issued an Opinion
and Order dismissing Plaintiffs’ individual capacity claims
against Defendants FNU Tanzin, Sanya Garcia, Francisco Artusa, John LNU, Michael Rutkowski, William
Gale, John C. Harley III, Steven LNU, Michael LNU,
Gregg Grossoehmig, Weysan Dun, James C. Langenberg, and John Does 1-13. See Dkt. 104. The Opinion
also directed the parties to advise the Court as to how
they wish to proceed with respect to Plaintiffs’ official
capacity claims against Defendants. See id. at 36.
On October 5, 2015, the parties submitted a joint letter in which they agreed “that Plaintiffs’ official capacity
claims for relief against Defendants should be dismissed

111a
without prejudice and entry of final judgment is appropriate.” Dkt. 105. The letter indicated that the parties would submit a proposed order and judgment to the
Court.
On December 18, 2015, the parties informed the
Court that they would not agree to the language in a
proposed order. See Dkt. 108. The parties submitted
two proposed orders for the Court’s review, one drafted
by Plaintiffs and one drafted by Defendants. The only
significant difference between them is that Plaintiffs’
proposed order recites what Plaintiffs describe as “basic
procedural facts that led to the dismissal.” Id. at 1.
Plaintiffs seek to have “these facts be set forth in a
judicially-issued document.” Id. at 2. Plaintiffs also
“advise the Court that, while they do not presently intend to seek attorneys’ fees and costs, they do not wish
to rule out the possibility of any such application entirely at this time.” Id.
Defendants contend that Plaintiffs’ proposed order
“goes substantially beyond the terms agreed to by the
parties” in their October 5 letter and that there is no
need to include the additional information in that proposed order because “the chronology that Plaintiffs assert led to their withdrawing their claims will now be a
matter of public record by virtue of [the December 18
letter].” Id. Defendants also argue that Plaintiffs
“seek to transform an on-consent voluntary dismissal of
their claims into a document intended to support a potential [attorneys’] fee application. Id. at 3. The parties do not appear to dispute that Defendants’ proposed
order “accurately reflects the terms that Plaintiffs outlined to the Court in their October 5, 2015 letter.” Id.

112a
The Court agrees with Defendants that Plaintiffs’
proposed order is unnecessarily overinclusive. To the
extent members of the public seek information regarding why Plaintiffs agreed to voluntarily dismiss their official capacity claims without prejudice, they may review
the December 18 letter and other filings made in this
lawsuit. The Court currently takes no position regarding the viability of Plaintiffs’ possible motion for attorneys’ fees and costs.
Because the parties agree that Plaintiffs’ official capacity claims against Defendants may be dismissed without prejudice, the Court so dismisses them. The Clerk
of Court is respectfully directed to enter final judgment
in favor of Defendants. Plaintiffs may have until January 29, 2016 to move for attorneys’ fees and costs. If
no motion is filed by that date, this action will be terminated on the docket.
SO ORDERED.
Dated:

Dec. 28, 2015
New York, New York
/s/

RONNIE ABRAMS
RONNIE ABRAMS
United States District Judge

113a
APPENDIX E
UNITED STATES DISTTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

No. 13-CV-6951 (RA)
MUHAMMAD TANVIR, JAMEEL ALGIBHAH,
AWAIS SAJJAD, AND NAVEED SHINWARI, PLAINTIFFS
v.
LORETTA E. LYNCH, ATTORNEY GENERAL
OF THE UNITED STATES, ET AL., DEFENDANTS
Filed: Feb. 1, 2016
ORDER

RONNIE ABRAMS, United States District Judge:
On September 3, 2015, the Court dismissed Plaintiffs’
individual capacity claims against Defendants FNU
Tanzin, Sanya Garcia, Francisco Artusa, John LNU, Michael Rutkowski, William Gale, John C. Harley III, Steven LNU, Michael LNU, Gregg Grossoehmig, Weysan
Dun, James C. Langenberg, and John Does 1-13. See
Dkt. 104. On December 28, 2015, the Court—on consent of the parties—dismissed without prejudice Plaintiffs’ remaining official capacity claims. See Dkt. 109.
The December 28 Order noted that unless Plaintiffs
moved for attorneys’ fees and costs by January 29, 2016,
“this action will be terminated on the docket.” Id. at 3.
On January 29, 2016, Plaintiffs informed the Court that
they “will not seek an award of fees and costs at this

114a
stage or the litigation.” Dkt. 110. The Clerk or Court is
accordingly respectfully directed to enter final judgment
in favor of Defendants and to terminate this action.
SO ORDERED.
Dated:

Feb. 1, 2016
New York, New York
/s/

RONNIE ABRAMS
RONNIE ABRAMS
United States District Judge

115a
APPENDIX F

1.

42 U.S.C. 2000bb provides:

Congressional findings and declaration of purposes
(a)

Findings

The Congress finds that—
(1) the framers of the Constitution, recognizing free
exercise of religion as an unalienable right, secured its
protection in the First Amendment to the Constitution;
(2) laws “neutral” toward religion may burden religious exercise as surely as laws intended to interfere
with religious exercise;
(3) governments should not substantially burden
religious exercise without compelling justification;
(4) in Employment Division v. Smith, 494 U.S. 872
(1990) the Supreme Court virtually eliminated the requirement that the government justify burdens on religious exercise imposed by laws neutral toward religion;
and
(5) the compelling interest test as set forth in prior
Federal court rulings is a workable test for striking sensible balances between religious liberty and competing
prior governmental interests.
(b)

Purposes

The purposes of this chapter are—
(1) to restore the compelling interest test as set
forth in Sherbert v. Verner, 374 U.S. 398 (1963) and Wisconsin v. Yoder, 406 U.S. 205 (1972) and to guarantee its

116a
application in all cases where free exercise of religion is
substantially burdened; and
(2) to provide a claim or defense to persons whose religious exercise is substantially burdened by government.
2.

42 U.S.C. 2000bb-1 provides:

Free exercise of religion protected
(a)

In general

Government shall not substantially burden a person’s
exercise of religion even if the burden results from a rule
of general applicability, except as provided in subsection
(b) of this section.
(b)

Exception

Government may substantially burden a person’s exercise of religion only if it demonstrates that application
of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering
that compelling governmental interest.
(c)

Judicial relief

A person whose religious exercise has been burdened
in violation of this section may assert that violation as a
claim or defense in a judicial proceeding and obtain appropriate relief against a government. Standing to assert a claim or defense under this section shall be governed by the general rules of standing under article III
of the Constitution.

117a
3.

42 U.S.C. 2000bb-2 provides:

Definitions

As used in this chapter—
(1) the term “government” includes a branch,
department, agency, instrumentality, and official (or
other person acting under color of law) of the United
States, or of a covered entity;
(2) the term “covered entity” means the District
of Columbia, the Commonwealth of Puerto Rico, and
each territory and possession of the United States;
(3) the term “demonstrates” means meets the
burdens of going forward with the evidence and of
persuasion; and
(4) the term “exercise of religion” means religious
exercise, as defined in section 2000cc-5 of this title.
4.

42 U.S.C. 2000bb-3 provides:

Applicability
(a)

In general

This chapter applies to all Federal law, and the implementation of that law, whether statutory or otherwise,
and whether adopted before or after November 16, 1993.
(b)

Rule of construction

Federal statutory law adopted after November 16,
1993, is subject to this chapter unless such law explicitly
excludes such application by reference to this chapter.

118a
(c)

Religious belief unaffected

Nothing in this chapter shall be construed to authorize any government to burden any religious belief.
5.

42 U.S.C. 2000bb-4 provides:

Establishment clause unaffected

Nothing in this chapter shall be construed to affect,
interpret, or in any way address that portion of the First
Amendment prohibiting laws respecting the establishment of religion (referred to in this section as the “Establishment Clause”). Granting government funding,
benefits, or exemptions, to the extent permissible under
the Establishment Clause, shall not constitute a violation of this chapter. As used in this section, the term
“granting”, used with respect to government funding,
benefits, or exemptions, does not include the denial of
government funding, benefits, or exemptions.

